<html>
<title> - OVERSIGHT HEARING ON THE REINTRODUCTION OF THE GRIZZLY BEAR IN THE PUBLIC DOMAIN NATIONAL FORESTS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
  OVERSIGHT HEARING ON THE REINTRODUCTION OF THE GRIZZLY BEAR IN THE 
                     PUBLIC DOMAIN NATIONAL FORESTS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION


                               __________

                     JUNE 12, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-42

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 44-273 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ----------------------
BOB SCHAFFER, Colorado               ----------------------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 12, 1997.......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement.......................................     2
    Hill, Hon. Rick, a Representative in Congress from the State 
      of Montana.................................................     3
    Vento, Hon. Bruce, a Representative in Congress from the 
      State of Minnesota.........................................     4

Statements of witnesses:
    Benedetto, Kathleen, Communities for a Great Northwest, 
      Billings, MT...............................................    55
        Prepared statement.......................................   169
    Branch, Senator Ric, Idaho State Senate, Midvale, ID.........    39
    Bugli, Shirley, Concerned About Grizzlies, Stevensville, MT..    59
    Carlson, Rita, BlueRibbon Coalition, Lewiston, ID............    57
        Prepared statement.......................................   172
    Church, Phil, Resource Organization on Timber Supply, 
      Lewiston, ID...............................................    70
        Prepared statement.......................................   199
    Fischer, Hank, Defenders of Wildlife, Missoula, MT...........    71
        Prepared statement.......................................   201
    France, Thomas, National Wildlife Federation, Missoula, 
      Montana....................................................    66
        Prepared statement.......................................   178
    Kempthorne, Senator, prepared statement......................     6
    Mealey, Stephen, Idaho Department of Fish and Game, Boise, ID    41
        Prepared statement.......................................   151
    Morgenweck, Dr. Ralph, Director, Mountain Prairie Region, 
      U.S. Fish and Wildlife Service, Denver, CO.................     8
        Prepared statement.......................................   123
    Riley, Jim, Intermountain Forest Industry Association, Coeur 
      d'Alene, ID................................................    67
        Prepared statement.......................................   194
    Salwasser, Hal, Regional Forester, USDA Forest Service, 
      Missoula, MT...............................................    10
        Prepared statement.......................................   131
    Strickler, Ted, Custer County Commissioner, Challis, ID......    42
        Prepared statement.......................................   165

Additional material supplied:
    Batt, Hon. Philip E., Governor, Idaho, prepared statement of.   144
    Briefing Paper...............................................    84
    Calgary Herald edition.......................................   207
    Concerned About Grizzlies, Hamilton, Montana, prepared 
      statement of...............................................   175
    Joint memorial...............................................   143
    Outdoor Life edition.........................................   135
    Public Opinions and Attitudes Toward Reintroducing Grizzly 
      Bears to the Selway-Bitterroot Wilderness Area of Idaho and 
      Montana....................................................    96
    Revised Draft, 5/20/96, Endangered Species Act, Rule 10(j)...    89

Communications received:
    Governor's letter............................................   141
    Idaho delegation letter......................................    85
    Idaho Falls, Post Register, .................................   184
    Letter to Hon. Bruce Babbitt from Members....................   149
    New York Times...............................................   187
    Racicot, Hon. Marc, Governor, Montana, letter to John Weaver, 
      U.S. Fish & Wildlife Service...............................   183



  OVERSIGHT HEARING ON THE REINTRODUCTION OF THE GRIZZLY BEAR IN THE 
                     PUBLIC DOMAIN NATIONAL FORESTS

                              ----------                              


                        THURSDAY, JUNE 12, 1997

                  House of Representatives,
         Subcommittee on Forests and Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth (Chairwoman of the Subcommittee) presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Ladies and gentlemen, the Subcommittee on 
Forests and Forest Health will come to order. The Subcommittee 
is meeting today to hear testimony on the reintroduction of the 
grizzly bear in the public domain national forests.
    Under Rule 4[g] of the Committee rules, any oral opening 
statements at hearings are limited to the Chairman and the 
ranking minority member. This will allow us to hear from our 
witnesses sooner and help members keep to their schedules. 
Therefore, if other members have statements, they can be 
included in the hearing record under unanimous consent.
    I want to welcome everyone to this hearing today and to 
offer a special welcome to our witnesses. As everyone knows, I, 
along with Governor Phil Batt, Senator Larry Craig, Senator 
Dirk Kempthorne, and Congressman Mike Crapo, have gone on 
record as opposing the reintroduction of grizzly bears into the 
Selway-Bitterroot area of Idaho or anyplace in Idaho.
    In addition to our opposition, I hold in my hand a Joint 
Memorial passed by the Idaho State Legislature opposing the 
reintroduction of the grizzly bear in Idaho. And without 
objection, I would like to make sure that a copy of this 
memorial is entered into the record.
    [Joint memorial follows:]
    Mrs. Chenoweth. With the Governor saying no, the State 
legislature saying no, the entire Idaho congressional 
delegation saying no, and the people of Idaho saying no, what 
part of no doesn't the Department of Interior understand?
    In a letter to Secretary of the Interior Bruce Babbitt 
dated May 15, 1997, as a unified congressional delegation we 
wrote to express our concerns with the proposal and to try and 
obtain more information. We have yet to receive answers to our 
questions, and our con-

cerns remain unresolved. That is in large part one of the 
reasons why we are having this hearing today.
    The opposition to the reintroduction of the grizzly bear 
originates from a variety of places. The grizzly bear is known 
to be unpredictable and dangerous to people and livestock. Its 
Latin name says it all: Ursus Arctos Horribilis. What is most 
disconcerting is that the Department of Interior has not 
demonstrated an understanding nor a willingness to allow State 
and counties the ability to properly protect its citizens.
    It is my belief that the issue of reintroduction of the 
grizzly bear is an issue of local control, as well as one of 
States rights. It is an issue of local control. And as we will 
hear today, the local people do not want the grizzly bear 
foisted upon them by the Federal Government.
    In my view, too many issues remain unresolved. If the 
Federal Government places this lethal weapon into the public 
domain, who is liable for livestock and property damage? Who is 
liable for personal injury and the potential loss of life? What 
about human life and limb? Who will pay for all of this? How 
can you pay for a human life or the life of a child?
    Additionally, grizzly bears do not recognize boundaries and 
jurisdictional lines. If a bear were to wander from the initial 
point of introduction, will the new area become habitat and 
what effect will that have?
    More importantly though is the question that has been 
raised of whether or not the proposed site of introduction, the 
Selway-Bitterroot, is even suitable grizzly habitat. The 
concerns are many but until we received fundamental answers to 
questions about the loss of local control, about the protection 
of people and their property, and about the role of the State, 
I will oppose the introduction at every possible opportunity.
    I question the wisdom of an effort to place a lethal weapon 
into public domain forests when there remain habitat 
suitability questions and when there currently exists a 
thriving population of the species just a couple of hundred 
miles to the southeast of the proposed site.
    This, coupled with the State's vehement objections, should 
provide an easy answer to the question of whether the 
Administration should proceed at all with this introduction. 
The Chairman now recognizes Mr. Hill from Montana and without 
objection would welcome his statement. Thank you.
    [Statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    I want to welcome everyone to this hearing today and offer 
a special welcome to our witnesses. As everyone knows, I, along 
with Governor Phil Batt, Senator Larry Craig, Senator Dirk 
Kempthorne, and Congressman Mike Crapo, have gone on record as 
opposing the reintroduction of grizzly bears into the Selway-
Bitterroot area of Idaho. In addition to our opposition, I hold 
in my hand a Joint Memorial passed by the Idaho State 
Legislature opposing the reintroduction of the grizzly bear in 
Idaho.
    With the governor saying no, the State Legislature saying 
no, the entire Idaho Congressional Delegation saying no, and 
the people of Idaho saying no, what part of no does the 
Department of Interior not understand.
    In a letter to Secretary of the Interior Bruce Babbitt 
dated May 15, 1997, as a unified Congressional Delegation we 
wrote to express our concerns with the pro-

posal and to try and obtain more information. We have yet to 
receive answers to our questions and our concerns remain 
unresolved.
    The opposition to the reintroduction of the grizzly bear 
originates from a variety of places. The grizzly bear is know 
to be unpredictable and dangerous to people, and livestock. 
It's Latin name says it all: Ursus Arctos HORRIBlLIS. What is 
most disconcerting is that the Department of the Interior has 
not demonstrated and understanding nor a willingness to allow 
State and counties the ability to properly protect citizens.
    It is my belief that the issue of reintroduction of the 
grizzly bear is an issue of local control as well as one of 
States rights. And as we will hear today, the local people do 
not want the grizzly bear foisted upon them by the Federal 
Government.
    In my view, too many issues remain unresolved. If the 
Federal Government places this lethal weapon into the public 
domain, who is liable for livestock and property damage? What 
about loss of human life and limb? Who will pay for all of 
this? Additionally, grizzly bears do not recognize boundaries 
and jurisdictional lines. If a bear were to wander from the 
initial point of introduction, will the new area become habitat 
and what effect will it have?
    Most importantly, though, is the question that has been 
raised of whether or not the proposed site of introduction, the 
Selway-Bitterroot, is even be suitable grizzly habitat. The 
concerns are many, but until we receive fundamental answers to 
concerns about the loss of local control, about the protection 
of people and their property, and about the role of the State, 
I will oppose the reintroduction at every possible opportunity.
    I question the wisdom of an effort to place a lethal weapon 
into public domain forests when there remain habitat-
suitability questions and when there currently exists a 
thriving population of the species just a couple of hundred 
miles to the southeast of the proposed site. This, coupled with 
the State's vehement objections, should provide an easy answer 
to the question of whether the Administration should proceed 
with the reintroduction.

STATEMENT OF HON. RICK HILL, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF MONTANA

    Mr. Hill. Thank you, Madam Chairman, and good morning. I 
want to thank the Chairman for holding this oversight hearing, 
and I appreciate the opportunity to be here. Grizzly 
introduction is certainly a very important issue in the State 
of Montana, and like other endangered species issues, it is 
proving to be quite controversial.
    I would also like to welcome the witnesses who are here 
today and especially recognize those from Montana who are here 
today to participate in the hearing. The truth that I am most 
interested in today is how the Montanans feel about the 
reintroduction of the grizzly and what is the reality of that 
reintroduction; not what should happen in a perfect world but 
what will happen and how will Montana be impacted.
    As we go through this process, the most important thing to 
me is public input and protecting the rights of individuals, 
industry, sportsmen, and interest groups while being sensitive 
to the desire of restoring grizzlies in the Selway-Bitterroot. 
I believe strongly that if reintroduction actually does take 
place, the locals should be involved in every aspect of grizzly 
bear reintroduction and management, not just in an advisory 
capacity but as a group that has real power to effect change 
and to set policy.
    Unfortunately, I think history shows that in spite of good 
intentions, the public is not the final decisionmaker, nor the 
chief manager of species and habitat. Final decisions and plans 
are ultimately made by the U.S. Fish and Wildlife Service here 
in Washington, DC. I understand the Forest Service has met with 
impacted communities and will continue to do so as the process 
goes forward, and I appreciate the efforts being made to keep 
communities involved in that process.
    I strongly believe that if reintroduction takes place, the 
only way it will be successful is if there is a consensus among 
impacted groups. Although there have been assurances that there 
will be a Citizen Management Committee to develop policy and 
work plans, there is a great deal of skepticism on the part of 
most Montanans on whether they really will have a final say on 
the management responsibility.
    So I look forward to the testimony today. Montana is a 
great State with the most productive game population in the 
lower 48. I believe Montana has shown that it is most qualified 
to manage wildlife and resources, develop community-based 
plans, and address the goals and desires of citizens, not the 
Federal Government, and will fight for those rights. Thank you 
again for coming today, and I look forward to hearing from all 
of you. Thank you, Madam Chairman.
    Mrs. Chenoweth. I thank the gentleman from Montana, and the 
Chair now recognizes the Minority member, Mr. Bruce Vento from 
Minnesota.

  STATEMENT OF HON. BRUCE VENTO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Vento. Thank you, Subcommittee Chairman Chenoweth. I am 
pleased to be here today for a brief time. I will be coming and 
going and I apologize for that because of my schedule but 
wanted to at least weigh in with regards to an interest and 
concern about the policies that are being advanced in regards 
to reintroduction of the grizzly in the Rocky Mountain areas.
    Obviously, this follows on a controversy with regards to 
the reintroduction of the wolf, and I think there are some 
things that--the timber wolf--and there have been some I think 
lessons learned in that particular process. And it is 
interesting to note that many of the participants are at the 
table in terms of the various groups, both from the timber 
industry and from the conservation or environmental groups, as 
well as State and local government, that, in fact, Secretary 
Babbitt and Secretary of Agriculture Glickman and others are 
attempting to try and draw together a consensus or at least 
whatever consensus may exist with regards to the science and 
with regards to the practical aspects and impacts of the 
grizzly bear reintroduction in this area, which is, of course, 
and has been or was a significant part of the ecosystem before 
greater settlement occurred.
    In fact, some of the documents historically that you read 
indicate that there was a significant concentration of grizzly 
bear in the area. Now, no one, obviously, is advancing the 
notion that that will occur in the near future or in the far 
future I guess. But it is I think a worthy effort. I hope that 
this hearing will provide some information to the members and 
to the Committee and to Congress so that if indeed any policies 
that are being advanced administratively are to be addressed by 
the Congress or informally by members that they can do so in an 
enlightened manner.
    I would note, obviously, that there is tremendous emotional 
response to any type of reintroduction of a major predator like 
the grizzly or the timber wolf. Obviously, the response there I 
suppose is somewhat predictable but I think has to be measured 
against the science in terms of what is taking place in these 
areas, clearly in areas like Yellowstone and other areas where 
they have extensive visitation, a lot of human contact in terms 
of the park for recreation and for other purposes.
    They have been able to make adjustments to face up to the 
presence of the bear and their activities in that area. So I 
think that it is likely that the same thing can occur in areas 
that are less intensively used for visitation and recreation 
and where there is less human contact. Obviously, that would 
take a good will on the part and I think a fair approach with 
regards to the policies and the use of the information. So I 
look forward to the hearing. I have no prepared statement and 
will try to chime in as we go along. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Vento. My colleague, Senator 
Dirk Kempthorne, was unable to deliver testimony today due to 
another commitment. But without objection, I would like to 
place his entire statement in the record. Also, with the 
committee's indulgence, I would like to read several comments 
from his statement for the record.
    Senator Kempthorne wrote in his testimony prepared June 12, 
``As an Idahoan, I have significant concerns about the 
continuing Federal involvement in the management of the grizzly 
bear, a species that many scientists believe is no longer 
threatened. And I am particularly concerned about the 
Administration's plans to artificially introduce the grizzly 
into Idaho without the explicit permission of the people of 
this State.
    ``As an Idahoan, I worry about what these dangerous 
predators will do to the people of Idaho who happen to come in 
contact with them. And as Chairman of the Senate Environment 
and Public Works Subcommittee on Drinking Water, Fisheries and 
Wildlife, I also take the broader view of the grizzly and its 
status under the Endangered Species Act. I have seen very 
credible scientific evidence that the grizzly has already been 
recovered.
    ``In my mind, introduction of the grizzly raises a 
fundamental question: how will we protect our citizens and 
their property from this dangerous predator? We are constantly 
told that by following certain safety tips, people can avoid 
grizzly bears or make encounters with them safe. We are also 
told that ranchers and other people that use livestock must 
accept certain small losses for the common good.
    ``I asked a reconstructive surgeon with more than 20 years' 
experience with grizzly attacks about the most common bear 
maulings he has encountered. And I am going to quote from a 
letter I recently received from Dr. William Wennen on this 
issue.''
    The doctor wrote, ``Probably the most common bear mauling 
that I have seen is that from a sow grizzly where the tourist/
traveler/hunter/ et cetera, somehow accidentally gets in 
between the mother [sow] and a cub or two. The attack comes 
suddenly, usually without warning, and the first time the 
individual realizes that he is in trouble is when he is 
virtually face to face with a grizzly in full charge. There is 
little, if any, time to react, and the injuries usually follow 
a fairly consistent pattern.'' ``I am going to stop here,'' the 
Senator wrote, ``because the injuries that Dr. Wennen describes 
are gruesome beyond words.
    ``Because of the very great danger that Idahoans would face 
if we allow the introduction of grizzly bears into the State, I 
cannot support any plan unless it is supported by the people of 
the State. This is not a small issue. No matter how much people 
in other States may want to see grizzly bears in Idaho, 
Idahoans should have the right to make that decision.
    ``This isn't just an Idaho issue. The range of the grizzly 
when European man came to North America included California. In 
fact, the only grizzly bears you will find in California today 
are on the State flag or possibly in captivity. I don't think 
that I have the right as an Idahoan to insist that California 
accept introduction of the grizzly to the central valley just 
because I think there is food and habitat to support it there.
    ``At a field hearing before my subcommittee in Casper, 
Wyoming, I heard testimony from Terry Schramm of the Walton 
Ranch Company of Jackson, Wyoming, near the Idaho line. Terry 
testified that Teton County is 97 percent federally owned, and 
that without a grazing permit from the Forest Service, he 
doesn't have a viable economic ranch operation. In cooperation 
with the Fish and Wildlife Service, he determined that he is 
living with 11 grizzly bears and 22 black bears on his 88,000 
acre allotment.
    ``And when he asked for the removal of one or two of the 
grizzly bears that have become habitualized to preying on his 
calves, he was given the cold shoulder by the Federal 
Government. The bottom line is that States should have the 
right to make the decision about predators like the grizzly 
bear. And by all measures, the bear appears to have recovered 
and the species should be delisted.'' Without objection, I 
would like to enter the Senator's full testimony in the record.
    [Statement of Senator Kempthorne follows:]

 Statement of Senator Dirk Kempthorne, a Senator in Congress from the 
                             State of Idaho

    Good morning Chairman Chenoweth, ladies and gentlemen. 
Thank you for holding this hearing on the introduction of 
grizzly bear into Idaho. As an Idahoan, I have significant 
concerns about the continuing Federal involvement in the 
management of the grizzly bear, a species that many scientists 
believe is no longer threatened. I am particularly concerned 
about the Administration's plans to artificially introduce the 
grizzly into Idaho without the explicit permission of the 
people of the State.
    As an Idahoan, I worry about what these dangerous predators 
will do to the people of Idaho who happen to come in contact 
with them. As Chairman of the Senate Environment and Public 
Works Subcommittee on Drinking Water, Fisheries and Wildlife, I 
also take the broader view of the grizzly and its status under 
the Endangered Species Act. I have seen very credible 
scientific evidence that the grizzly has already been 
recovered. However, the Federal Government does not appear to 
agree, and seems to constantly revise their criteria for 
recovery.
    In my mind, reintroduction of the grizzly raises a 
fundamental question: how will we protect our citizens and 
their property from this dangerous predator? We are constantly 
told that by following certain safety tips, people can avoid 
grizzly bears or make encounters with them safe. We are also 
told that ranchers and other people that use livestock must 
accept certain small losses for the common good. I question 
both of these assumptions.
    The instructions that hikers get before entering ``bear 
country'' include:

        warnings to be aware;
        don't surprise bears;
        make plenty of noise;
        camp in open areas away from streams with fish;
        don't cook near where you sleep;
        don't cook smelly foods;
        don't sleep in cloths with food odors;
        don't store food, lotions or dirty cloths near where you sleep;
        bury garbage; and on and on.
    But what do you do if you accidentally encounter a bear? 
The conventional wisdom is to stay calm, do not run, wave your 
arms, speak in a loud voice (I might suggest PRAY in a loud 
voice), don't climb a tree unless you can get up 30 feet, and 
so on. Apparently, what you should do if you are attacked is 
lie on your stomach or curl up in a ball with your hands locked 
behind your neck, and hope that the bear will stop soon. That's 
not very reassuring.
    I was curious about this advice, so I asked a 
reconstructive surgeon with more than 20 years experience with 
grizzly attacks about the most common bear maulings he has 
encountered. I am going to quote from a letter I recently 
received from Dr. William W. Wennen on this issue.
    ``[P]robably the most common bear mauling that I see is 
that from a sow grizzly, where the traveler/tourist/hunter/et 
cetera, somehow accidentally gets in between mother (sow) and a 
cub or two. The attack comes suddenly, usually without warning 
and the first time the individual realizes that he is in 
trouble is when he is virtually face-to-face with a grizzly in 
full charge. There is little if any time to react and the 
injuries usually follow a fairly consistent pattern: . . .''
    I am going to stop here, because the injuries that Dr. 
Wennen describes are gruesome beyond words. Believe me, 
something very bad happens to the unfortunate person that 
``suddenly,'' and ``usually without warning'' is attacked. I 
suppose the odds of an attack are low, but tell that to the 
people who have to live with the injuries . . . if they live.
    Because of the very great danger that Idahoans would face 
if we allow the introduction of grizzly bears into the State, I 
cannot support any plan unless it is supported by the people of 
the State. This is not a small issue. No matter how much people 
in other States may want to see grizzly bears in Idaho, 
Idahoans should have the right to make that decision.
    Turn this question around for a minute. This isn't just an 
Idaho issue. The range of the grizzly when European man came to 
North America included California. But, the grizzly was wiped 
out in California, just like it was through most of its range. 
In fact, the only grizzly bears you will find in California 
today are on the State flag or possibly in captivity. I don't 
think that I have the right as an Idahoan to insist that 
California accept introduction of the grizzly to the central 
valley just because I think there is food and habitat to 
support it there.
    At a field hearing before my Subcommittee in Casper, 
Wyoming, I heard testimony from Terry Schramm of the Walton 
Ranch Company of Jackson, Wyoming near the Idaho line. Terry 
testified that Teton County is 97 percent federally owned, and 
that without a grazing permit from the Forest Service he 
doesn't have a viable economic ranch operation. Terry has been 
forced to accept losses of cattle of between 2 and 3 percent as 
a cost of doing business. But, in just two years he lost 141 
head of calves, approximately 9 percent to all causes, 
including grizzly bears. In cooperation with the Fish and 
Wildlife Service, he determined that he is living with 11 
grizzly bears and 22 black bears on his 88,000 acre allotment.
    When he asked for the removal of one or two of the grizzly 
bears that have become habitualized to preying on his calves, 
he was given the cold shoulder by the Federal Government. I 
asked Terry who has the authority for the removal of a nuisance 
bear. Terry's reply was: ``I've been involved in this for 4 
years, and I would like to see the bear turned over to the 
States.''
    The bottom line is that States should have the right to 
make the decision about predator's like the grizzly bear. I 
have to ask, why can't the management of the grizzly bear be 
turned over to State control. By all measures, the bear appears 
to have recovered and the species should be delisted.
    When the population biologists who specialize in the 
management of small populations ask the recovery question they 
turn to a statistical analysis called a ``population viability 
analysis'' or PVA. Recently I discovered a PVA that had been 
done for the grizzly bear.
    Dr. Mark Boyce, previously of the University of Wyoming, 
and now at Stevens Point, Wisconsin, calculated that a ``. . . 
conservative estimate of the probability of persistence of the 
[Yellowstone area] grizzly bear population for 100 years [is] 
in excess of 99.2 percent.'' But because bears are relatively 
long-lived, Dr. Boyce recalculated the probability of the 
grizzly bear becoming extinct within the next 500 years at 96.1 
percent. That is less than a 4 percent chance that this species 
will become extinct considering all of the appropriate 
population parameters, and the probability of natural disaster.
    The other thing that interested me in Dr. Boyce's PVA of 
the grizzly bear was his desire to have existing data on 
habitat relationships worked into a PVA model. Dr. Boyce stated 
that: ``We cannot evaluate the consequences of natural resource 
management actions to grizzly bears in the Rocky Mountains 
until such a habitat-based PVA is completed.'' In response to 
this need, I have asked the Senate Appropriations Committee to 
provide $75,000 to finish the analysis. There is every reason 
to believe the completed study will demonstrate that there is 
an extremely small probability that the grizzly bear will 
become extinct in the next millennium.
    Which brings me to my final point. There appears to be no 
good reason to continue with the Environmental Impact Statement 
on introduction of the grizzly bear into the Selway-Bitterroot 
area. For that reason, I have asked the Senate Appropriations 
Committee to spend no more money on the EIS except to obtain 
public comment on the existing draft.
    Thank you for the opportunity to provide this statement to 
you.

    Mrs. Chenoweth. Now, I would like to call forward our first 
panel, Dr. Ralph Morgenweck, Director, Mountain Prairie Region 
of the United States Fish and Wildlife Service, Denver, 
Colorado, and Hal Salwasser, Regional Forester, USDA Forest 
Service in Missoula, Montana. Gentlemen, before we get started, 
if you will rise and raise your right hands so we can take the 
oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you and I now recognize our first 
witness, Dr. Ralph Morgenweck. Dr. Morgenweck, would you please 
proceed?

 STATEMENT OF DR. RALPH MORGENWECK, DIRECTOR, MOUNTAIN PRAIRIE 
    REGION, U.S. FISH AND WILDLIFE SERVICE, DENVER, COLORADO

    Mr. Morgenweck. Good morning and thank you, Madam Chairman, 
and members of the Subcommittee. I am Ralph Morgenweck, 
Regional Director of the Fish and Wildlife Service's Mountain 
Prairie Region in Denver, and I thank you for the opportunity 
to be here today to talk about the Service's approach to 
reintroduction of endangered and threatened species on Federal 
lands; in particular, this discussion of the grizzly bear in 
the Bitterroot Ecosystem in central Idaho and western Montana.
    And I would like to compliment the Chairman for this 
opportunity to continue the dialog about grizzly bears in the 
Bitterroot, about grizzly bear biology, and about grizzly bear 
recovery. I think this is an important part of the overall 
discussion about what happens to grizzly bears in the future.
    One thing I need to inform the Committee of is that the 
testimony that you have has been modified in one major way. I 
have been informed that just today that the Department of 
Interior has come to a conclusion and made a decision about the 
release of the draft environmental impact statement and the 
selection of a preferred alternative. And I will pass that 
information on to you in the course of my comments.
    There are three additional points I would like to make in 
my brief summation of my formal testimony. First, the 
reintroduction of grizzly bears in the Bitterroot Ecosystem 
provides an unmatched opportunity to ensure the continued 
survival of the grizzly bear and to move toward eventual 
delisting of the species throughout the lower 48 States.
    The grizzly bear is a species that has been eliminated from 
about 98 percent of its historic range and today some 800 to 
1,000 remain in the lower 48 States. At the same time, because 
of the wilderness designation of the Bitterroot Ecosystem, the 
impact on economic development and other land use would be far 
less significant than on other Federal lands.
    Second, the draft environmental impact statement that the 
Interior Department just approved and is about to release is a 
culmination of a comprehensive process of scientific analysis 
and public comment that began in 1975 with the listing of the 
grizzly bear, proceeded through the preparation of the first 
recovery plan in 1982, the formation of the Interagency Grizzly 
Bear Committee in 1983 of which Idaho was a member, the 
evaluation of the Bitterroot Ecosystem habitat which culminated 
in a 5-year study in 1991, leading to the subsequent approval 
by the Interagency Grizzly Bear Committee of the Bitterroot 
Ecosystem as a recovery zone.
    It moved on then to the preparation of the recovery plan 
chapter that was completed in 1996, and the scoping for the 
draft EIS which included working with the Idaho Legislative 
Oversight Committee. And this process has taken more than two 
decades. Much of this process is detailed in my formal 
testimony.
    Clearly, it has been one of the most exhaustive such 
efforts that my agency has undertaken. Hopefully, it ensures 
that whatever decision is finally reached about the grizzly 
bear is based on the best available science and takes fully 
into consideration the viewpoints of everyone affected by the 
decision, including State and local governments, businesses, 
conservation groups, and thousands of local citizens, and the 
national public at large.
    Third, the process is not yet completed. The draft EIS 
contains four alternatives. The Interior Department has chosen 
a preferred alternative and will publish the draft by the 1st 
of July. Congressional members and their staff, as well as 
other key State, local, and tribal participants will be fully 
briefed before the draft EIS is released. The public will then 
have an opportunity to comment on the draft.
    Alternative one is the preferred alternative, and we 
believe it contains a novel approach to ensuring continued 
participation by local citizens in the reintroduction process. 
It proposes the creation of a Citizen Management Committee 
tasked with management of the grizzly bear population's 
recovery.
    The idea for this committee was suggested by a diverse 
group of Idaho timber owners, Idaho labor groups, the 
Intermountain Forest Industry Association, Defenders of 
Wildlife, and the National Wildlife Federation. In short, 
management for the Bitterroot grizzly population would be 
delegated by the Interior Secretary to this citizen group. The 
only stipulation would be that their decisions would lead to 
the ultimate recovery of this population.
    A 1995 survey conducted for IGBC showed that 62 percent of 
local, 74 percent of regional, and 77 percent of national 
responses were supportive of reintroducing grizzly bears into 
the Bitterroot. But these views of the majority in no way 
depreciate the legitimate concerns of others about the 
reintroduction, including issues of personal safety, and 
legality of the Citizen Management Committee.
    And we believe this EIS process is the means by which this 
debate should occur. We have addressed and continued to address 
those concerns in the EIS process. In looking back over this 
process, I believe that we have made strides in improving how 
the people and their government can work together to find the 
solutions to difficult conservation problems, and we look for 
more dialog on this.
    In closing, I would note that the Service has undertaken 
other reintroductions of threatened and endangered species on 
Federal land, including the gray wolf, the black-footed ferret, 
and the California condor. As you know, these reintroductions 
were not without controversy, and in each case the Service 
actively sought the involvement of local communities. I am 
confident that a reintroduction of the grizzly bear to the 
Bitterroot would be successful and that it would contribute 
greatly to the ultimate recovery and delisting of the species. 
Thank you, Madam Chairman.
    [Statement of Mr. Morgenweck may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Dr. Morgenweck. Mr. Salwasser, 
we welcome your testimony.

  STATEMENT OF HAL SALWASSER, REGIONAL FORESTER, USDA FOREST 
                   SERVICE, MISSOULA, MONTANA

    Mr. Salwasser. Thank you, Madam Chairman. Thank you for 
this opportunity to discuss the reintroduction of endangered 
predators on Federal lands. The Forest Service's multiple use 
management responsibilities include the Endangered Species Act 
mandate to conserve threatened and endangered species and the 
ecosystems on which they depend.
    Coupled with our mandate from other statutes to provide for 
sustained yields of many resource uses and to provide for 
diversity of plants and animals, we manage Federal public land 
ecosystems for a multitude of uses including the conservation 
of endangered species.
    Madam Chairman, about one-third of all species currently 
listed as endangered or threatened in this country find their 
last and best habitats on the national forests and grasslands. 
And we have successfully protected and improved habitat for 
many of these species.
    For example, bald eagle, peregrine falcon, grizzly bear, 
eastern timber wolf, California condor, and Puerto Rican parrot 
have all been or are being brought back from the brink of 
extinction through Forest Service conservation actions. Through 
these recovery efforts, we also preserve some of the cultural 
heritage of American Indian tribes.
    As other lands and habitats come under increasing pressure 
to provide home sites, food, and raw materials for people, 
public lands become increasingly important places for the rare 
species or the species at risk of extinction. Today, suitable 
habitat for the large carnivores, the last pieces of America's 
natural heritage of large animals, is limited.
    And road developments, developments for cities and towns, 
and private land habitat losses constrain the distribution of 
these animals. Because these species and their habitats rarely 
conform to lines on maps, the combined efforts of many 
agencies, organizations, and communities are needed to conserve 
these species.
    The Forest Service, therefore, is only one of many 
cooperators necessary to the survival of species at risk. We 
work closely with the Fish and Wildlife Service and the 
National Marine Fisheries Service, who are the lead agencies in 
implementing the Endangered Species Act. States are also 
partners, as well as the National Park Service, Bureau of Land 
Management, tribes, and other Federal agencies.
    In 1986, the Interagency Grizzly Bear Committee developed 
recovery guidelines to reduce human-caused mortality and to 
improve habitat security. These guidelines are the main reason 
that grizzly bears still exist in the lower 48 States and, in 
fact, thrive in two of their ecosystems.
    Concerns relating to grizzly bears center around four 
issues: public safety, access restrictions, changes in economic 
opportunity, and livestock depredation. I will briefly address 
each of these.
    Public safety is the most significant concern in grizzly 
country. We have found that the key to public safety in grizzly 
bear country is education. For years, we have been working with 
local communities, the general public, and with outfitters and 
guides about living and recreating safely in areas with grizzly 
bears. While encounters between grizzlies and humans do occur, 
these incidents are rare. Education works.
    Access to Federal lands is another major concern. To 
protect sensitive public resources, we sometimes restrict 
access on roads into certain areas. Sometimes restrictions are 
seasonal; for example, closures to protect water quality or 
fisheries and reduce activities that would cause erosion and 
sediment during rainy weather.
    Seasonal restrictions also secure essential habitat for 
wildlife such as protection of elk calving areas and grizzly 
spring range. Sometimes the closures are permanent where roads 
are obliterated to reduce administrative costs or environmental 
damage or to provide secure areas for wildlife.
    Federal lands have many values including economic 
opportunity. These values are in timber and grazing and a wide 
range of recreation activities such as commercial outfitting 
and guiding services, tourism, camping, picnicking, hiking, 
picking berries, hunting, fishing, and watching and 
photographing wildlife.
    In timber-producing areas where grizzly bears are present, 
conservation efforts have an effect on national forest timber 
production. However, planning access and scheduling of sales 
does provide for both grizzly bear recovery and some timber 
sales to go forward. The quantity of timber available for 
harvest on national forests has been most influenced by issues 
related to roadless areas, water quality, and fisheries.
    With large carnivores such as the grizzly bear, there is 
the potential for livestock depredation. There are provisions 
within the grizzly bear guidelines for rapid removal of animals 
that prey on livestock. And in primary grizzly recovery 
habitats, livestock operations may be modified--for example, 
moving a sheep allotment out of a recovery zone--in order to 
reduce potential bear and livestock conflicts and still provide 
public land grazing.
    To conclude, Madam Chairman, in recovery of any threatened 
or endangered species, the Forest Service works together with 
other Federal agencies, communities, States, tribes, 
organizations, and individuals. We strive for the common goals 
of land stewardship and sustainable resource uses.
    I believe the best way to balance these potentially 
conflicting goals is to work with communities of interest--that 
is, interests on all sides of the issues--and with locally 
affected people in civil discussions to create areas of common 
agreement. To best serve the people, we must work in an open, 
fair, and inclusive setting to build community solutions on how 
to share the wealth and bounty of our great public lands and 
resources. Madam Chairman, I would be happy to answer any 
questions you or the Committee might have.
    [Statement of Mr. Salwasser may be found at end of 
hearing.]
    Mrs. Chenoweth. I thank you, gentlemen, and the Chair 
recognizes the gentleman from Montana for opening questions. 
Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman. I guess I would like 
to start my questioning with Dr. Morgenweck. Just recently in 
the press, and I think sometime in the last month or so, we had 
an incident down in Red Lodge where a grizzly bear attacked a 
horse. You are probably familiar with the incident.
    Mr. Morgenweck. I am.
    Mr. Hill. And the woman who owned the horse got a .22 rifle 
and shot at the bear in an effort to try to scare it away, and, 
by golly, she shot it in the right place and she killed the 
bear. And this bear was in the process of attacking her horse. 
In fact, it was a prized horse. And she reported it--
appropriately reported it. An investigation was conducted, and 
as I understand it, she has been fined $1,600.
    And, in addition to that, there was at least the potential 
for a prison sentence for protecting her property. My question 
is that under this reintroduction plan, would this citizens 
group have the authority to provide for private property owners 
to protect their property from grizzly bear attacks such as 
that?
    Mr. Morgenweck. Under the proposal in the alternative, it 
is legal to defend one's life and the life of others in terms 
of killing a bear. In terms of property damage, the proposal 
lays out a process whereby nonlethal hazing could be used by a 
landowner if they are having problems with livestock 
depredations.
    Also the Citizen Management Committee would be asked to 
develop a protocol for dealing with these kinds of situations. 
Under the preferred alternative, if the management agencies 
have done their best to capture the animal, to move it, or 
destroy it depending on the circumstances, a permit could be 
issued to the landowner that if they had further problems with 
the bear, the bear could be taken. So we------
    Mr. Hill. But, I mean, in an instance where a person--I 
mean, the bear is in the process of attacking your livestock.
    Mr. Morgenweck. Right. The------
    Mr. Hill. The citizen wouldn't be empowered to act to 
protect that livestock other than to go out there and wave 
their arms and try to shoo the bear away. I mean, is that------
    Mr. Morgenweck. Nonlethal hazing would be allowed. Yes, but 
in a first instance, killing the bear would not be allowed.
    Mr. Hill. I mean, you know, this management area has very 
close proximity to a lot of citizens, a lot of people as I know 
you know. In fact, I think that the management area goes right 
down to Highway 93 or very close to Highway 93. There are a lot 
of people there. There is a lot of livestock there. There are a 
lot of horses there. I guess what I am asking is can any 
provision be made in this management plan that would allow 
those property owners to protect their property using lethal 
force or is that absolutely prohibited?
    Mr. Morgenweck. That is a very difficult question because 
we are trying to reach a balance between not being too 
precipitous in terms of the use of lethal control and using it 
when called for. That is one of the things that Mr. Salwasser 
mentioned about education that I think we have learned with 
wolves, for example.
    The first reaction by many ranchers was, ``We really need 
to be able to kill wolves right off.'' However, we have found 
through our process of working with individual ranchers that 
when they have problems they have been willing to consider 
nonlethal controls, nonlethal ways of dealing with wolves.
    Obviously, there is a time when that may not work and the 
animals need to be taken. So I think this is a point of 
importance so that in the course of reviewing the draft if 
other safeguards are identified I think we would be happy to 
consider them.
    Mr. Hill. Well, as you know, this area is a little bit 
different than other areas where endangered species, 
particularly bears, have been introduced because there are a 
lot of property owners that areas are not in large landholdings 
anymore. There is a lot of ranchette-type ownership. I mean, 
there are just a lot of livestock there. One of the things I 
hear from the people--the residents of that valley is this 
concern. And so that is why I have raised it with you.
    But, I mean, I think you would have to admit that nonlethal 
hazing of a timber wolf and nonlethal hazing of a grizzly bear 
are two different things. It takes a certain degree of courage 
to go after a timber wolf. That takes a lot of courage to go 
out and haze a grizzly bear. And there is serious concern in 
the valley if, in fact, you go forward with regard to how this 
would impact private property, particularly livestock.
    Mr. Morgenweck. Congressman Hill, the proposal would have 
the release of the bears only north of the Salmon River, and we 
would expect that given five animals or thereabouts, per year 
being added, it would be many, many years before we were likely 
to have enough bears to be spilling out in the other areas. 
Now------
    Mr. Hill. But I would caution you that when we reintroduced 
timber wolves, I think you substantially misestimated the 
period of time it was going to take to have full recovery but 
the impacts would be how wide they ranged. I mean, I think you 
would admit to that, wouldn't you?
    Mr. Morgenweck. I would admit that wolves are being more 
successful in terms of reproduction than we predicted. On the 
other hand, the level of problem we have had with livestock 
losses hasn't been as bad as we thought it might. And a lot of 
that credit goes to the individual landowners. We have been 
working with some people who didn't like wolves very much and 
have become tolerant of wolves. We have worked with them very 
well, and as a result we find ourselves both from a biological 
standpoint and from a so-

cial standpoint, in a more positive place than we thought we 
might be.
    Mr. Hill. Thank you, Madam Chairman.
    Mrs. Chenoweth. Mr. Hill, we will return for another round 
of questioning. Dr. Morgenweck, you announced today the 
issuance of your draft environmental impact statement and the 
fact that you have chosen alternative number 1 as the preferred 
alternative. Is that correct?
    Mr. Morgenweck. Yes.
    Mrs. Chenoweth. And that decision was announced today?
    Mr. Morgenweck. That is correct.
    Mrs. Chenoweth. Did that have anything to do with these 
hearings that are being held today?
    Mr. Morgenweck. I don't think so. Actually, we had planned 
to have this document done last fall. It has been a long review 
process including legal review and departmental review, until 
we simply got to the review concluded.
    Mrs. Chenoweth. Are all the permits in place? For instance, 
the document of decision or a decision of record from the 
State?
    Mr. Morgenweck. We have to remember that at this point we 
are not ready to reintroduce grizzly bears. All that we are 
talking about is a decision on the content and release of a 
draft environmental impact statement, which means that once the 
draft is released, there is a lot of dialog, meetings, and 
public comment to reach a decision as to which alternative 
should be pursued. So any issues about permits related to a 
reintroduction would be something that would have to be dealt 
with in the future. And I might add I apologize for the delay 
of the release of the EIS.
    Dr. Servheen points out to me that under the preferred 
alternative, on private lands--getting back to Congressman 
Hill's question--on private lands, bears involved in the act of 
taking livestock would be allowed to be killed on those private 
lands and that bears getting down into the Bitterroot Valley, 
in among people, would be captured and moved back or removed 
lethally depending on the circumstances.
    Mrs. Chenoweth. Do you remember the case of John Shuler in 
Montana where two bears were in his sheep pens?
    Mr. Morgenweck. I am sorry. I don't remember the details.
    Mrs. Chenoweth. And a grizzly bear charged him, and he 
killed the bear on his own property. And the Fish and Wildlife 
Service brought suit against him for illegally taking a grizzly 
bear?
    Mr. Morgenweck. Again, I think it is important to remember 
that the management of bears in the populations that currently 
exist are different or would be different than with the 
reintroduced population. That is the point of having the 
experimental nonessential designation in that we can custom cut 
the management and the rules associated with how bears are 
treated for that particular area. That is one of the powerful 
incentives for reintroduction. The rules are set through a 
rulemaking process. That is the flexibility that was given to 
us in 1982 when the Endangered Species Act was amended.
    Mrs. Chenoweth. Well, help me understand this. If a bear is 
determined to be a bear that was reintroduced and it is 
charging a person and that person is on his own property and 
that individual protects his life by shooting the bear, that is 
OK. But if it is determined it was a native grizzly bear by 
chance, then he cannot protect himself. Right?
    Mr. Morgenweck. No. If we reintroduce the bears into the 
Bitterroot, for example, all the bears that are there would be 
considered products of reintroduction because you can't, 
obviously, tell them apart unless they are marked. In the 
example you gave the person was protecting his life, thus it 
would be legal for him to kill the bear.
    Mrs. Chenoweth. And you don't see an inconsistency between 
the bears in Idaho, if this reintroduction should proceed, and 
the bear that Mr. Shuler encountered on his own property?
    Mr. Morgenweck. The inconsistency, perhaps, is that there 
are different rules that would be applied in a reintroduced 
population. Now, while I am not familiar with the specifics of 
Mr. Shuler's situation, if a person is defending their life or 
the life of another person, it is legal to kill the bear. Now, 
if Mr. Shuler was prosecuted, there must have been some reason 
to suspect that the circumstances were other than that. But I 
just don't know the particulars of that situation.
    Mrs. Chenoweth. Would you please submit for the Committee 
your analysis of the case after you have read it?
    Mr. Morgenweck. Yes. I would be happy to.
    Mrs. Chenoweth. All right. And Mountain States Legal 
Foundation is now defending Mr. Shuler------
    Mr. Morgenweck. All right.
    Mrs. Chenoweth. [continuing] in his appeal. We will go for 
another round of questioning. Mr. Hill.
    Mr. Hill. Thank you again, Madam Chairman. Dr. Morgenweck, 
one of the situations that we have with I guess two of our bear 
recovery areas--one is Bob Marshall and the other is the 
Mission Mountain--is that there is now an argument that in 
order for those populations to be sustained, we have to link 
those two populations so that bears can freely migrate between 
and interbreeding of bears. Is there any likelihood that if 
bears are recovered in the Bitterroot-Selway that we are then 
going to be faced with that argument with regard to that bear 
population as well?
    Mr. Morgenweck. Throughout the whole process of developing 
the new recovery plan that we approved in 1993, there has been 
the question of do we have to have linkage zones between the 
various populations of bears, and that is an analysis that has 
been going on.
    In some situations we have looked at trying to find ways of 
reaching agreements with private landowners to protect bear 
habitat, that sort of thing. I believe that Dr. Servheen has 
been working with the county and some of these issues to try to 
find ways of allowing bears to move within one of the 
ecosystems and between various parts of the ecosystem.
    I don't know the answer to the linkage zone question other 
than we have been evaluating it. There is an alternative in the 
EIS, alternative four I believe it is to look at a linkage zone 
between the Bitterroot and the Cabinet-Yaak so that question of 
linkage remains. However, at this point, we have not felt the 
necessity to have linkage zones between ecosystems--say between 
the Cabinet-Yaak and the Bitterroot, between Yellowstone and 
the Northern Continental Divide, for example.
    Mr. Hill. So let me just be clear that I understand your 
answer, your answer then is that that could happen? I mean, if 
we have a reestablished bear population in this area that we 
could then down the road be faced with this issue of linking 
this population with Cabinet Mountains, for example, which 
would impact a substantial amount of private property. Is that 
correct?
    Mr. Morgenweck. Well, I believe there are groups that would 
make that argument. It is our position that it is not 
necessary.
    Mr. Hill. But, I mean, that position could change. Right?
    Mr. Morgenweck. I suppose that is always possible, but I 
think it is pretty doubtful. I think that biologically speaking 
we feel comfortable that the population could exist unto itself 
in the Bitterroots.
    Mr. Hill. I mean, I just have to point out to you that, you 
know, up in the Flathead Forest when we started a recovery plan 
for grizzly bears, the rules of the game changed since that 
period of time. And citizens have great concern that we may 
have a very well-intentioned effort now to involve citizens to 
write rules of the game but that those rules might get changed 
and so there is some concern about that.
    But I will have some questions about that later. But there 
is a possibility that we could be faced then with a later 
argument once bears are recovered in this area that we then 
have to go to the next step and link this population with 
another population?
    Mr. Morgenweck. I, frankly, think that if we are successful 
in the Bitterroot, we reduce the argument that we have to have 
linkage zones. One of the major reasons is that if we are 
successful in the reintroduction in the Bitterroot, we will be 
adding about 25 percent to the occupied bear habitat in the 
country.
    And if we get to, say, 280 bears or something like that 
ultimately in 110 years or however long the estimate is, we 
would have added 20 to 30 percent to the total bear population 
of the lower 48. I think that reduces rather than enhances the 
argument for linkage zones because the bigger area we have, the 
more populations we have, I think the stronger our arguments 
are that we don't have to link them.
    Mr. Hill. OK. Thank you. This population would be 
designated as an experimental population. Does that designation 
remain with this population of grizzly bears forever, or would 
that designation later be changed or could it later be changed?
    Mr. Morgenweck. I am not aware under any circumstances that 
it would be changed or could be changed but that it would 
remain. Our objective would be to have it remain experimental 
nonessential until the point of delisting.
    Mr. Hill. OK. And with regard to the citizens group that 
would be established to develop the management plan, would this 
citizen group have all the authority of the Secretary? When the 
Secretary gives them authority, do they have all the authority 
of the Secretary?
    Mr. Morgenweck. I am not exactly sure what the formal 
mechanism would be, whether there would be a delegation order 
to the Citizen Management Committee, but the intention of our 
special rule is that they be delegated management authority. 
The only source of review is the Secretary because by law he 
has the ultimate authority.
    Mr. Hill. And he could take that authority back from them?
    Mr. Morgenweck. According to the rule, under certain 
circumstances, and those circumstances are very narrow. If the 
Secretary was to make a finding that the decisions and actions 
by the Citizen Management Committee are not in the best 
interests of conservation of the bear or essentially that it is 
not leading to the recovery of the bear, then the Secretary 
would have to make known the specific concerns that he has and 
give the committee a 6-month period of time to make whatever 
are the required changes in terms of their decisions.
    Mr. Hill. But all that orientation is toward recovery of 
the bear?
    Mr. Morgenweck. That is correct.
    Mr. Hill. I mean, there is no other consideration for the 
other balanced values that might exist there?
    Mr. Morgenweck. Well, I think that one of the arguments 
that we have to be aware of when we are making arguments about 
conservation of the bear is sometimes the conservation of a 
species does involve the taking of the species. For example, we 
think that taking depredating wolves is an action that can be 
found in favor of the conservation of wolves. Because if 
depredating wolves were not removed, the attitudes and the 
support for the wolves would decrease.
    So long-term, it is better and it is in the conservation 
interests of the wolf to have those animals taken out. So I 
think we have to remember that that argument is a powerful 
argument, and I think you could make the same argument for 
depredating bears in certain situations.
    Mr. Hill. Thank you, doctor. Thank you, Madam Chairman.
    Mrs. Chenoweth. The Chair recognizes the ranking Minority 
member, Mr. Hinchey, from New York whom I just asked if he 
wanted the bears, and he said he was loaded for bear. So the 
Chair would like to hear from the ranking member with his 
opening statement.
    Mr. Hinchey. Well, thank you very much, Madam Chairman, and 
good morning, gentlemen. It is very nice to see you. I 
appreciate the announcement that you made today. It is a step 
forward I think. It is an attempt to bring people in and to get 
their advice and to try to improve this process by involving a 
broad array of citizens, and I congratulate you for that 
initiative.
    There is, of course, a great deal of concern on the part of 
people in the areas where grizzly bears are proposed to be 
introduced. Their concerns relate to issues of safety, 
obviously--safety for themselves, for members of their family, 
for people who work in the area, or livestock--things of that 
nature. And I think that that is to be expected, and it is a 
reasonable concern.
    Our responsibility--particularly yours I think--is if it is 
possible to do so to allay those fears. And so I would ask you, 
for example, what experience have we had in parts of Idaho and 
elsewhere where the grizzly bear currently resides in its 
present habitat? I understand the Bitterroot Range, for 
example, is a place where we have had some experience in that 
regard. Have people been mauled? Have there been any deaths? 
Have there been any injuries? What has been the experience with 
livestock in those areas where the grizzly bear currently 
resides?
    Mr. Morgenweck. Thank you for the question. I think that 
human safety is probably the number 1 concern. I think you are 
right on there. It is an issue that we must absolutely be most 
careful about. What we believe in terms of projecting is that 
when--assuming that we were reintroducing bears in the 
Bitterroot and they reached 280 bears, which is approximately 
what we believe full recovery would be there, we believe that 
the densities------
    Mr. Hinchey. Excuse me, sir. Could you speak into that 
microphone? I am having a hard time hearing you.
    Mr. Morgenweck. Thank you. Excuse me. At the point of full 
recovery in the Bitterroot, which we believe would hold about 
280 bears at the time, we believe those densities would be 
similar to areas outside of the national parks but still in 
bear country in the Yellowstone area.
    And, for example, within the Northern Continental Divide 
Ecosystem outside of Glacier National Park, there have been two 
bear injuries since 1950. One was a mortality and one was an 
injury. And the injury rate in the Yellowstone area but outside 
the park, while it has been increasing over the last couple of 
decades because there are more and more bears in the 
Yellowstone area, averages about one injury per year. And 
outside the Yellowstone Park area, in the last 156 years, there 
have been three grizzly bear inflicted human mortalities. So 
bears are dangerous, but the rate of injury is not high.
    Now, I think the question is how can we deal with this 
situation, whether it is one injury or five injuries or 
whatever? I think Dr. Salwasser really raised the issue of 
eduction. The States and the Forest Service and the Park 
Service have worked extensively with the back country 
outfitters.
    They have worked with the public working on such things as 
camp sanitation, how to act when you are hiking in the country 
where there are grizzly bears to minimize the possibility of 
getting into trouble with a bear. They have worked extensively 
with sanitation of camps in the back country, garbage 
sanitation, working with private ranchers to deal with dead 
livestock and cattle feed, horse feed, that sort of thing.
    I think that is one of the most important things that we 
can do in advance of any release of grizzly bears. In the 
proposal, there would be at least 1 year where issues of 
sanitation education are focused on very, very heavily before 
the bears are reintroduced.
    Mr. Hinchey. So the experience has been that bears do 
injure people--experience has been that these bears do, in 
fact, injure people. I would be curious to know--more than 
curious--I think it is important information--I would like to 
know the circumstances surrounding those injuries and the 
deaths that you mentioned. What were people doing? What was 
happening in those particular instances?
    Mr. Morgenweck. In the two instances that I mentioned 
outside of Glacier Park, they were both hunting related I 
believe. In one case, a hunter shot a bear that apparently he 
believed was a threat to him, and the bear in turn then killed 
the hunter. In the other case, it was a bird hunter, and the 
hunter shot the bear and the bear mauled him but did not kill 
him.
    So there are a variety of circumstances that the Chairman 
mentioned and other situations. Sometimes hikers may get caught 
between a sow and her cubs. Again, minimizing this is really, 
really important and teaching people how to minimize it is 
absolutely essential.
    Mr. Hinchey. I would agree completely that a lot of it has 
to do with education, and that is very, very important. The 
citizens management initiative that you have described I think 
is a very interesting experiment, and it demonstrates, of 
course, an opportunity for an unusual collaboration between 
representatives of the government and citizens at the local 
level.
    How do you expect this thing to work? Will this be an 
advisory board? How much power will they have? How much 
influence are they going to exercise over decisions that will 
be made? Will their recommendations be controlling? How do you 
see the citizens advisory panel fitting into your initiatives 
and responsibilities and the decisions that will flow from 
this?
    Mr. Morgenweck. First of all, the Citizen Management 
Committee is a brand new concept. We have never tried it 
before. It is an attempt by our agency and the Department to 
make the ESA more friendly to local people and to users of 
resources. We believe that the management responsibility will 
be delegated to the Citizen Management Committee, and they will 
be making the management decisions.
    The only oversight is the Secretary's review, and his 
review is fairly narrow in our view. So I believe that the 
Citizen Management Committee will be the decisionmakers, and it 
will be up to the land managing agencies to appropriately carry 
out those actual management actions.
    Mr. Hinchey. So as I understand it, the Citizen Management 
Committee will be making the decisions. Their decisions will be 
controlling subject to review by the Secretary?
    Mr. Morgenweck. Correct.
    Mr. Hinchey. And what happens if they make mistakes? What 
happens if they go awry? What will occur there? Would it just 
be that the Secretary will step in and take some action?
    Mr. Morgenweck. Yes. If there are some serious mistakes 
made where the Citizen Management Committee appears to be going 
in a wrong direction as opposed to an isolated mistake that we 
all make, the Secretary under the rule would have the 
responsibility to inform the committee of what he believes is 
the problem and give the Citizen Committee 6 months to fix that 
situation. Then if those things are fixed, they continue on as 
before. If they would not be fixed and the Secretary believed 
that it was serious enough, he could take back the management 
responsibility.
    Mr. Hinchey. Thank you very much. Thank you, Madam 
Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hinchey. Dr. Morgenweck, I 
wanted to followup on the line of questioning from my colleague 
from New York. I am reading from Section 14 of the 10[j] 
revised draft of May 20, 1996. Now, has that been changed or 
altered?
    Mr. Morgenweck. There have been modifications to it since 
that time.
    Mrs. Chenoweth. Could you produce one for me now?
    Mr. Morgenweck. I can't right now.
    Mrs. Chenoweth. Do you have one with you?
    Mr. Morgenweck. I don't have one with me.
    Mrs. Chenoweth. All right. What kind of modifications have 
been made?
    Mr. Morgenweck. I am not--OK. Dr. Servheen informs me that 
item 14 remains the same.
    Mrs. Chenoweth. Item 14 remains the same?
    Mr. Morgenweck. Right.
    Mrs. Chenoweth. With regards to item 14, it is pretty clear 
that the committee does not really have the ability to do any 
more than suggest policy because it reads if the Secretary 
determines through his representatives--that could be you or 
any Fish and Wildlife Service member or Fish and Wildlife 
Service agent out in the field--if they determine that the 
decisions of the committee are not leading to the recovery of 
the grizzly bear within the experimental area, then the Service 
shall solicit from the committee a determination whether the 
decision, the plan, or implementation of components of the plan 
are leading to a recovery.
    Then it goes on to say notwithstanding a determination by 
the committee. So the committee makes a determination but 
notwithstanding the determination by the committee that a 
decision is leading to the recovery of the grizzly bear--
notwithstanding, the Secretary of the Interior may find that 
the decision is inadequate for recovery and will assume 
management authority. It doesn't look to me like the committee 
has much authority.
    If, for instance, the Secretary says, ``You haven't closed 
enough roads. There is still some multiple use activity going 
on. You haven't managed for the prey base for the grizzly,'' or 
whatever, then whatever may be out there that the agency may 
think of, and if the committee deems that it is not the right 
thing to do, they have no authority whatsoever. Isn't that 
correct?
    Mr. Morgenweck. I believe that the Citizen Management 
Committee has a great deal of authority to implement the 
recovery plan for the bear, to develop the management plans and 
policies for that population, to establish the protocols for 
reaction to human and livestock safety issues, to refine the 
recovery goals, and to ultimately determine whether or not the 
reintroduction is successful.
    So I believe that they have a great deal of authority, 
though we recognize that the Secretary has the ultimate 
statutory authority. That was part of the reason that we put in 
the requirement for the Secretary to communicate with the 
Citizen Management Committee; if the Secretary believes that 
there is some error in direction there is an opportunity to 
have a dialog and hopefully agreement upon the part of the 
committee and the Secretary that some course of action can be 
taken that clears up whatever the problem is.
    Mrs. Chenoweth. I think it is pretty clear that the 
committee has the ability to develop, implement, determine, but 
they don't have the ability to make decisions--final decisions. 
And I am not at all comfortable with this until they do.
    Mr. Morgenweck. Well, Madam Chairman, I think that if there 
are suggestions that you have or that anyone has, frankly, 
about the Citizen Management Committee in terms of clarifying 
its authorities, strengthening them within the ESA, we would be 
very pleased to consider those and have a dialog with you and 
other members about that point because it is a crucial point. 
It is absolutely key to that alternative.
    Mrs. Chenoweth. Has the Service thought about liability 
that the Citizen Management Committee would be assuming in 
developing, implementing, determining, evaluating all of these 
things? What if someone is killed or injured? They have put 
themselves in a position of being personally liable.
    Mr. Morgenweck. Well, I am not an attorney, Madam Chairman, 
but in discussions with our attorneys, our Solicitor's Office 
does not feel that the members of the Citizen Management 
Committee are going to be held personally liable. Obviously, 
the actions that are going to be carried out are going to be 
carried out by the agencies, i.e., removing a bear, et cetera. 
So I think that the liability rests, where it always has, with 
the agencies.
    Mrs. Chenoweth. Aren't you under the doctrine of sovereign 
immunity? I mean, people can sue you if you give them your 
permission. Right?
    Mr. Morgenweck. They also can sue us for torts and also, of 
course, under the ESA. So we do perhaps have some protections, 
but we also believe that that is a point that if there needs to 
be more legal discussion on, then perhaps that is a good point 
to discuss.
    Mrs. Chenoweth. Thank you, Dr. Morgenweck. I am very 
concerned about the liability in the fact that I don't believe 
that the government can extend immunity to members of this 
Citizens Management Committee. We are going to go for another 
round of questioning, but before we do that, you have just 
listed the bull trout in Idaho. And the Governor had proposed 
to put together a State plan. It wouldn't be a plan by a 
Citizen Management Committee, it was a State plan under the 
direction of the Idaho Fish and Game.
    And that was ignored, and you went ahead and listed it even 
though Secretary Babbitt had promised the Governor that they 
would work it out so that the State can manage the bull trout, 
which is a resident fish. If the Federal agency acted this way 
with the Governor and the Director of Fish and Game, why do we 
have any confidence that you would act any better with private 
citizens making up a Citizen Management Committee?
    Mr. Morgenweck. Well, a two-part answer. First of all, I 
apologize. I am not that familiar with the details of the bull 
trout because bureaucratically it is in the lead of a different 
service region. But one difference between whatever the 
conservation agreement attempts were for bull trout and the 
case of grizzly bears, is the bear management is in a 
regulation. So the agreements in a rulemaking as opposed to 
whatever agreements had been reached relative to the bull trout 
are much more explicit and much more binding.
    Mrs. Chenoweth. I think that the very word of the agency is 
in question here because the Secretary himself promised our 
Governor personally that the State could manage the bull trout. 
Then the agency acted otherwise. So------
    Mr. Morgenweck. I recognize that credibility is a crucial 
issue for the Service in dealing with the Endangered Species 
Act and all kinds of situations. One of the things that we are 
trying to do better is to interact with local units of 
government and with the States to do a better job in those 
communications.
    Now, one of the things that we can't always control are 
lawsuits. Many times what we want to do or our agreements are 
overturned because someone sues. I believe in the case of the 
bull trout there was a lawsuit, and I believe it was because of 
that lawsuit that the new petition finding was dictated by the 
Court. And as a result, I believe a proposal to list may well 
be in the offing.
    Mrs. Chenoweth. And the suit--the case was what?
    Mr. Morgenweck. I believe that the Fish and Wildlife 
Service was sued on warranted but precluded petition finding of 
some time back. The Fish and Wildlife was sued and I believe 
the Court ordered that a new finding be made, and I believe, 
the Court gave the Fish and Wildlife Service a date for the new 
finding. Like I said, I don't have the lead on that so I don't 
know all the details. And if you wish, perhaps we could provide 
some details with dates and all that that would be more helpful 
than my testimony.
    Mrs. Chenoweth. But for the record, the Court did not order 
the Fish and Wildlife Service to list the species and manage it 
in Idaho over and above the desires of the State?
    Mr. Morgenweck. Well, the Court ordered------
    Mrs. Chenoweth. They asked the Fish and Wildlife Service to 
complete their documentation on no significant finding?
    Mr. Morgenweck. No. The Fish and Wildlife Service can be 
petitioned, as can the National Marine Fisheries Service, to 
list a species. We made one finding which I believe was a 
finding that the listing was warranted but it was precluded by 
other higher priority species. I believe that was the finding. 
Then a lawsuit ensued after to overturn that finding, and the 
Court ordered the Fish and Wildlife Service to make a new 
finding on that petition based upon the existing information at 
the time which I believe was up to 1994 or 1995--something like 
that.
    Mrs. Chenoweth. The Chair recognizes the gentleman from New 
York for further questioning.
    Mr. Hinchey. I have nothing further.
    Mrs. Chenoweth. All right. Mr. Vento, do you have 
questions?
    Mr. Vento. Yes, I do. As I understand the announcement this 
morning, Director Morgenweck, is that the Administration is 
going to pursue the citizens group as an advisory group or as a 
management group of the grizzly reintroduction. Is that 
correct?
    Mr. Morgenweck. That is correct. That is the preferred 
alternative for the EIS process.
    Mr. Vento. And so the Secretary will--he delegates this 
authority administratively, in other words, within the context 
of the law, but he still retains responsibility in the end. In 
other words, if they go off the deep end, then he has to, 
obviously, intercede. Is that correct?
    Mr. Morgenweck. That is correct.
    Mr. Vento. So you don't know. We haven't tried this 
particular method before or this particular model?
    Mr. Morgenweck. We never have and, in part, it was to the 
credit of some members of the industry--timber industry and 
labor groups in Idaho and the Intermountain Forestry 
Association and National Wildlife Federation, Defenders of 
Wildlife--who built the coalition and suggested this 
alternative. And it is to their credit that they really reached 
out to bring together different views on this and fashioned 
this alternative.
    Mr. Vento. So, I mean, the issue is that, for instance, in 
this particular model, he is depending upon the Governors to 
make some appointments from Idaho and Montana. Is that correct?
    Mr. Morgenweck. That is correct. Our proposal is that there 
would be 15 members on the management committee. Seven of those 
would be from Idaho with the Governor recommending persons to 
the Secretary and the Secretary would then appoint them; five 
from Montana; one from the--named by the Department of 
Agriculture; one from the Fish and Wildlife Service; and one 
from the Nez Perce tribe.
    Mr. Vento. So what do you anticipate in terms of their--
they would be meeting on a monthly basis? They would all be 
from those regions?
    Mr. Morgenweck. Our intention is that the people be local, 
and that they would be meeting pretty frequently early on to 
lay out what needs to be done in terms of the education 
component, setting the protocols for dealing with nuisance 
bears. So I would think that early on the meetings would be 
quite frequent and probably quite lively.
    Mr. Vento. The issue, of course, would be that the 
Secretary still would be responsible for the administration of 
the species. Is that correct?
    Mr. Morgenweck. That is correct.
    Mr. Vento. I mean, so he would, obviously, rely--one of the 
things pointed out is that--in this document that if there is a 
disagreement between the Secretary and the citizens management 
group that they would have 6 months to redo the proposal. That 
seems to be an excessive amount of time, you know, considering 
the immediacy of some of the problems when there are 
disagreements.
    What was the basis for that? I mean, I don't anticipate 
that. I would hope that there wouldn't be those types of 
disagreements, but if there are, it seems to me that permitting 
something to go on for 6 months on ``some minor points'' I 
guess, but if it is major points, it would seem to be an 
excessive amount of time.
    Mr. Morgenweck. Well, Congressman Vento, this is one of 
those situations where, well, we have never tried this before, 
and we felt that 6 months would give people a reasonable amount 
of time to try to work through it.
    Certainly if it is a critical issue, I believe that we 
could deal with it more quickly than that in terms of getting 
the input from the Secretary and dealing with the issues with 
the Citizen Management Committee. So I think that we could 
certainly accelerate those key issues. Again, this is a 
proposal, and I think that anyone who has ideas or comment 
about that very point------
    Mr. Vento. Well, let me ask you another question because I 
don't have much time. What do you expect the life of this 
particular citizens management group? I mean, obviously, what 
is your anticipation in terms of reestablishing the grizzly 
bear in the Bitterroots area between Montana and Idaho? How 
long will this group have to be in existence? Is this for 5 
years? Is this for a longer or shorter period of time?
    Mr. Morgenweck. We believe that they would be in existence 
until the point in which the bear is recovered in the 
Bitterroot because there would need to be management decisions 
made.
    Mr. Vento. Well, what does your modeling tell you with 
regards to that, or is it not that accurate? If it is not that 
accurate------
    Mr. Morgenweck. Fifty to one hundred plus years.
    Mr. Vento. Fifty to one hundred years and you'd think 
that--but once the policies have become regularized in terms of 
understood, then there wouldn't be any need for this particular 
group, would there?
    Mr. Morgenweck. Well, there would still be a need to have 
the group in case there were decisions to be made, but 
hopefully it would become regular after, you know, a relatively 
short period of time and so the frequency of meeting may 
diminish.
    Mr. Vento. You work very closely with the Montana 
counterparts in terms of Fish and Wildlife Service in Idaho, do 
you not, in this instance?
    Mr. Morgenweck. Yes, we do.
    Mr. Vento. And so are they in concert with you? What would 
their participation--do you expect that some of them might be 
appointed to such a formal panel?
    Mr. Morgenweck. Yes. It would------
    Mr. Vento. But these types of arrangements now take place 
informally. They are collaborative, aren't they?
    Mr. Morgenweck. Yes. We certainly try to do that. There are 
differences of opinions at times as well.
    Mr. Vento. Well, there are differences between the agencies 
and departments. Someone has to make the decision, obviously, 
with regards to these issues. The question of liability came up 
though. Have you been recently sued because of a wildlife 
species that you manage injuring an individual like buffalo in 
Yellowstone or something?
    Mr. Morgenweck. We have not.
    Mr. Vento. So, I mean, there are no cases like that in 
terms of where individuals have been or recovered I guess in 
terms of punitive damage in terms of a species--I mean, taking 
on assumptions of livestock depredation and so forth. Is there 
a plan in place to deal with the livestock depredation? I know 
we have that with the gray wolf, like all the timber wolves in 
Minnesota where they have picked up the costs of that. From 
time to time, there has been controversy about it. Is there a 
depredation provision for punitive loss in terms of cattle or 
other types of loss that you anticipate would be in place in 
this plan?
    Mr. Morgenweck. We would anticipate trying to create or 
have created a private fund for reimbursing losses of 
livestock.
    Mr. Vento. Well, that would be one of the tasks of this 
citizens management group that would look at that as an 
alternative if it is necessary?
    Mr. Morgenweck. It could well be.
    Mrs. Chenoweth. Mr. Vento, we will return for another round 
of questions.
    Mr. Vento. Oh, we are on the 5-minute rule. Oh, OK. I 
didn't know. Thanks.
    Mrs. Chenoweth. The Chair recognizes the gentleman from 
Colorado, Mr. Schaffer.
    Mr. Schaffer. Thank you, Madam Chairman. Mr. Morgenweck--
just tell me if this has already been covered, Madam Chair. I 
am sorry. I recently arrived. This may have been covered, but 
the State of Idaho, as I understand--recently the legislature 
adopted a resolution basically asking that these grizzly bears 
not be reintroduced. Are you familiar with that resolution?
    Mr. Morgenweck. Yes. I am aware of it.
    Mr. Schaffer. What kind of consideration has your agency 
given to that resolution?
    Mr. Morgenweck. Well, we certainly are aware of the 
positions of the Governor and the legislature and other units 
of government in terms of their opposition. And so we consider 
that very carefully. We also are interested in understanding 
better the basis for the opposition, and also we remain 
interested in the conservation of the bear. Also we are 
interested in the public opinion surveys that have been done--
there have been two now--one in 1995 and one just recently that 
indicate strong support among the public for------
    Mr. Schaffer. So is it your contention that the public 
opinion surveys are still relevant in the face of a decision 
and a resolution adopted by an elected legislature?
    Mr. Morgenweck. I believe they are relevant. How much 
weight one puts on it one can argue about, but I think it is an 
indication that there is not unanimous feelings among the 
populace that grizzly bear reintroduction is simply something 
that shouldn't be discussed.
    Mr. Schaffer. No. There is no unanimous decision on this or 
many decisions, but there is a majority opinion certainly as 
represented by the legislature which is the--what as the 
Federal Government--at least the Constitution that I still 
believe in suggests that we should defer to, as a matter of 
fact.
    I guess the question I just want to get to is do you and 
your Department intend to honor the--you mentioned the 
negotiations, the discussions that are going on with the State. 
That seems to be pretty definitive to me with respect to Idaho 
as one State. And I just want to know whether you will abide by 
it or be persuaded by it or whether you intend to ignore it?
    Mr. Morgenweck. Remembering now where we are in this whole 
process, that we are talking about the release of a draft 
environmental impact statement which then involves taking 
comment from the public, from elected officials, all interested 
parties. Now, what the ultimate decision will be relative to 
the four alternatives, I don't know.
    We are trying to emphasize is the dialog surrounding the 
EIS where issues raised by the legislature are legitimately 
considered--issues raised by the stockmen, issues raised by the 
public in terms of their human safety. All of those things have 
to be weighed, but there is no formula for how one balances 
those things off. But clearly those are important and 
legitimate concerns, and they are concerns that we need to 
understand and listen to.
    Mr. Schaffer. Can you tell me definitively whether your 
Department intends to honor the stated sentiment of the Idaho 
legislature in this House Joint Memorial Number 2 that they had 
passed and forwarded to your office?
    Mr. Morgenweck. The only thing that I can say is I really 
don't know because the EIS is the process of discussing the 
alternative------
    Mr. Schaffer. Let me restate it if you really don't know. 
Do you have any plans to honor it at the moment?
    Mr. Morgenweck. Again, I am sorry I can't give you the kind 
of definitive answer you want because we are in the midst of a 
process that will ultimately lead to that decision, but that 
decision is sometime off. So I don't know the answer.
    Mr. Schaffer. But the answer is that you don't have any 
plans to honor this as you sit here before us today. Is that 
correct or am I in error?
    Mr. Morgenweck. We consider that as important input into 
the process of making that decision, but the decision has not 
been made. So, therefore, I can't say that we are going to 
abide by that resolution. That decision will be made sometime 
in the future after much more discussion so I am sorry I just 
can't give you the sort of definitive answer that I think you 
would like to have.
    Mr. Schaffer. How much authority has the Department of the 
Interior deferred to the Citizen Management Committee that is 
involved in these listing issues and ultimately formulating the 
Department's response to the bear?
    Mr. Morgenweck. You mentioned listing. In listing------
    Mr. Schaffer. It is already listed I guess.
    Mr. Morgenweck. Right. That is correct.
    Mr. Schaffer. In terms of the management authority, how 
much authority has been delegated to them by your Department?
    Mr. Morgenweck. As I said earlier, one thing to keep in 
mind is that this is the first time that we have ever had a 
proposal like this--to have a Citizen Management Committee. We 
have, we believe, delegated to them the implementation of the 
recovery plan, the development of management plans and policies 
for the management of the reintroduced grizzlies, the 
development of the necessary work plans for what should be done 
in directing the recovery effort, and establishing how 
management should respond to the livestock and human safety 
issues. They would also have the authority to refine the 
recovery goals--that is, the definition of how many bears is 
enough to delist it--and also to make the determination as to 
whether or not the reintroduction was successful.
    Mr. Schaffer. We are out of time, and I don't want you to 
elaborate anymore at this point. But could you submit for our 
record at a later point of time the specific legislative 
authority or whatever authority you cite in delegating that 
much authority to this management commission?
    Mr. Morgenweck. Yes.
    Mr. Schaffer. Thank you. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. The Chair 
recognizes Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman. I would like to stay 
on this citizen thing just for a couple more minutes. Frankly, 
one of the things I would like to just suggest is that--and I 
am not yet endorsing the reintroduction of grizzlies I just 
want to make clear--but if this does go forward, I really think 
you ought to think about having legislative authority 
established for this citizens group and what power they have 
and what their existence would be.
    And, frankly, I want to encourage you. To the extent that 
you are creating a citizens group here, I think it ought to be 
encouraged. And I am a strong advocate of local involvement and 
local control. One of the concerns I have in this instance is 
that the collaborative process that took place left a lot of 
people out.
    It did involve some of the important interests there, but I 
think hunters and motorized recreationists, local residents, 
agricultural interests were kind of left out of the process. 
And so that makes it a little more difficult I think to build 
consensus in the community. And it is my sense the closer you 
get to where the grizzly bears are, the greater the resistance 
is to the reintroduction.
    And, Hal, I don't want you to be left out of all this. I 
notice that you are sitting over there and nobody is asking you 
questions. Let me ask you a few questions because whenever you 
have bears and people, access and roads become an issue. Do you 
know approximately how many miles of roads exist in this area 
now?
    Mr. Salwasser. In miles of roads?
    Mr. Hill. I am talking about logging roads public------
    Mr. Salwasser. In the proposed recovery area------
    Mr. Hill. Yes.
    Mr. Salwasser. [continuing] Selway-Bitterroot?
    Mr. Hill. Yes.
    Mr. Salwasser. Zero. It is wilderness.
    Mr. Hill. Well, but we are going beyond--the recovery area 
is going beyond just the wilderness area, and that is where you 
are going to reintroduce them. But the anticipated recovery 
area------
    Mr. Salwasser. If you get outside of that wilderness area, 
there would be some roads. But I couldn't give you an estimate 
of how many miles of roads would be in that area.
    Mr. Hill. There is some Forest Service land that exists 
outside the wilderness area------
    Mr. Salwasser. Correct.
    Mr. Hill. [continuing] of which there are currently roads, 
access roads. You don't know how many miles of roads that 
constitutes?
    Mr. Salwasser. I don't have that information.
    Mr. Hill. Could you provide that for us?
    Mr. Salwasser. I think we can. I think we probably have an 
overlay and a data base from the Columbia project that we could 
estimate the number of miles of roads in the larger area.
    Mr. Hill. And in concert with that, now, obviously, road 
closure is one of the tools that is used for the management of 
reintroduction of grizzly bears. If you could provide us some 
estimate of what you think might be road closures in 
association with what might be a recovery plan? I know since a 
recovery plan doesn't exist, it is pretty hard for you to do. 
But if you could provide us some estimates of that, that would 
be pretty valuable to us.
    Mr. Salwasser. Right now I can tell you that the plans for 
road access management in the area outside the wilderness area 
would be exactly what is in the forest plans as of this date.
    Mr. Hill. And what does that call for for reduction of 
access or motorized access?
    Mr. Salwasser. It would be variable by different areas and 
by season of year, and I would have to give you the standards 
from the individual forest plans to show you what that might 
be.
    Mr. Hill. But you are saying at this point you don't think 
there would be any change in that?
    Mr. Salwasser. My understanding of the information that is 
in the proposed Citizen Management Committee approach is that 
the standards that are in the current forest plans are judged 
to be adequate for grizzly bear recovery.
    Mr. Hill. So would it be your view then that--just so that 
I am clear on this--that snowmobilers and four-wheelers and 
those motorized groups, they will not see diminished access to 
the public land areas that surround the wilderness as a 
consequence of this?
    Mr. Salwasser. Yes. There would be no change from what is 
in the forest plans, and it wouldn't be a result of the 
nonessential population of grizzly bears unless the Citizen 
Management Committee were to make a decision otherwise.
    Mr. Hill. OK. And one of the things that occurs in grizzly 
areas now is that there are restrictions on hunting, 
restrictions on camping, hiking based upon bear activity. Who 
would be making the decisions if there were going to be 
restrictions on those kinds of uses either in the wilderness 
area or outside the wilderness area under this proposed 
alternative?
    Mr. Salwasser. My understanding is that the Citizen 
Management Committee would be the one that would make the 
decisions on changes and any of the provisions for what kinds 
of activities are allowed at different seasons of the year.
    Mr. Hill. But I am thinking more--for example, we will have 
an incident of bear encounter so campground is closed; bear 
encounter, hunting areas are closed down. Who would be making 
those decisions?
    Mr. Salwasser. I would imagine for efficiency purposes that 
the Citizen Management Committee would set up a set of criteria 
or a framework for how those decisions would be made, but the 
day-to-day implementation of them, the onsite decision would be 
in the hands of the local Forest Service officials as long as 
they are consistent with the guidelines and the framework set 
by the Citizen Management Committee. We wouldn't have to 
convene the committee every time a bear encountered somebody in 
a campground.
    Mr. Hill. Mr. Morgenweck, you have identified, I think at 
least on a preliminary basis, 280 bears would be the recovered 
bear population. Is that correct?
    Mr. Morgenweck. Yes, approximately that. Again, we would 
have to--the Citizen Management Committee would need to look at 
that as time went on to judge------
    Mr. Hill. And then they could make that 250 or 200 or 
whatever. Why 280? What evidence do you have that 280 grizzly 
bears lived in that vicinity at some point in time in the 
history? Where did that number come from?
    Mr. Morgenweck. Well, it is based upon evaluations of 
habitat that have occurred over the years in the Bitterroot and 
looking at the quality of the food, the isolation, the factors 
related to grizzly bear biology. It is an estimate that has 
been made by some of our grizzly bear biologists.
    Mr. Hill. So basically what you are saying is that you 
think the area could sustain 280 bears so that is why you 
picked that number?
    Mr. Morgenweck. Correct.
    Mr. Hill. There is some concern in that area that that 
number is so large that it is going to increase the likelihood 
of encounters with the residents and the recreationists in that 
area. Was that taken into consideration in establishing that 
number?
    Mr. Morgenweck. The number was driven largely by biology 
but------
    Mr. Hill. Not by economics, not by social factors, but 
simply by biology?
    Mr. Morgenweck. Largely by biology. And, again, there are 
so many factors that need to be considered as time goes on. 
That is one of the reasons for having the Citizen Management 
Committee have the authority to refine that number because if 
there are situations that are arising, they can adjust the 
number, as well as the management, to deal with whatever 
problems come up.
    Mr. Hill. Which is one of the concerns of the citizens 
there is changing targets--is one of the concerns. Thank you, 
Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. Dr. Morgenweck, you 
testified that there were no lawsuits with regards to grizzly 
bear attacks, and yet a ranger in Glacier National Park, 
Montana, is suing the Federal Government because of emotional 
and physical scars left from a grizzly rampage at a park 
campground in 1995.
    A number of unreported bear encounters occurred shortly 
before the ranger and friends had their tents ripped through 
and were attacked by grizzly bears early in the morning. The 
attack left the ranger with a number of disfiguring scars.
    Furthermore, in August 1996, a man who was on a hiking trip 
was killed by a grizzly bear in Alaska. The man and his friends 
had taken all of the suggested precautions in going into known 
bear country such as wearing bear bells and making noise while 
they hiked through the brush. The attack was quick, and the man 
was killed very rapidly.
    I am reading to you from press accounts that indeed there 
are more than the very rare instances of bears attacking 
humans. In June 1996, an elderly man hiking a common ground 
trail in Glacier National Park while taking a rest was attacked 
by a grizzly bear. Park officials determined that the man had 
inadvertently invaded the bear's space and, therefore, did not 
need to be relocated or killed.
    Since 1990, there have been 17 grizzly bear maulings in 
Glacier National Park. Hunting is not allowed in the park; but 
five maulings in Yellowstone Park; also in British Columbia, 
Canada, between 1963 and 1992 10 people have been fatally 
mauled on and on.
    An 18-year-old Montana boy while hunting with his family in 
1996 was attacked by a bear in northern Montana. The bear took 
a chunk out of his right torso, had his hand and wrist chewed 
up, and tore out a big part of his leg, losing about 35 percent 
of his leg.
    In addition, the edition of the June 1996 Time Mirror 
Magazine Outdoor Life has a full accounting of bear attacks. 
And so I think that they are much more numerous and the issue 
of human fear is much greater than I think your testimony 
reflected. For the record, I would like to enter without 
objection this copy of the text from the Outdoor Life edition, 
January 1996.
    [Outdoor Life edition follows:]
    Mr. Morgenweck. Madam Chairman, could I respond?
    Mrs. Chenoweth. Yes.
    Mr. Morgenweck. First of all, when I spoke of lawsuits, I 
spoke of lawsuits against the Fish and Wildlife Service. I 
think the person you mentioned was a National Park Service 
employee. I am not aware of any against the Fish and Wildlife 
Service in that regard. I was not aware of the one against the 
Park Service that you mentioned.
    Secondly, I think it is important to recognize your 
submission of that article indicates there is no question, that 
bears do on occasion attack and sometimes kill people. We are 
not saying that that doesn't happen.
    But I also think that we have to consider too when we talk 
about the parks, both Glacier and National Park--both Glacier 
and Yellowstone National Park, that we are talking about places 
that receive 2 to 3 million visitors a year, and have a very 
high density of bears.
    I think with as few incidents as we have, that it does show 
that education is important. It doesn't always eliminate every 
one of the instances. When we look at the visitorship------
    Mrs. Chenoweth. Thank you. You have answered my question. 
In the time that I have, there are some other questions that I 
wanted to ask you. When we have the State of Idaho sending a 
resolution to you saying they want no bears, and that was 
passed unanimously in the Idaho legislature, when the entire 
Idaho Congressional Delegation says no bears in Idaho, when the 
Governor says no bears, the attorney general says no bears, and 
you consider this as part of the dialog and part of the 
concerns.
    Mr. Morgenweck, I think you are operating in an agency that 
is entirely out of control, and I think there are some serious 
legal questions here. I would ask that before you issue the 
draft EIS, I think anyone who reviews that draft EIS ought to 
know how the people of Idaho feel.
    And I think a resolution from the legislature and 
indications that are more than indications--actual letters from 
the Governor, the attorney general, and the congressional 
delegation--should also be part of the environmental impact 
statement. Documentation such as this normally is part of the 
environmental impact statement. And, believe me, Dr. 
Morgenweck, these are not just ordinary concerns to be put 
someplace in a poll and then reevaluated.
    I have a number of other questions here for you. They are 
questions that the delegation asked you a long time ago, and I 
am dreadfully concerned that you went ahead and issued your 
decision today without even bothering to answer the questions 
that the entire delegation asked you to answer for them. And so 
without taking up any more time by putting you through the 
questions, I am asking you to answer these questions within 10 
days. The Chair now recognizes Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Madam Chairman. I just 
have a technical question, Dr. Morgenweck, about the advisory 
committee and the decisionmaking process. Will these decisions 
be made by majority? Will there be an attempt to reach 
consensus? Have you worked that out as to how decisions will 
proceed from the advisory committee?
    Mr. Morgenweck. I don't know that there is a specification 
as to how they will make their decision. Let me turn to Dr. 
Servheen, and he indicates that it is a consensus process.
    Mr. Hinchey. Consensus process. That is going to be a 
difficult process I will be so bold as to predict at this 
particular moment.
    Mr. Morgenweck. Yes. You are absolutely correct. I have had 
experiences for the last 4 years or so on another recovery 
program that has a consensus process, and it is very difficult, 
but it is also a very good opportunity to work through the 
issues.
    Mr. Hinchey. Well, it is a good opportunity to talk about 
things, but I am not so sure that any decisions will ever be 
made. In any case, it will be interesting to watch how this 
process unfolds. If I may, Mr. Salwasser, just ask you, sir--
you may have answered this, and I missed the answer to Mr. 
Hill's questions a few moments ago, but I am interested in 
knowing the description of the habitat area where this 
introduction is proposed to take place. Can you just give us a 
general description of what it looks like?
    Mr. Salwasser. What it looks like? It is quite hilly. It is 
the central Idaho wilderness areas that are known as the 
Selway-Bitterroot with a portion of the Frank Church River of 
No Return area in the south. It is a grand total of 3 plus 
million acres ranging from some very high elevation, rocky 
areas down to the bottoms along the Salmon-Clearwater forks of 
the Clearwater River drainage; lots of conifers, lots of aspen, 
lots of open grassy areas.
    Mr. Hinchey. What kind of wildlife are there presently in 
that area?
    Mr. Salwasser. Well, there are thousands of black bear.
    Mr. Hinchey. Thousands of black bear?
    Mr. Salwasser. That is correct. They harvest about 1,000 
black bear a year out of the area; thousands of elk, mule deer, 
white-tail deer along the bottoms, cougar. There are now wolves 
in the area.
    Mr. Hinchey. Is this mostly wilderness?
    Mr. Salwasser. The recovery area--the introduction zone is 
entirely wilderness.
    Mr. Hinchey. What portion of it is not wilderness and how 
would you describe that portion?
    Mr. Salwasser. Just a second. OK. I needed to get a 
clarification. The recovery area itself is all wilderness area, 
but the area that the experimental population could be in 
includes some nonwilderness areas that adjoin that, some of 
which are unroaded.
    Mr. Hinchey. Thanks. Thank you very much. Madam Chairman, I 
just want to say that I think that we benefited--I particularly 
felt that I benefited from the trip that you organized out to 
Idaho just a week or so ago to see the forestry conditions.
    I think that perhaps in the future you might consider 
taking some members of the Committee out to this particular 
area. I think it would be instructive for us, particularly 
those of us who live east of the Mississippi River, to have an 
opportunity to see this particular range.
    I live in New York. We have black bear. I have black bear 
right near my house. I live in the woods. There are some woods 
in New York contrary to what some people might believe, but 
there are some woods in New York. I live in the woods, and 
there are black bear near my home. We never feel particularly 
threatened by them. They are rather docile creatures, frankly, 
but I can understand the concerns of people about this 
particular issue.
    But it is hard for some of us particularly in the East to 
grasp the enormous size of areas in the western part of the 
country, and it is instructive for us to have an opportunity to 
see them. So it might be a good idea at some point perhaps, 
Madam Chairman, for us to go out and take a look at it.
    Mrs. Chenoweth. Thank you, Mr. Hinchey, and it was an honor 
to have you in our State 2 weeks ago, and Idahoans are grateful 
that you would take the time to come out. And I certainly will 
work on putting together a trip into this area so you can see 
the wilderness. The Chair recognizes Mr. Schaffer from 
Colorado.
    Mr. Schaffer. Thank you, Madam Chairman; a couple 
questions. One I would like to ask Mr. Morgenweck again. I want 
to go back to the whole notion of the or the issue of the Idaho 
resolution. I had a chance to go through your prepared comments 
while I was sitting here, which I have lost all of a sudden. 
Oh, here it is.
    The announcement that I missed and have read about since 
about the--how many alternatives? Four alternatives it looks 
like that you had considered, and I guess you announced you are 
going to pursue this alternative number 1. And I would like you 
to--the last time I asked you questions about the Idaho 
resolution, as well as the opinions rendered by the delegation 
and the Governor, you indicated that you would take those under 
consideration and consider them.
    I don't live in Idaho, but if I did live in Idaho, how 
would I interpret--how do you think the people in Idaho should 
interpret the announcement today to move forward with 
alternative number 1 given the fact that these resolutions and 
letters had been given to you far in advance of the decision? 
Does this decision suggest or offer any indication that these 
opinions are being seriously considered?
    Mr. Morgenweck. I would hope that they would be interpreted 
as an opportunity to talk more about the reasons for the strong 
objections by the delegation and by the members of the 
legislature. We have met on two occasions; one, a group met 
with the Governor, and we also met with the staff of the 
delegation of Idaho. We met with the Idaho Association of 
Counties, and we met with Mr. Mealey and his commission.
    And they made their views quite clear, but also in that 
discussion, I think that we discovered that there is more 
discussion to have about why it is that the positions taken 
have been taken. I think there are a lot of concerns that I 
think that we may be able to allay, and I think given the 
importance of the Bitterroot in size and what it can mean to 
grizzly bear recovery, that it is worth embarking on 
continuation of this process of going through the draft EIS to 
have those kinds of discussions.
    Mr. Schaffer. So is your announcement about alternative 
number 1 then just a temporary sort of thing, or there is more 
discussion before you move forward with alternative number 1, 
or is this a decision you have reached to actually move forward 
with reintroduction at this point?
    Mr. Morgenweck. No, we have not reached the decision to go 
ahead with reintroduction. What we have decided is that for 
purposes of the review of the draft environmental impact 
statement alternative one is the alternative that the 
Department prefers. Now, we will go through a long series of 
meetings, public meetings, public comment, briefings, 
discussion that will--at the end of that whole process, result 
in a decision about which alternative to pursue.
    Mr. Schaffer. OK. You mentioned the term consensus, that 
decisions will be made on consensus. What kind of consensus did 
you have with the Idaho delegation, the State legislature, and 
the Governor that led you to the determination you made this 
morning on alternative number 1?
    Mr. Morgenweck. I think the positions of the delegation 
currently are pretty clear, but I think, Congressman Schaffer, 
one also has to look back that this has been about a 22-year 
effort since the------
    Mr. Schaffer. Well, with respect to the consensus that you 
described earlier and the resolution, the Governor's 
statements, the delegation statements, how were these folded 
into the consensus building that led you to alternative number 
1?
    Mr. Morgenweck. The consensus that we were talking about--
operating under consensus was for the Citizen Management 
Committee. Clearly, as we have moved through this long process 
of discussing the Bitterroot, there have been times when the 
Idaho Fish and Game appeared to be supportive of 
reintroducing------
    Mr. Schaffer. Just to be clear, so the consensus that you 
spoke of is only relevant to the citizens committee, not to the 
alternatives that your Department is planning to choose?
    Mr. Morgenweck. The specific question that was asked of me 
dealt with the Citizen Management Committee. This process--if 
you are asking me the question will we have a consensus of the 
Idaho legislature, the delegation, and the Governor, when we 
get to the point of making the ultimate decision, I don't know. 
I hope that we do, and I think we should try to move in that 
direction. But in terms of was there a consensus that 
alternative one should be the preferred alternative, the answer 
is no.
    Mr. Schaffer. OK. Let me ask, you know, when the EPA and 
other agencies in the Federal Government assess the impact that 
a State may have or some particular activity would have on the 
environment and so on and public health, and I think of these 
new air quality standards, which seem unrelated maybe at the 
moment, that move from regulating PM10 and expanding that to 
PM2.5 in a particular matter, we do a risk assessment as to the 
impact on human health and human safety. Have you done any 
assessment of the risk associated to human health and human 
safety with the introduction of these bears--how many humans 
may die or how many encounters you expect at the 280 level that 
you have established?
    Mr. Morgenweck. We have done some work in that regard in 
terms of comparing what we believe would be areas that would 
have a similar density of bears when full recovery would be 
reached in the Bitterroot. And we have also looked at the 
visitorship. I think that during the course of discussion on 
the draft, that is an area that we could do more work on and 
should do more work on because as I understand it, human safety 
is the number 1 concern on the part of the public in Idaho.
    Mr. Schaffer. Oh, good. How many people will be affected 
healthwise with alternative number 1? Is there a risk of death, 
risk of injury, risk of encounter?
    Mr. Morgenweck. Based on our projections from other similar 
circumstances, we recognize that human visitorship to this area 
will increase with larger human population and that once bears 
are recovered in 50 to 110 years, at about 280 bears we project 
less than one injury per year and less than one grizzly bear 
induced human mortality every few decades will occur.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Mr. Schaffer, thank you for your questions. 
The Chair recognizes Mr. Vento.
    Mr. Vento. Thanks. Dr. Morgenweck, there was some 
discussion I think on the lawsuit issue. What I was trying to 
get at was a different question I think than what the 
Subcommittee Chairwoman was talking about, and that is, you 
know, if you can be held liable for the regulation because you 
regulate something as a threat or endangered species in the 
case there is that--I mean, in terms of successful Court cases, 
I mean, I understand that Court cases sometimes can blossom 
like the flowers in spring in terms of possible alternatives--
but are you aware of any case where you were--in terms of the 
Fish and Wildlife Service in your region or outside your region 
where they were, in fact, regulating a species as endangered or 
threatened and, in fact, were held liable for that--the damage 
of it?
    Mr. Morgenweck. No, sir, I am not.
    Mr. Vento. Well, I think that is the important point. I 
mean, obviously, if you are an employer working for the Forest 
Service or for the Park Service, in this case an example came 
up--I don't know--I mean, if they didn't take reasonable 
cautions or there wasn't signs up because there were bear in 
the area or someone was put in a situation where they were at 
risk because they didn't have adequate equipment or were told 
to do something--there are all sorts of incidents that could 
arise, you know.
    But, I mean, I think what really is they are playing around 
the edges here in some of the questions--is whether just simply 
the regulation, the reintroduction of the species, the 
management of an endangered or threatened species, whether or 
not that--there would be some liability.
    Now, many may think that because you regulate it, you 
know--I mean, we have had suits against the Food and Drug 
Administration because they regulate and put a product on the 
market that their actions were, in other words, complicit with 
whoever the manufacturer was, you know, of the product. But 
those suits have been up unto this date I think have not been 
successful. I guess their arguments are made along those lines.
    With regards to the regional forester or supervisor, Mr. 
Salwasser, the issue with regards to the roads are, obviously, 
all outside the primary area but in the range I guess of what 
might be the range for the grizzlies in this case. Is that 
correct?
    Mr. Salwasser. Correct, in the area------
    Mr. Vento. And even some of these areas are roadless, but 
in terms of road closure, you close roads for a variety of 
reasons today, don't you?
    Mr. Salwasser. We do.
    Mr. Vento. I mean, sort of on a temporary basis because, 
well, somebody might be hunting an area and don't want others 
driving around berry picking or something. Is that correct?
    Mr. Salwasser. We work with the State wildlife agencies for 
road closures during hunting season to protect some of the 
vulnerable animals. We close roads in the spring to protect elk 
calving. We close roads in the wet season to protect the------
    Mr. Vento. Of course, some of them might just be--where we 
have road restoration if you had enough money sometimes I 
guess. That is a real road closure.
    Mr. Salwasser. Right.
    Mr. Vento. And so there are some other bases for that, and 
I think that you were mentioning that you thought that the 
management of it--does the Forest Service--because a large 
segment of this is Forest Service wilderness or Forest Service 
lands--what type of role do you take in terms of the management 
with the Fish and Wildlife Service of some of the activities in 
the land. You, obviously, have a role in hunting, but you also 
work with the game and fish departments of the various States.
    Mr. Salwasser. We work with the game and fish departments 
in all of the States with regard to the habitat management, 
habitat improvements, with managing our transportation access 
during the hunting season. With the Fish and Wildlife Service, 
the Federal agency, we work with them wherever there is an 
endangered species or a proposed endangered species. We do 
consultation with them to make sure that the projects don't 
jeopardize the species.
    Mr. Vento. Now, I understand that the citizen management is 
not required. This would be sort of a try at something new, 
apparently, there--in other words, because you recognize, Dr. 
Morgenweck--apparently the policymakers recognize that there 
were some shortfalls in terms of trying to deal in an informal 
way, that you are trying to do something more formal. That is 
at least what the recommendation is. Is that correct? But this 
would be a pilot. This would be a trial at something. Is this 
correct?
    Mr. Morgenweck. That is correct.
    Mr. Vento. And so, obviously, trying to write this in law 
it would provide less flexibility in all likelihood. I mean, 
that has been sort of the pattern I guess when things like this 
have been tried to write into law before they have been tried. 
We don't know that it will work or not.
    Mr. Morgenweck. That is correct.
    Mr. Vento. And it may need reinforcement; maybe not. I 
guess it is an effort to try to make things work out, and it 
sounds like you have gained some support from groups in the 
area that look at this as occurring and that want to have a 
greater voice or at least participation. I guess the 
supposition is that if you share the information, everybody has 
the information, that you will come to decisions that people 
will be of a common mind. They sometimes find that that doesn't 
always work out the way it is planned that way.
    One of the other features of this particular area, and I 
think it is pretty relevant because this is sometimes compared 
to other types of endangered or threatened species as sort of 
dictating what will happen with the land use, in other words, 
in terms of timber harvest or recreational use or other use, 
but the changes that have to be made here are nil, aren't they, 
in terms of this wilderness area, in terms of how it is 
managed?
    Because the habitat already is suitable, and so it has no--
there is no corollary with other endangered species that, for 
instance, have really resulted in a dramatic change in terms of 
the land use patterns and management of the land. In other 
words, it would be very much consistent with the way it is 
already being managed. Is that correct?
    Mr. Morgenweck. That is correct.
    Mr. Vento. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Vento. The Chair recognizes 
Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman. I would like to 
actually follow on with some of the questions Mr. Vento asked. 
The creation of the citizens advisory group--part of the 
motivation there at least is to gain some public support for 
this--some confidence on the part of the public that they are 
going to have a voice in the process and that sort of thing. Is 
that correct?
    Mr. Morgenweck. That is correct.
    Mr. Hill. And I want to go back to this whole issue of 
public support. In spite of the fact that you have made the 
suggestion of a citizens advisory group, to my knowledge, at 
least in Valley County in Montana where--the adjacent county 
here--you don't have the support at this point of any of the 
county commissioners there, do you?
    Mr. Morgenweck. I am not aware whether or not we do. I 
don't know.
    Mr. Hill. I believe that you have, in fact, their strong 
opposition. Any local legislators from that area, are you aware 
of whether any of them are in support of moving forward with 
this plan?
    Mr. Morgenweck. I am not. Perhaps Mr. Salwasser is aware of 
some of the local positions. Dr. Servheen informs me that they 
have not seen the citizen management proposal either, and so 
that, again------
    Mr. Hill. I guess I would ask this question. Do you see 
going--if you are unable to secure any local support of any 
local government representatives, if you are unable to secure 
any support from the State of Idaho--by that, I mean the 
legislature, the Governor, local political leaders--if there is 
a lack of support by both the Montana and Idaho Congressional 
Delegation, do you see going forward with this even though you 
had that much opposition to this?
    Mr. Morgenweck. You mean at the end of this whole process?
    Mr. Hill. Yes.
    Mr. Morgenweck. Someone will make that ultimate decision 
that has a higher pay grade than me, but I think that we have a 
responsibility to work with the local people, local units of 
government, and do our very, very best to work with them to 
deal with the concerns that they have.
    Mr. Hill. And get their support?
    Mr. Morgenweck. And do our utmost to get their support.
    Mr. Hill. I know, you know, that you are hedging some 
there. I guess first of all, I want to reiterate we have a lot 
of contentious polarization going on in Montana over public 
land management issues and endangered species. And I am 
committed to the concept of collaborative process. Again, my 
concern here is that the collaborative effort may have been too 
narrow rather than broad based.
    But aside from that, you know, I would really suggest that 
you consider creating the citizens group and empower that group 
to actually make the decision of whether there is going to be 
reintroduction or not or at least to make a recommendation on 
which the Secretary makes the decision on whether there is 
going to be reintroduction or not.
    Because I believe there is still strong--in spite of the 
public opinion polls that you have cited--you know, you can ask 
questions and you can series the questions, and we all know 
that public opinion polls don't necessarily reflect what really 
public judgment is. But there is strong resistance yet--very, 
very strong resistance and concern about this. And some of it 
may be well founded, some of it may not be.
    But I would certainly--I mean, I would urge you to move 
forward on the collaborative process and a consensus process. 
But I would certainly urge you to employ that process on a 
broader base before you make the decision whether you are going 
to have reintroduction or not. Mr. Salwasser and I have had 
some conversation about that in the past, and I just want to 
urge you to do that.
    I want to go back to the citizens group. Would you see this 
citizens group decisions being subject to appeal by interest 
groups who disagreed with the decisions that they made? And 
would that be an appeal process that would likely be litigated 
or not?
    Mr. Morgenweck. One thing I have learned, Congressman Hill, 
in dealing with the Endangered Species Act is virtually 
anything we do can be litigated. So I would suspect that there 
could very well be litigation on the question of the legality 
of the Citizen Management Committee and the responsibilities 
that are delegated. Hopefully, if those are going to occur, 
they would occur early on in the process.
    Mr. Hill. Would that argue for us to pass some specific 
legislation with regard to that?
    Mr. Morgenweck. Well, I am not a lawyer. I guess, you know, 
Mr. Vento's point was that trying to craft legislation at this 
early point in our experience with this sort of approach may 
well be limiting rather than enhancing. So, I think that we 
ought to try this--in other words, go through the discussions.
    Mr. Hill. But, in essence, what you are saying is you are 
going to make a decision to reintroduce. Then you are going to 
create a citizens advisory group to manage the reintroduction. 
I believe that you really need to take a step back from that, 
and I don't believe you are at the point where you have built 
enough consensus around the decision of whether you are going 
to reintroduce the grizzlies, and that you need to employ the 
collaborative process further before you make that decision.
    Mr. Morgenweck. Right. Yes. And I am sorry. I apologize. I 
certainly did not miss your point, which is the Citizen 
Management Committee if OK, if you are reintroducing, but how 
could citizens have input and advice in advance of that final 
decision being made and trying to develop a consensus there? I 
think that is good advice.
    Mr. Hill. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. For the record, I 
would like to enter the letter from the Governor dated January 
29, 1997; also, the letter from the entire congressional 
delegation dated May 15, 1997.
    [Governor's letter may be found at end of hearing.]
    [Idaho delegation letter may be found at end of hearing.]
    Mrs. Chenoweth. I just want to end this round of 
questioning by asking Mr. Salwasser if there was a human in 
your forest who was a known killer, known to maim and maul 
people, and that he very likely was out or could be in an area 
where there was multiple-use activity where families were 
camping or picking berries or hunters were in the area, 
wouldn't you do all you could to, ahead of an injury, make sure 
that individual was captured?
    Mr. Salwasser. Well, we certainly would do that, Madam 
Chairman. We have also got a lot of animals out in the forests 
that are known to kill human beings at higher rates than 
grizzly bears, and we don't have the ability to go in and try 
to take them all out--cougars, rattlesnakes, bees, among them.
    Mrs. Chenoweth. But the grizzly bear is a pretty large and 
unpredictable animal, and it used to be that when the entire 
congressional delegation and when the Governor and the State 
legislature all said no emphatically, it used to mean 
something. It used to mean that an agency would redirect their 
resources, and those resources are becoming scarcer and scarcer 
as we have to allocate resources out and begin to prioritize in 
the Congress.
    I think the American people have reason to be concerned 
about the fact that money is being spent on something that the 
State doesn't want, the Representatives don't want, the people 
don't want, and there are other priorities the government 
should be investing in. One of those things is managing the 
health of our forests. And I am very pleased with your candor, 
but I am very sad about the attitude of moving ahead in spite 
of all of the governmental authorities from the counties on up 
simply saying no.
    I think you need to rethink that position, and you have 
gone through a long and arduous session, both of you, 
especially you, Dr. Morgenweck, and I thank you. I would like 
to ask your continued patience and ask you to remain for the 
rest of the hearing so that you might benefit from the 
testimony that will be presented. If that is possible, we would 
certainly appreciate it. Thank you very much.
    And I call the next panel of witnesses. Senator Ric Branch 
from the Idaho State Senate, Midvale, Idaho; Steve Mealey, 
Director, Idaho Department of Fish and Game representing the 
Governor; Ted Strickler, Custer County Commissioner, Challis, 
Idaho. Gentlemen, if you would take your seats at the witness 
table? Gentlemen, as with the preceding panel, if you will all 
rise and raise your right hand and take the oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you and I now recognize our witnesses 
starting with Senator Branch.

 STATEMENT OF SENATOR RIC BRANCH, IDAHO STATE SENATE, MIDVALE, 
                             IDAHO

    Senator Branch. Thank you, Madam Chairman, members of the 
Committee. I really appreciate the opportunity to testify for 
you today. My name is Ric Branch, and I serve on the Resources 
and Environment Committee of the Idaho State Senate.
    I also represent the fifth generation of my family to farm 
and ranch at the foot of the west central mountains in Idaho. 
Two sets of great grandparents have homesteaded within two 
miles of where I presently live. My 6-year-old son, Ross, would 
be the sixth generation of my family to earn his livelihood in 
the same fashion as his predecessors if he so desires.
    There is a major threat that is jeopardizing my son's 
chances of continuing our family's presence on the land. It is 
not the normal threat you would associate with operating a farm 
or ranch such as severe drought, flooding, blizzards, 
grasshopper infestations, or low commodity prices. No, the 
number 1 threat to my son's future is from foolish decisions 
being made by Federal agencies and overzealous Federal 
regulations.
    A small minority of elitists in the West are seeking to 
lock people out of our environment. Our national resources are 
now being managed by professional litigants in Court instead of 
professionally trained scientists and practitioners on the 
ground.
    American families in rural America have for generations 
made their living by practicing good stewardship of the 
environment and by providing resources for humankind. These 
American families are being displaced by a society that has 
been led to believe that the only way to protect their 
environment is to lock people out. The casualties of this kind 
of philosophy are the people closest to the land, the very 
people who are best able to manage it.
    On March 14 of this year, I was the floor sponsor in the 
Idaho State Senate of House Joint Memorial 2, which states the 
Idaho Legislature's full support of Governor Phil Batt's 
request for immediate suspension of the Bitterroot Grizzly Bear 
Environmental Impact Statement.
    This joint memorial was a bipartisan effort and passed both 
Houses on a voice vote with no dissenting debate. In our 
Senate, there were absolutely no no votes. It came out 35 to 
zip. When I moved for the adoption of House Joint Memorial 2, 
it was seconded by the minority leader for the Democratic 
party, Marguerite McLaughlin from northern Idaho.
    She said that her favorite campground would have to be 
closed if the grizzly bear was introduced into Idaho. I pointed 
out in debate that a large Boy Scout camp is also located close 
to this recovery area or in the recovery area.
    Over time, a maximum acceptable ratio of bears to humans 
has been established in Idaho. Reintroduction would disrupt 
this ratio to the detriment of humans resulting in injury, 
death, and loss of personal freedoms to the citizens of Idaho.
    Montanans have experienced unnecessary loss of human life, 
unacceptable land use restrictions, and legal denial of the 
right to protect private property. This reintroduction proposal 
would have the same result in Idaho. The potential for conflict 
with campers, hikers, and other users of the public lands is 
very real.
    When Montanans discovered that their homes were in the 
human-grizzly conflict zone, they asked if they were going to 
be able to allow their kids to go fishing in the streams behind 
their homes and not have to worry about them getting consumed 
by bears.
    Well, the recovery coordinator responded by saying, ``You 
might have to modify a few of your children's behaviors.'' They 
were told to tie bells on their children when they were sent 
out to play so that the bears would hear the bells and run the 
other way.
    We must learn from our neighboring States of Montana and 
Wyoming regarding the difficulties and lack of good faith they 
have encountered from the U.S. Fish and Wildlife Service. 
Montana has been forced to deal with a continually expanding 
recovery goal which has nullified their efforts to manage the 
grizzly bear which is a game species in that State. Wyoming has 
been forced to spend $678,000 on their program with only 
$36,000 in reimbursements.
    The so-called Roots proposal for reintroduction is contrary 
to the existing Endangered Species Act. It was negotiated by a 
limited number of special interests under duress and cannot be 
enforced. I will continue to oppose any reintroduction program 
pretending to offer State or local citizen management 
unsupported by statute.
    The heart of this problem is Rule 10[j], Section 14, which 
takes in the Citizen Management Committee. This is really not 
local control at all because it is all left up to the Interior 
Secretary at his discretion whether the committee is going 
forward under his wishes. So this is totally unacceptable to 
the State of Idaho.
    The grizzly bear should be removed from the Endangered 
Species List and turned over to the States for management. The 
Grizzly Bear Oversight Committee conducted hearings in 
Grangeville and Sandpoint and Orofino, Idaho, in 1994. 95 
percent of the citizens were against any grizzly bear 
introduction under any conditions.
    The people of the State of Idaho, the Governor, and both 
Houses of the State Legislature agree that the proposal to 
introduce the grizzly bear into the Selway-Bitterroot Mountains 
is unnecessary and unworkable. Madam Chairman and members of 
the Committee, I ask that you see that common sense prevail in 
this issue and that this proposal be stopped immediately. Thank 
you.
    [Statement of Senator Branch may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Senator. The Chair recognizes 
Director Mealey, Director of Idaho Fish and Game.

STATEMENT OF STEPHEN MEALEY, IDAHO DEPARTMENT OF FISH AND GAME, 
                          BOISE, IDAHO

    Mr. Mealey. Madam Chairman, I am pleased to be here. I am 
Steve Mealey, Director of the Idaho Department of Fish and 
Game. It is a pleasure to be here today to present the State of 
Idaho's position on reintroduction of grizzly bears to the 
Bitterroot Ecosystem of Idaho.
    The Idaho Fish and Game Commission has long opposed 
reintroduction of grizzly bears into the Bitterroot Mountains 
of Idaho. My purpose today is to present the broader position 
of the State of Idaho. I have several written documents to 
support my testimony.
    I represent specifically positions of Governor Batt, the 
State Legislature, the Idaho Association of Counties, Idaho 
Congressional Delegation, and the Idaho Fish and Game 
Commission and Department. I have submitted formal comments for 
the record. They contain four key messages.
    Point number 1, Idaho's Governor, legislature, county 
commissioners, congressional delegation, Fish and Game 
Commission and Department strongly oppose reintroduction of 
grizzly bears to the Bitterroot Ecosystem.
    As you have referred to earlier, Madam Chairman, in a 
January 29, 1997, letter to the Secretary of Interior, Bruce 
Babbitt, Governor Phil Batt outlined the reasons why he is 
``adamantly opposed to the reintroduction of grizzly bears into 
the Bitterroot Ecosystem.'' A copy of that letter is included 
with the testimony.
    In his letter, Governor Batt questioned the U.S. Fish and 
Wildlife Service's position that grizzlies in the Bitterroot 
Ecosystem are necessary for the recovery and survival of 
grizzly bears in the lower 48 States. Governor Batt also 
expressed concerns for public safety, social and economic 
effects on many rural Idaho communities, and overall fiscal 
impacts to Idaho if grizzlies were reintroduced.
    Point number 2, if grizzlies were to return to the 
Bitterroots, then most Idahoans, in my opinion, would probably 
agree that the best way would be as a nonessential experimental 
population under the guidance of a Citizen Management 
Committee. However, Idaho people have expressed through their 
elected or appointed representatives strong opposition to their 
return through reintroduction. Simply put, people have agreed 
with the ``then'' but not the ``if.''
    Point number 3, I have serious personal concerns about how 
data were used in developing the likely preferred alternative. 
It is not now any longer likely apparently so I now have 
serious personal concerns about how data were used in 
developing the preferred alternative for grizzly 
reintroduction.
    Simply put, the Bitterroot grizzly bear evaluation area, 
referred to as a BEA, that was assessed by Davis and 
Butterfield in 1991 as suitable for a viable population of 
grizzlies does not coincide with the grizzly bear recovery area 
likely associated with the preferred alternative in the draft 
environmental impact statement.
    In fact, there is no document I know of that can 
demonstrate that the proposed grizzly bear recovery area is 
sufficient, and I want to emphasize that word sufficient, for a 
viable or recovered population. The grizzly bear recovery area, 
which has been previously referred to as the Selway-Bitterroot 
and Frank Church River of No Return Wildernesses, includes a 
large area south of the Salmon River that was not evaluated by 
Davis and Butterfield, and it excludes an area nearly as large 
north of the Lochsa River that was assessed by them.
    Point number 4, should the decision be made to place 
grizzlies in the Bitterroot, reintroduction would occur without 
the necessary authority of a permit required by Idaho State 
law. I would not issue the required permit.
    And, Madam Chairman, if you would permit me some personal 
reflections on this issue, they are included in my comments, 
but I see I still have an amber light so I will read quickly. 
As I reflect on this issue, I am reminded of a passage in Teddy 
Roosevelt's book, ``Outdoor Pastimes of an American Hunter.''
    ``Eastern people,'' he wrote in 1905, ``and especially 
eastern sportsmen, need to keep steadily in mind the fact that 
the westerners who in the neighborhood of the forest preserves 
are the men who, in the last resort, will determine whether or 
not these preserves are to be permanent.
    ``They cannot, in the long run, be kept as forest and game 
reservations unless the settlers roundabout believe in them and 
heartily support them; and the rights of these settlers must be 
carefully safeguarded, and they must be shown that the movement 
is really in their interest. The eastern sportsmen,'' Teddy 
said, ``who fails to recognize these facts can do little but 
harm by continued advocacy of preserves.''
    And for me the main relevance of this old message for 
today's adapted management is to highlight the need for 
continuing understanding, acceptance, and support for actions 
by those directly affected by such actions. The fundamental 
task for all of us in the natural resources business is to make 
conservation work in a democracy.
    When the Governor, the legislature, the congressional 
delegation of Idaho, the county commissioners, the Fish and 
Game Commission all have grave reservations about the 
reintroduction of grizzlies to the Bitterroot area, it is time 
for agency representatives to pause, take a deep breath, and 
reexamine where they are headed especially in terms of 
providing excellent public service. Not to do so would seem to 
ignore Teddy Roosevelt's wisdom and appear arrogant relative to 
representative democracy. Thank you for the chance to present 
Idaho's position.
    [Statement of Mr. Mealey may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Mealey. The Chair now 
recognizes Commissioner Ted Strickler from Custer County. 
Commissioner?

    STATEMENT OF TED STRICKLER, CUSTER COUNTY COMMISSIONER, 
                         CHALLIS, IDAHO

    Mr. Strickler. Madam Chairman, thank you for allowing me to 
be here today. My name is Ted Strickler, and I am the Chairman 
of the Board of County Commissioners of Custer County. I live 
in central Idaho in and around the Frank Church Wilderness Area 
for 41 years. I have been a licensed outfitter and guide and 
have experience in timber and grazing industries, and I am 
currently a building contractor. Custer County is the gateway 
to the Frank Church Wilderness Area, the largest wilderness 
designation in the lower 48 States.
    Today, I represent all 44 counties of Idaho as a spokesman 
of the Idaho Association of Counties and Custer County as a 
county directly affected by the introduction of grizzly bears. 
Custer County and the Idaho Association of Counties are on 
record as opposing the introduction of the grizzly bears into 
Idaho.
    And as said before, the Governor of Idaho opposes, Idaho 
legislature opposes, Idaho Department of Fish and Game says no, 
Idaho Association of County says no, Custer County says no, 
Idaho says no. Elected officials are hopefully making their 
decisions as representation of their public. As public 
officials, we are first concerned and are bound by oath to 
protect the health, safety, and welfare of our citizens and all 
other users.
    The Frank Church Wilderness Area is possibly the only area 
of its kind where people, and especially families with 
children, can have a true wilderness experience without fear 
for their safety and with the mental freedom to enjoy the total 
natural wilderness experience, a wilderness experience that 
includes camping and recreational activities free from the 
threat of attack by wild animals such as the unpredictable, 
easily provoked, bad attitude grizzly bear.
    With the reintroduction of the wolf, this has changed, as 
people are now expressing fear of camping out. What will it be 
like under the grizzly bear? There is much fear about this 
process, some about the bear and some about the government 
actions against citizens. Some consider this a type of 
environmental and emotional terrorism.
    The citizens of Custer County have presented their 
commissioners with petitions, offered here as an exhibit, 
containing over 1,350 signatures, demanding us to do whatever 
is necessary to protect them and their property from the 
grizzly bear. What would you do?
    We are concerned about the economy of the State and county. 
Idaho is approximately 67 percent public land. Custer County, 
the size of the State of Connecticut, is 96 percent public 
land. The economics of our county and State are heavily 
dependent upon public land use for mining, timber, grazing, and 
recreation.
    As such, we are already heavily impacted by the Endangered 
Species Act. Because of the reintroduction efforts and the 
listing of species in our area, grazing has been cut, logging 
curtailed, mining is heavily regulated, and even recreation has 
been affected.
    Decisions and regulations are being made by agencies 
without good, supportable, science and are now suffocating the 
West. We believe that the introduction of the grizzly bear in 
the Selway-Bitterroot, with the core areas of nonuse, 
restricted areas, and more curtailment of public land use, may 
well be the lethal blow to what remains of our ability to 
survive.
    Tourism makes up less than 10 percent of the total economy 
of Custer County, yet it is suggested as our salvation as other 
uses are being diminished. Even if our economy could survive on 
a 90 percent cut, we do not believe tourism and grizzlies are 
compatible.
    Past experience has shown through the Endangered Species 
Act in reintroduction efforts that man has not been part of the 
equation and has not been considered. We believe people in 
local economies should have the number 1 priority in the 
equation for every issue and Act.
    We are also concerned about the lack of interaction and 
relationships between our State and local governments and the 
Federal Government and its agencies, especially Fish and 
Wildlife and Marine Fisheries, who are in charge of 
administering these Acts. It is time to put man and the local 
economics in the equation.
    It is time to give the highest consideration to the desires 
of the people affected by the Act and consider their historical 
right to protection of their custom, culture, and pursuit of 
happiness as they pursue life's successes and the American 
dream. The people of Idaho and the West are speaking out--no 
grizzly bears. Please hear them. Thank you.
    [Statement of Mr. Strickler may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Commissioner. I am going to open 
the line of questioning in this round, and I would like to 
begin with Director Mealey. Can you give us your background, 
your educational background, and your occupational background?
    Mr. Mealey. Yes, ma'am, I would be glad to. Maybe I should 
only share the appropriate parts which would be my education. I 
have a Master's Degree in Wildlife, and my graduate work dealt 
with grizzly bear food habits in Yellowstone. I worked as a 
grizzly bear researcher for some years and then spent about 10 
years as either a wildlife biologist on the Shoshone Forest in 
Wyoming and forest supervisor there where grizzly bears were 
our principal occupation.
    Mrs. Chenoweth. Can you------
    Mr. Mealey. My Master's thesis dealt with the food habits 
of grizzly bears in the Yellowstone Ecosystem. I did develop 
one of the early evaluation processes for determining habitat 
quality for grizzly bears and published that many years ago, 
and it was relative to the Whitefish Range in northern Montana.
    Mrs. Chenoweth. Do you know if your publication was used as 
part of the scientific background in this new draft EIS?
    Mr. Mealey. Yes, ma'am, it was. I am aware of that.
    Mrs. Chenoweth. Good. Have you reviewed the science of the 
proposal to reintroduce the bear into the recovery area?
    Mr. Mealey. Yes, ma'am. Two weeks ago I met with all of the 
Idaho Fish and Game Department people who had involvement in 
the development of the EIS, and I spent a day with them 
reviewing all of the data that they had generated, and I had a 
very good day with them.
    Those people included, as I already referred to, Bart 
Butterfield, who in 1985 and then later, along with Dan Davis 
in 1991, provided the evaluation that was the basis for the 
conclusion to the Bitterroot Technical Review Team that, in 
fact, a certain area could--was suitable for grizzly bears. I 
have a copy of that report here.
    Mrs. Chenoweth. Generally, what did you find as far as the 
science that was presented in the proposal?
    Mr. Mealey. Well, basically, the report that Davis and 
Butterfield did followed a process that Craigheads--Jay Sumner 
and John and Frank Craighead had published in the 1980's that 
used satellite imagery to identify habitat components. I had 
problems with that, as a matter of fact, simply because it was 
very general. It told you something. It was a very broad screen 
assessment tool, and it had some shortcomings.
    But for its purpose, it was probably adequate, and that was 
to make some general--help draw some general conclusions about 
the overall suitability on a very broad scale for a very large 
area. They used that methodology, and, frankly, if I had been 
given the same charge, I probably would have been forced to do 
something similar because these are not easy problems to solve.
    The area they assessed, however, was referred to as the 
grizzly bear evaluation area, and it was an area that went up 
to the Mallard Lark and essentially the divide between Kelly 
Creek and the St. Joe River--as you know, that country up 
north--and then went down to the Salmon River on the south. So 
it went--that area then was referred to as the grizzly bear 
evaluation area.
    And they concluded generally that at that level of 
assessment that the area could reasonably be assumed to be 
compatible or suitable for grizzlies and made that 
recommendation to the Bitterroot Technical Review Team. And as 
Dr. Morgenweck already said, that was the base work that sort 
of set things in motion toward where we are today.
    Mrs. Chenoweth. Have you read the proposed 10[j] rule?
    Mr. Mealey. Yes, ma'am, I have. And I don't think I 
answered your question completely because I didn't say what I 
said in my testimony, and that is that the area now referred to 
as the grizzly bear recovery area proposed in the preferred 
alternative is not the same as the area assessed by Davis and 
Butterfield, which led to my conclusion that I know of no 
document that now says that the area identified as the grizzly 
bear recovery area has actually been assessed for its 
capability to produce grizzly bears.
    An area north of the Lochsa area and Lochsa River that was 
assessed by Davis and Butterfield has been excluded from that 
recovery area, which is admittedly a pretty high quality area 
that is an area of maritime climatic influence, quite wet, and 
has substantial quality. That has been excluded from the 
recovery area, and a substantial area south of the Salmon 
River, which is actually influenced by a continental climate, 
rather dry, has been included.
    And I am not suggesting that the inferences could be made 
that it is suitable, but there is simply no report that says 
so. So I want to say, and I said this in the testimony, that 
the information that is the underpinning of the conclusion that 
the area can have bears does not apply to the recovery area.
    Now, probably someone--if you presented that to someone who 
wanted to make a statement defending the approach would say, 
``Well, the experimental area outside the recovery area could 
ac-

commodate them. It does include the area assessed by 
Butterfield and Davis.''
    But the bottom line is that it is the recovery area that 
the rule that you referred to says that ``will contain the 
recovered population,'' not the experimental area. And so--
because I read the rule. It says that all decisions for the 
Citizen Management Committee------
    Mrs. Chenoweth. Director Mealey------
    Mr. Mealey. Yes.
    Mrs. Chenoweth. [continuing] I want to clearly understand 
this.
    Mr. Mealey. Yes. I am sorry.
    Mrs. Chenoweth. There was an area described by Davis and 
Butterfield as suitable------
    Mr. Mealey. Yes.
    Mrs. Chenoweth. [continuing] for relocation of grizzly 
bears?
    Mr. Mealey. That was referred to as the grizzly bear 
evaluation area.
    Mrs. Chenoweth. And this was excluded. This is not included 
in------
    Mr. Mealey. Well, it wasn't excluded, but what I was saying 
was that the experimental--that is, the grizzly bear recovery 
area that we will see in the preferred alternative is not the 
same area as that assessed by Davis and Butterfield. They are 
different.
    Mrs. Chenoweth. Do you know why that happened?
    Mr. Mealey. No, ma'am.
    Mrs. Chenoweth. How did that happen?
    Mr. Mealey. Well, I could only speculate. I don't know the 
answer though. The implication of this is--and I only say this 
simply from a documentation standpoint. From an EIS standpoint, 
one has to say, ``Well, can the area that we are looking at 
here as a recovery area actually accommodate a population?''
    Now, Dr. Morgenweck said perhaps 200 to 250 bears as a 
recovered population. There is no document that can support any 
conclusion about a recovered population. We simply don't have 
such a report. You could only do it by inference. The report we 
have doesn't cover that area. So it would be very difficult to 
assess the effects of the alternatives. If I were doing the 
EIS, I would have a difficult time doing that because the data 
we have doesn't cover the area proposed for recovery.
    Mrs. Chenoweth. Very interesting. Thank you. The Chair 
recognizes Mr. Schaffer from Colorado.
    Mr. Schaffer. Thank you, Madam Chairman. Senator Branch, I 
was curious. You sat through the previous testimony of Dr. 
Morgenweck with the United States Fish and Wildlife Service and 
heard his comments regarding his intention to consider the 
opinions of people in Idaho and so on. I just would like to get 
your reaction to the confidence that you have at this point 
that Idaho will be fully considered in the Fish and Wildlife 
Service's actions at this point on reintroducing these bears.
    Senator Branch. Well, Madam Chairman, Congressman Schaffer, 
I sat through that with utter disbelief. With, you know, the 
little or no attention that has been paid to the State of Idaho 
or the legislature, the Governor and our people, I mean, the 
surveys they cited are real suspect in my opinion. And I just 
don't have a lot of confidence, you know, in the ability of the 
Federal agencies to consult and coordinate with our local 
governments. It seems as though------
    Mr. Schaffer. Let me interrupt if I may just because I 
would like to get some of this on the record. The Idaho 
legislature, I presume, considered public opinion when they 
voted for your resolution. Did they consider surveys and 
letters and so on before they unanimously came to the 
conclusion that reintroducing the grizzly bear in Idaho was a 
bad idea?
    Senator Branch. Madam Chairman, Congressman Schaffer, I 
guess if we thought, you know, politicians definitely know what 
is in the wind and if we thought that the surveys were running 
the other way, I am sure that there would have been some no 
votes. But according to the surveys the Federal agencies are 
talking about, I guess there will be a housecleaning in the 
Idaho State Legislature next year.
    But we received no--I received no letters from constituents 
supporting grizzly bear reintroduction, no phone calls 
protesting my vote. You know, it was a fairly cut-and-dry 
issue. The minority supported--the minority party, the 
Democratic party, really supported the resolution. And, you 
know, it is just utter disbelief the lack of responsibility of 
the agencies toward our wishes.
    Mr. Schaffer. From what appears here, every member of your 
legislature, your Governor, every member of your Idaho 
delegation is in opposition to the Fish and Wildlife Service's 
proposal here. Do you know of any elected officials in Idaho 
who support--who represent the State or in a relevant capacity, 
for our purposes, who support reintroduction of grizzly bears 
in Idaho?
    Senator Branch. I can speak for the Senate. We had no no 
votes in our voice vote on the resolution. There was a voice 
vote in the House, and I can only think of maybe one House 
member out of 70 that would support grizzly bear 
reintroduction. I know of no other official in the State of 
Idaho that supports it.
    Mr. Schaffer. Let me ask Director Mealey, you heard the 
numbers that were--the estimates that were given to the 
Committee--I can't recite them--they are on the record at this 
point, I presume--about the numbers of bear encounters--just 
the risk assessment and so on.
    Do you have anything further to add about any estimates 
that we should expect in Idaho if the Fish and Wildlife Service 
really gets to their target of 280 bears, what kinds of--how 
many encounters, the nature of them, and so on?
    Mr. Mealey. Madam Chairman, Congressman Schaffer, I can 
only speculate about that, but I want to say that that question 
has a whole lot to do about the suitability of the recovery 
area for bears. If you try to put them where they don't want to 
be, they go somewhere else.
    And I will say that an area north of the Lochsa, which was 
high quality habitat, would not be in that recovery area, which 
is where they would have to be in the end. And there is a lot 
of dry country that is included where they may not want to be. 
So if you stick them there, they might go somewhere else where 
they could get in trouble. I can only speculate about that.
    Mr. Schaffer. Are you familiar with the case of John Shuler 
in Montana? This is the person who entered the zone of imminent 
danger when he was attacked by bears.
    Mr. Mealey. Generally I know about that.
    Mr. Schaffer. According to the Department of the Interior, 
he entered the zone of imminent danger when a bear came into 
his yard. Knowing what you know about suitability of habitat 
and so on and knowing also that the Department of Interior now 
says that when you get near a bear that you are endangering it 
or harassing it or provoking these bears, do you think it is a 
good idea to have 280 more bears in northern Idaho that would 
meet the definition of being provoked according to--this is the 
Department of Interior's definition of being provoked? Can that 
be healthy to bears, do you think?
    Mr. Mealey. Madam Chairman, Congressman Schaffer, again, 
the one thing you can say for certain is that the risk to 
humans is greater with bears than without them. That said, 
there are ways--and I agree with earlier testimony--there are 
ways to minimize bear-human conflicts.
    One of the things I am proud of in my years over in Wyoming 
is that we were able to do that, and there is a high bear 
density there. So education can certainly be effective, and you 
can have people and bears in the same place at the same time, 
but there is elevated risk. There is no question about it.
    Mr. Schaffer. Madam Chairman, I would just point out again, 
given the Department of the Interior's new definition of what 
constitutes provoking bears, that anybody who is concerned 
about the well being of bears needs to understand that we are 
inviting a whole lot of provoking going on up in Idaho or 
anywhere else humans and bears encounter one another.
    Mrs. Chenoweth. Mr. Schaffer, how does that definition 
read?
    Mr. Schaffer. Well, I can just tell you that generally what 
occurred in the case--this is John Shuler who is actually from 
Mr. Hill's district over in Montana--had a grizzly bear in his 
yard or on his property. He was fined $500 for killing the 
bear.
    He went out in his own yard when he heard the noise and 
confronted the bear. He believed his life was in danger. He 
shot it and the Department of the Interior ruled that he cannot 
claim self-defense because he was at fault for placing himself 
in the zone of imminent danger in his yard. And he appealed 
that.
    The Administrative Law Judge who presided over that--where 
is the word--says that--criminal laws permits the property 
owner to enter any part of his or her property with a weapon 
even if the intruder is present--oh, that Shuler should have 
known that grizzly bears were in his yard.
    He should not have gone there. By doing so, he provoked the 
bear. And the Interior Secretary's Appeals Board said that--oh, 
since he was not afraid of being killed by the bear, that 
somehow had some kind of involvement in determining the outcome 
of this.
    But, essentially, here is a man attacked by a bear, shot 
it, and is now fined by our government for provoking bears 
because he was in the zone of imminent danger; and my point 
merely being that with the numbers of encounters that the 
Department of the Interior suggests on one hand and then 
redefining what it means to provoke bears on the other, that it 
is not just humans that will be put in some kind of jeopardy, 
it is, in fact, bears that will endure some kind of hardship by 
being provoked continuously.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. The Chair 
recognizes Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman. Mr. Strickler, I have 
to tell you I have great admiration for county commissioners. 
You have I think the toughest job in the world, but there isn't 
anybody I don't think that is more in tune with the opinion of 
the people than county commissioners.
    You live there every day. You deal with the issues that 
impact their lives every day, and I admire your work. You are 
here representing all 44 counties I think you said. So there is 
unanimity in Idaho with regard to the county commissioners with 
regard to the issue of reintroduction of grizzly bears. Is that 
correct?
    Mr. Strickler. That is correct.
    Mr. Hill. And I am curious. In the process of developing 
the draft environmental impact statement, as well as the 
collaborative effort that was done by the groups, were you at 
anytime ever invited to participate in that collaborative 
process?
    Mr. Strickler. They did have some hearings in some areas 
away from us, and they were not necessarily the type of--it was 
kind of like a hearing--do you want the grizzly bear type of 
thing. But the county commissioners--the relationship between 
the Marine Fisheries particularly and Fish and Wildlife has 
been very nil. When we asked them to come to our meeting so we 
can have a face-to-face discussion about our concerns, they 
don't come.
    Mr. Hill. So in other words, you invited them to come to 
your meetings, and they declined to come. This is the Fish and 
Wildlife Service that you are talking about?
    Mr. Strickler. We have asked the Fish and Wildlife Service 
to be there.
    Mr. Hill. And you brought a petition of 1,350 signatures, 
did you say?
    Mr. Strickler. Yes, I do.
    Mr. Hill. And that is from Custer County?
    Mr. Strickler. Custer County.
    Mr. Hill. And how many people live in Custer County?
    Mr. Strickler. 4,500.
    Mr. Hill. So this is close to a third of the people of 
Custer County took the time to sign a petition to bring here to 
the Congress to express their opinion about grizzly 
reintroduction?
    Mr. Strickler. That is correct. It was done in a short 
time. There is a number of people in our county that is 
government employed. We have a pretty high population of 
government employment. Most of those refused to sign the 
petition for fear------
    Mr. Hill. Of reprisal?
    Mr. Strickler. Of reprisal.
    Mr. Hill. In the development of the environmental impact 
statement, are you aware of--was there any analysis done on the 
economic impacts of Custer County? Are you aware of any?
    Mr. Strickler. We have a model economic study that was done 
by the University of Idaho for us. And as far as I know, that 
has never been used by them. It is a very good study.
    Mr. Hill. Thank you very much. Mr. Mealey, in your view, 
will there be any--if grizzly bears are reintroduced, do you 
believe--well, let me back up by saying this. First of all, we 
don't manage species anymore, we manage habitat now. And do you 
see changes in the management of the habitat outside the 
wilderness areas if grizzly bears are reintroduced?
    Mr. Mealey. Madam Chairman, Congressman Hill, that is not 
clear to me, but again I can only answer these things by 
inference. As I understand it--and I don't say these things 
with any criticism implied--I am kind of a Johnny-come-lately 
to this EIS so a lot of it is new to me--but as I understand 
it, there is a 15.3 million acre experimental population area 
that encompasses an area from Coeur d'Alene to Stanley, from 
Grangeville to Hamilton. That is a big chunk of the world where 
a bear------
    Mr. Hill. And this isn't all wilderness?
    Mr. Mealey. No, not at all.
    Mrs. Chenoweth. Excuse me, Mr. Hill. I wonder, Director 
Mealey, if you might be able to show us on the map the area 
that it encompasses.
    Mr. Hill. Thank you, Madam Chair.
    Mr. Mealey. I will take a shot at this--kind of interpolate 
it one after another, but the area referred to as the 
experimental population area that I referred to as being about 
15.3 million acres would go roughly from Stanley--and I am 
circling it here--it would be about this point on down, up to 
Coeur d'Alene and from this far over here.
    That whole area would be an experimental population area. 
Now, inside that is the recovery area--is the area that would 
be referred to as the grizzly bear recovery area, and that is 
limited only to the Selway-Bitterroot and the Frank Church 
River of No Return Wilderness.
    Again, I am interpolating here because these wildernesses 
are not marked, but basically my left hand marks the Lochsa 
River on the north, which is the northern boundary, down to the 
Selway-Bitterroot down to the bottom of the top of Bear Valley, 
which is essentially the bottom end of the Frank Church River 
of No Return. So this area of about 3.7 million acres would be 
the recovery area. Now, that is an area where the population 
would actually be contained.
    Now, your question was, if I understood it, would there be 
improvements in habitat in any part of the area. I assume there 
would be no improvements in habitat in the experimental area 
outside the recovery zone. And since the recovery zone is 
wilderness, there wouldn't be any improvements there either.
    Mr. Hill. So there would be no changes. In other words, if 
the bears are reintroduced, it is your opinion at this point 
they would not have to change the management of the habitat? In 
other words, you wouldn't have to have changes in any forest 
management plan. We wouldn't have any changes in timber 
harvest. We would have no changes in road access. Your view is 
there would have to be no changes in the management of the 
experimental area outside the recovery area. Is that correct or 
not?
    Mr. Mealey. Well, again, this is only speculation, 
Congressman. I can't think of a reason why--since you wouldn't 
be encouraging bears in that experimental area, I can't 
understand why you would do that.
    Mr. Hill. But that experimental area would be range for the 
bears. Is that correct?
    Mr. Mealey. Well, I think, as I understand it, this is a 
place where bears would be accommodated but not necessarily 
encouraged. Now, it is not clear to me though when you look at 
the proposed rule, if the Citizen Management Committee made 
some decisions that related to bears in that experimental area 
and that was litigated somehow, it is hard to say how that 
might come out.
    I do know that in Item 14 in Section 10[j] it does allow 
the Secretary to override the Citizen Management Committee or 
somehow review their work if it doesn't appear to be consistent 
with recovery, and this is complex stuff. I would assume, 
however, the recovery goal for the population would be that as 
it states in the rule, consistent with the capacity of the 
recovery area, not the experimental area. And that is the area 
I said that we don't necessarily have clear studies on.
    Mr. Hill. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. Returning to Mr. 
Hill's question about would there be a change in management in 
the areas that have traditionally been multiple-use areas, 
taking in mind the fact that when the salmon was listed, there 
has been a marked change in management with regards to 
potential impact on salmon habitat in the streams which have 
impacted activities on the land; taking that as a blueprint, 
would you feel it might be more likely that in managing the 
habitat for the bear that we could see a similar imposition of 
rules and regulations on multiple-use activities?
    Mr. Mealey. Madam Chairman, all I can do is extrapolate my 
experience from the Shoshone Forest in Wyoming to what might 
occur, and much of that country where we had grizzlies was 
wilderness. And much of the impact on people who use that 
country, frankly, were recreation users, outfitters and guides, 
in particular.
    And the thing that was affecting bears there were killing 
females with cubs. And what we did there in the wilderness was 
make it easier for outfitters to operate and secure things that 
attracted bears from their availability.
    Now, there is no question but what the activities of people 
who use that wilderness country have been modified. There are 
requirements to hang meat differently. There are requirements 
to sanitize camp. So there is no question that in wilderness 
there are measures that are required to minimize conflicts.
    I suspect that in this part of the world that people that 
conduct floating businesses on the Selway could be affected. 
Outfitters in the fall could be affected. And I would also 
guess that it would modify their operations from what they are 
currently doing. Outside of wilderness, theoretically, if that 
is not an area where we are encouraging populations but 
accommodating them, I can't see why we would be necessarily 
improving populations outside.
    Now, there may be some disagreement with folks that would 
want to litigate that question, and that raises the question 
about whether or not the Citizen Management Committee, in fact, 
would be able to operate independently of the Secretary. That 
is not clear to me. Section 10[j] would say, however, that the 
Secretary retains at least oversight and review of their 
decisions.
    Mrs. Chenoweth. Mr. Mealey, under number 11 of the 10[j] 
rule it states that there is not sufficient information 
available to develop a scientifically sound recovery goal. How 
important is it to have a recovery goal? I know questions were 
asked of the Service trying to establish what the goal was.
    Mr. Mealey. Yes. Madam Chairman, it is terribly important. 
I think that everyone in this wildlife business knows that 
wildlife management is about how many do you want and where do 
you want them. And if you don't know how many--if you haven't 
decided how many you want, then any number is OK.
    So as I read the rule that describes the role of the 
Citizen Management Committee, it says that all decisions must 
lead toward recovery. It must meet the goal, in other words. 
And, obviously, if you don't have a goal, then you never know 
whether the Citizens Management Committee is leading toward 
recovery.
    So the first thing to do, of course, is to decide on a 
goal--some number or some trend in habitat that is a substitute 
for it. That was one of the first things we did in Yellowstone 
was agree on some parameters. It wasn't necessarily a number, 
but it was some characteristics that would help us.
    I think the study is correct. It would be very difficult to 
do that. I have already said twice now it is even harder I 
think than the rule admits simply because we don't have a study 
yet to show the real capability--suitability of the country 
actually described within the wilderness boundary. The study we 
have included other areas as I have shown.
    So the first thing, of course, is to have a good, solid 
piece of information that tells us what the real suitability is 
within the area described by the wilderness boundaries for the 
Selway-Bitterroot and the Frank Church River of No Return 
independent of the experimental population area because by 
definition that is not necessary for recovery. It is sufficient 
but not necessary. So that is the first thing.
    And once that is done, then you can draw some conclusions 
about how many animals you could accommodate. It might be 50. 
It might be 150. It might be 300. My sense it would be on the 
low end, frankly--just my own judgment.
    Once that is done then, then you can start--then and only 
then would it be appropriate for the Citizen Management 
Committee to begin to operate because then you would know 
whether or not what they were doing was consistent with the 
goal.
    For them to operate before you have a goal wouldn't be 
useful because you would never know if they were doing anything 
consistent with recovery. So there are some logic problems in 
this. But you asked me a question how important is the goal? 
You can't start without it.
    Mrs. Chenoweth. Thank you, Mr. Mealey. I just have one more 
question. Senator Branch, what is your main concern over the 
reintroduction of the bear into Idaho as a Senator?
    Senator Branch. Madam Chairman, you know, we have already 
had the wolf recovery taking place contrary to our citizens' 
wishes. The best way I can--the best analogy I can think of 
is--and there is a Country Western song--the title is ``What 
Part of No Don't You Understand?'' It is about someone going 
to--a woman going to a dance and a suitor keeping asking for a 
dance, and finally she says, ``What part of no don't you 
understand?''
    I guess that is what the State legislature is saying to the 
Federal Government. We don't wish to dance with the Federal 
agencies on this one. We are going to create a lot more de 
facto wilderness in areas, and we are going to tie up large 
tracts of land which are going to create economic hardships in 
areas of our State.
    It is just--we have already got enough predators. We have 
coyotes. We have wolves, black bear, and we just don't need 
another predator--cougar. Some of the depredation payments in 
our State right now our Fish and Game director can't afford to 
make those. We can't afford with our State budget--we just 
cannot afford any more programs like this dumped on us by the 
Fish and Wildlife Service or the Forest Service. So it is just 
a matter of losing our rights to use the land.
    The land being locked up is my greatest concern and the 
cooperation of the Federal agencies. I serve on a Resource 
Advisory Council under the Secretary of the Interior, and we 
work on consensus. We don't ever come to a consensus. We always 
come down to a vote up or down by the various interest groups. 
And if that vote is against the wishes of the Secretary of the 
Interior, he brings it back to us and tells us what we have to 
change.
    So I am afraid the Citizen Management Committee is just a 
smoke screen. It is kind of a rubber stamp, if you will, to 
shield some criticism off the Federal agencies, and I don't 
think it is workable and it just leaves all the power in the 
control of the Secretary of Interior. So that is my major 
concern, Madam Chairman.
    Mrs. Chenoweth. Thank you, Senator. Mr. Hill, do you have 
any further questions?
    Mr. Hill. I just have one. I want to go back to Mr. Mealey 
again on this because in the Flathead Forest, which is about 
half wilderness--28 percent I think is roadless and 22 percent 
is multiple use--I guess 10 years or so ago they set a targeted 
bear population for recovery. And current estimates are that we 
have met that number. But if you ask the Fish and Wildlife 
Service, ``Have we recovered the bear population?'' they will 
say, ``Well, no, because we haven't recovered their habitat.''
    And so now we are faced with changes in the management of 
the remainder of that forest outside of wilderness with road 
closures, restrictions on access, restrictions on use to create 
more habitat even though everybody would suggest we have met 
recovery of the bear. I haven't quite figure out yet how it is 
that we recovered the bears without their habitat, but I guess 
that is what we did. And I have a real concern about 280 bears 
being contained within that wilderness area.
    I guess what my concern is is do you see any risk here that 
if we get to that area that the--the area where we have to 
manage habitat is more than that wilderness area causing 
substantial changes in terms of how we manage both the public 
and private lands outside that area? Have you looked at that, 
or do you have any assessment or any concerns about that?
    Mr. Mealey. Madam Chairman, Congressman Hill, I hope I did 
express my concerns about that. I think that is a key question. 
The rulemakes a clear statement that the recovery goal would be 
limited to the capacity of the area described by the Frank 
Church River of No Return and the Selway-Bitterroot Wilderness.
    Now, we don't know what this is yet. To say that that is 
280 as far as I am concerned is--would not be appropriate. We 
simply don't have any studies of that specific area to say what 
population could be sustained by that area. So to say that at 
this point wouldn't be appropriate.
    Frankly, in this whole business of determining what is a 
recovered or a viable population for grizzly bears, that has 
been something of biological and legal debate now for the 
better part of 25 years. Something more than 150 actual census 
population seems to be on the threshold of recovery.
    But I will say simply, and I will repeat it again, we have 
no document that tells us what the capacity of the Frank Church 
River of No Return and the Selway-Bitterroot is to support a 
population. And until we have that, until we can have a 
thoughtful estimate of what that population is, we can't 
conclude that the area, in fact, could have a recovered 
population.
    And, frankly, I won't speculate here, but I will say that 
if bear habitat is limited to its drier components--and there 
are some very important components of all grizzly habitat--one 
is that it has meats in a spring period and fat in the fall. 
Fat usually comes from whitebark pine. There were probably 
bears in this country because of salmon in the streams earlier 
on, and whether or not elk and deer can provide that in the 
spring is arguable.
    My point is these are not easy questions, and the study 
that we have does not relate to that specific area we now have 
in a preferred alternative. That needs to be done. Then you can 
answer the question you asked or at least do it with an 
estimate to determine what population it might be. And I 
already said it would probably be on the lower range. I do not 
believe personally--this is only my opinion--it is only my 
professional judgment--it would be something substantially less 
than 250 bears. But we really need to do some hard work on 
that.
    Mr. Hill. Thank you very much, Mr. Mealey. I will yield 
back the balance of my time, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. Gentlemen, I want to 
thank you very much for coming so far. And, Senator Branch, I 
thought it was interesting that you noted the song about what 
part of no don't you understand when a man approached or a 
young man approached a girl about dancing. Can you imagine 
after she said no what would happen to him if he drug her on 
the dance floor and insisted on dancing with her anyway? Can 
you just imagine?
    I thank you very, very much for your valuable testimony. We 
will be submitting other questions to each of you in writing 
and would appreciate your response between 10 days and 2 weeks 
if you don't mind. Thank you very much.
    This panel is dismissed, and the Chair now calls Shirley 
Bugli with the Concerned About Grizzlies organization from 
Stevensville, Montana; Rita Carlson from the BlueRibbon 
Coalition in Lewiston, Idaho; Kathleen Benedetto, Communities 
for a Great Northwest in Billings, Montana. Ladies, if you will 
take your place at the witness table? As with the preceding 
panel, if you will all rise and raise your right hand?
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you. And I recognize Kathleen 
Benedetto for your testimony. Kathleen?

   STATEMENT OF KATHLEEN BENEDETTO, COMMUNITIES FOR A GREAT 
                  NORTHWEST, BILLINGS, MONTANA

    Ms. Benedetto. Thank you, Madam Chairman. Chairman 
Chenoweth, members of the Committee on Resources, thank you for 
the opportunity to present the views of Communities for a Great 
Northwest on the issue of grizzly bear reintroduction in the 
Selway-Bitterroot Wilderness Area. Communities for a Great 
Northwest is a nonprofit group dedicated to educating its 
members and the public about the difficult choices we face in 
trying to provide for humankind while protecting the 
environment.
    Today, I am speaking on behalf of Bruce Vincent, President 
of Communities for a Great Northwest. Bruce would like to thank 
Chairman Chenoweth for the opportunity to tell his story today 
and extends his apologies for not being here in person.
    My name is Kathy Benedetto, and I am a minerals exploration 
geologist with 17 years of field experience in the western U.S. 
I have worked closely with Bruce during the past 4 years on 
many environmental issues. I also serve on the Executive 
Committee of the Grassroots ESA Coalition.
    Bruce Vincent lives in Libby, Montana, a small timber and 
mining town in the Kootenai National Forest. His home is one-
quarter mile outside the Cabinet-Yaak grizzly recovery area in 
a zone identified by the U.S. Fish and Wildlife Service as a 
human-grizzly conflict zone.
    In 1988 at the request of the community and Congress, the 
U.S. Fish and Wildlife Service developed the first of its kind 
community involvement team for the reintroduction of grizzly 
bears. Bruce is a 9-year member of this team. As a result of 
Bruce's experience and the experience of other members of the 
organization, Communities for a Great Northwest requests the 
following occur prior to making a final decision on 
reintroduction of this experimental population.
    Number 1, the legality of the local control concept should 
be tested before, not after, the reintroduction debate. In our 
experience, the local community has some limited advisory 
abilities but no real authority and absolutely no control of 
their recovery program.
    Second, we request that a socioeconomic evaluation be 
completed on the impact of the proposed action. The study 
should be completed by a third party that is approved by 
representatives from the local communities that will be 
impacted by this decision.
    Third, that an accumulative effects analysis be completed. 
Resource providers are constantly reminded that no action is 
independent of other actions when they propose development of 
commercial projects both on public and private land.
    We believe this proposal does constitute a significant 
action especially when we look at other issues impacting the 
Northwest such as the Upper Columbia River Basin EIS, proposed 
listing of salm-

on, the listing of the bull trout, forest health issues, road 
closures, and litigation over development projects.
    There are two documents--the grizzly bear compendium and 
the grizzly bear recovery plan that state the single most 
important factor in the recovery of the grizzly bear is human 
acceptance of the plan and the bear. In the 900 page grizzly 
bear compendium, three-quarters of a page is devoted to the 
single most important factor, and in the grizzly bear recovery 
plan, less than a dozen pages are devoted to the single most 
important factor in the grizzly bear recovery. This is 
ludicrous.
    The socioeconomic studies and a cumulative effect analysis 
are necessary to evaluate the viability of this project as it 
relates to the single most important factor in the grizzly bear 
recovery, and that is the human element. If studies of 
potential impact are not completed and the public is not 
straightforwardly appraised of the findings, the casualties of 
this mistake include trust between supposed partners and 
ultimately the grizzly bear. This has happened in the Kootenai.
    In 1991, our community involvement team sent every resident 
of our county a booklet updating them on the grizzly bear 
project. That booklet flatly stated that the recovery of 
grizzly bears would not have an adverse impact on timber 
management in the Kootenai.
    Six weeks later, a U.S. Forest Service monitoring report 
was released that claimed timber harvests had declined 
substantially and was continuing to decline due in large part 
to the changing requirements for grizzly recovery. The Forest 
Service continues to claim substantial impact. The U.S. Fish 
and Wildlife Service continues to claim that there is no 
impact.
    When our involvement team requested an economic analysis to 
prove or disprove impacts, the team was told that there was not 
enough money or personnel to complete the study. This brings us 
to our fourth request. Resources set aside for this 
experimental population be redirected and used to complete 
socioeconomic impact census studies, et cetera, in areas with 
existing bear populations such as the Cabinet-Yaak grizzly 
recovery area.
    Number 5, we would like a guarantee people will be 
protected in encounters with grizzly bears and not subject to 
the humiliation suffered by John Shuler who was subject to--
that he was subject to. He was fined $5,000 for killing a 
grizzly bear in his yard that had attacked his sheep and 
threatened his life.
    In conclusion, while Communities for a Great Northwest 
appreciate efforts to find local solutions to issues such as 
grizzly bear protection and recoveries, those affected by the 
solutions have a right to know the legality of the promises 
made, the potential impacts of the solution on their lives and 
livelihoods, and the track record of the agency with whom they 
are partnering. Thank you.
    [Statement of Ms. Benedetto may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Ms. Benedetto. The Chair 
recognizes Rita Carlson. Rita?

  STATEMENT OF RITA CARLSON, BLUERIBBON COALITION, LEWISTON, 
                             IDAHO

    Ms. Carlson. Chairman Chenoweth and members of the 
Committee on Resources, thank you for the opportunity to 
present the views of the BlueRibbon Coalition on the issues of 
the grizzly bear recovery. Mr. Clark Collins sends his regrets 
for not being here in person, but as a member of his 
organization, the BlueRibbon Coalition, it is my honor and 
privilege to read his statement as part of this hearing on 
behalf of the recreationists.
    The BlueRibbon Coalition is a national organization 
representing over 500 member organizations and businesses. 
Through these organizations and our individual membership, they 
represent the interests of over 750,000 back country 
recreationists.
    While our primary constituency is motorized trail users, we 
have many nonmotorized recreation members who realize the value 
of working together on shared use trail management. We also 
work very closely with our resource industries and other 
multiple-use interests as evidenced by this presentation today 
of BlueRibbon Coalition's testimony by a timber interest person 
such as myself.
    In the name of resource protection, many recreation user 
groups are being systematically excluded from traditional use 
areas. Green Advocacy Groups and preservation orientated land 
managers are discriminating against first one user group and 
then the next.
    One by one, each interest group is considered guilty unless 
proven innocent and then locked out of one area after another. 
Through administrative regulations and biased interpretation of 
environmental protection laws, responsible recreational users 
are being denied access to historically used areas.
    The tool of choice in these attacks on back country 
recreationists is often the Endangered Species Act. Our 
recreationists have seen their access eliminated or threatened 
in the name of protecting wolves, salmon, desert tortoises, 
bugs and most certainly grizzly bears.
    There has not been one single recorded incident between a 
grizzly bear and a motorized trail user that has resulted in 
the death of a bear. Numerous incidents between hikers and 
photographers have resulted in death or injury to humans 
involved and led to the destruction of the offending bear.
    And I repeat, there has not been one single recorded 
incident between a motorized back country trail user and a 
grizzly bear that has resulted in the death of the bear. Yet, 
Federal agency land management plans abound with proposed 
motorized access restrictions for the purpose of protecting the 
bear. Is something wrong with this picture?
    The truth is that the extreme antirecreation organizations 
are using innocent animals in their quest for exclusive use of 
our back country recreational areas. And it has become obvious 
by their actions that they will settle for nothing less than a 
total elimination of first one recreation user group and then 
another. Back country horsemen, mountain bikers, and even some 
hikers are realizing that their access too is threatened.
    Reintroduction of the grizzly bear is of concern to 
recreationists nationwide. Even hikers have expressed their 
opposition to grizzly reintroduction in Washington State. One 
of our member organiza-

tions, the Washington Back Country Horsemen, has expressed its 
adamant opposition to grizzly reintroduction in areas they use.
    The fact is that while motorized recreationists are often 
excluded from grizzly recovery areas, it is the nonmotorized 
recreationists who are most at risk and consequently pose the 
most risk for the bear.
    In our home State, Idaho, grizzly reintroduction is 
opposed, not only by back country recreationists, but by our 
Governor in a January 29, 1997, letter to Secretary Babbitt, by 
our wildlife management agency through a position statement 
approved by the Idaho Fish and Game Commission in May of this 
year and through a 1997 joint memorial of the Idaho legislature 
adopted by nearly unanimous consent.
    I contacted Golden Linford of Rexburg, Idaho, Chairman of 
the Idaho House of Representatives Committee on Resources and 
Conservation, for his personal perspective on this issue. 
Representative Linford said, ``Sure, some folks fear the 
grizzly, but what we fear most are the Federal bureaucrats.''
    Representative Linford's statement, ``What we fear most are 
the Federal bureaucrats,'' says a lot about what is happening 
on these wildlife issues. Resource users, State and local 
government officials, and recreationists care about our 
wildlife. We enjoy viewing them on our recreational outings 
into the back country, and we are willing to help protect them 
as we harvest our natural resources.
    We are appalled by the unprincipled use of animals, 
helpless or ferocious, endangered or not, as mere tools in a 
power play by greedy extremists to control our public lands. 
The hatemongering and the contrived user conflicts of these 
Green Advocacy Groups must not be rewarded.
    Secretary Babbitt, the Sierra Club, and Earthfirst do not 
represent the environmental conscious of this country. We 
shouldn't call the Green Advocacy Groups environmentalists and 
passively allow them to refer to us as antienvironmentalists. 
Neither should the League of Conservation Voters Index be the 
litmus test for congressional environmental responsibility.
    Just who are the real environmentalists? Just who really 
cares for our wildlife? Pushing to eliminate everyone's impact 
on the environment but your own doesn't make you an 
environmentalist. The Green Advocacy Groups and their allies in 
Congress and our land management agencies are no longer for the 
environment. They are just against everyone else's use of it.
    Chairman Chenoweth and members of this Committee, 
recreationists shouldn't be discriminated against by our land 
management agencies and treated like criminals. The cooperation 
and volunteerism of our members should be recognized and 
rewarded.
    On issues of environmental protection, we should be 
innocent unless proven guilty instead of the other way around. 
We can use our natural resources wisely, share our back country 
recreation areas with one another and wildlife, and preserve 
our natural resources for the public instead of against the 
public. Thank you.
    [Statement of Mr. Collins may be found at end of hearing.]
    Mrs. Chenoweth. Thank you very much, Ms. Carlson. And now 
we would like to hear from Shirley Bugli, and you are with a 
citizens group entitled, ``Concerned About Grizzlies''?
    Ms. Bugli. That is right.
    Mrs. Chenoweth. Please proceed.

    STATEMENT OF SHIRLEY BUGLI, CONCERNED ABOUT GRIZZLIES, 
                     STEVENSVILLE, MONTANA

    Ms. Bugli. All right. Madam Chairman and members of the 
Committee on Forests and Forest Health, thank you for the 
opportunity to appear before you today. My name is Shirley 
Bugli. I am a lifelong, third generation resident of the 
Bitterroot Valley in western Montana.
    In appearing here today, I represent the citizens group, 
``Concerned About Grizzlies,'' which is supported by 19 member 
organizations. I also represent the Montana Chapter of Women 
Involved in Farm Economics, WIFE, and Grassroots for Multiple 
Use, a citizens organization where I serve on the Board of 
Directors.
    The grizzly bear is a valued native of Montana and is the 
official animal of the State of Montana. The grizzly has 
existed in the State throughout recorded history. With the 
establishment of livestock ranches and communities in Montana, 
the effective range of the grizzly bear was generally 
restricted to the ranges of the Northern Rocky Mountains 
contiguous to the Continental Divide.
    This situation worked well for both the bear and human 
settlers. Occasional predations by the grizzly bear on domestic 
livestock were quickly controlled and a carefully regulated 
hunting season kept bear numbers at a level that maintained a 
viable breeding population of bears without overly encroaching 
on their human neighbors. The grizzly bear reintroduction 
program appears to be aimed at curing problems that do not 
actually exist.
    Concerned About Grizzlies supporters have two overriding 
things in common. We live, work, recreate among, and depend 
heavily upon the natural resources within and surrounding our 
Bitterroot Valley, and we are all strongly opposed to the 
introduction of grizzly bears in the Selway-Bitterroot and the 
Frank Church River of No Return Wildernesses.
    To date, over 5,000 people in Ravalli County have signed 
petitions and 28 groups have signed on as opposing the proposal 
to introduce grizzlies into the Bitterroot Mountains. A 
telephone survey designed by Dr. Raymond Karr, Ph.D. Forest-
Sociology, was done on September 9, 1995, in which 388 calls 
were completed in Ravalli County.
    One question was asked, ``Do you favor the placing of 
grizzly bear in the Selway-Bitterroot Range? Yes, no, or 
undecided.'' An overwhelming majority of 59 percent opposed the 
introduction of grizzly bear. The ratio of pro and con surveyed 
was three-to-one against the proposal.
    Since the last census in 1990, the rate of population 
growth in Ravalli County is 30.4 percent. Many homes are 
appearing in the forested lands along the fringes of the 
national forest. Some are no farther than three or four miles 
from the eastern boundary of the Selway-Bitterroot Wilderness.
    Some of these new places are home to a few horses or 
cattle. Others are content with a family dog or cat. These 
animals or pets so close to the wilderness represent an 
attractive bait for a hungry grizzly.
    Dr. Stephen Arno, wildfire research scientist, has noted 
the marked decline of whitebark pine that used to be common in 
the higher elevations of the Selway-Bitterroot. Dr. Arno's 
research has shown that there is just one significant band of 
whitebark pine remaining and that is located in the higher 
elevations along the Bitterroot front overlooking the valley.
    Seeds from whitebark pine cones are a preferred food for 
bears. Once this stand of whitebark pine is discovered by 
introduced grizzlies, they are almost certain to return to that 
stand year after year to feed. Denning on adjacent lower slopes 
will likely result in hungry grizzlies descending to the 
populated Bitterroot Valley in the spring when they emerge from 
their winter hibernation.
    Taking into account the sharply increased population of the 
Bitterroot Valley and the expected patterns of grizzly 
behavior, the conclusion is unescapable. More people and bears 
are going to be forced together. Bear encounters can have a 
variety of outcomes, but eventually a human is maimed or killed 
and a bear dies.
    Bear predation on livestock will certainly increase bear-
human encounters. These encounters seldom have happy endings. 
The role of the Federal Government in deliberately creating 
this situation is highly questionable.
    The Selway-Bitterroot Wilderness is well used during the 
summer and fall seasons. In the late spring and early summer, 
the Selway River is a popular float trip from Paradise to 
Selway Falls. The numbers of people using the river are 
carefully limited by the Forest Service to one party of no more 
than 16 persons per day. However, during the recreation season, 
the river corridor is steadily used by hikers, trail riders, 
and hunters as well as rafters.
    The many different people that have become part of our 
group have a wide variety of concerns about the grizzly. One of 
those concerns is fear. The degree of risk is immaterial. The 
fact is that some people are simply terrified of grizzly bears 
and will not risk even the remotest chance of an encounter. 
Introduction of grizzly bears into the Selway-Bitterroot will 
have the effect of closing another area to those people.
    As citizens, we are concerned about the cost of the grizzly 
bear reintroduction program. In 1993, the U.S. Fish and 
Wildlife Service projected an estimated cost of the grizzly 
bear recovery program at $26 million. In these days of budget 
reductions and belt tightening, it seems frivolous to spend 
scarce Federal dollars on a totally unnecessary activity.
    In closing, I would assure you that we are not antigrizzly 
bear. We hold a deep love and respect for the land and its 
inhabitants. We are ranchers, farmers, guides, foresters, 
horsemen and women, anglers, campers, and forest users. We 
believe that we have had a part in assuring that our land has 
remained beautiful and fruitful.
    We are also confident that the grizzly bear will do just 
fine if we just let them alone and make sure the grizzly bear 
population doesn't get out of hand as it is threatening to do 
around Yellowstone.
    Thank you and I do have some maps of the wilderness that is 
marked off, and you can see how very, very closely it comes to 
our valley floor, and a petition of 3,500 signers here from the 
Bitterroot Valley. There is another petition I didn't bring 
with me. Thank you very much.
    [Statement of Ms. Bugli may be found at end of hearing.]
    Mrs. Chenoweth. Without objection, we will enter it into 
the record.
    [Map and petition may be found at end of hearing.]
    Mrs. Chenoweth. The Chair recognizes Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman. Kathleen, you are a 
strong supporter, aren't you, of collaborative process to try 
to deal with the conflicts in natural resource management?
    Ms. Benedetto. Yes, I am. I think that it is a real 
opportunity for people with differing perspectives to come 
together and to understand one another and work out solutions 
that are beneficial to those local areas. What happens often in 
this collaborative process is the local people can come 
together and craft a solution.
    But it is difficult to get that solution implemented 
because people outside of the local area, say, national 
environmental organizations, may not support the solution that 
local environmental organizations have entered into and often 
will file injunctions or lawsuits to prevent the solution from 
going forward.
    And I also believe sometimes that it is--if people do not 
share the same principles for how to protect the environment, 
it often is difficult to come to a consensus where people 
really understand what they have discussed.
    Mr. Hill. Sometimes you don't reach agreement. I mean------
    Ms. Benedetto. Yes. Sometimes you don't reach agreement.
    Mr. Hill. In this instance, there is some collaborative 
effort went forward. I have some concerns about whether that 
was a broad based collaborative effort. You know, could you 
comment on that? Would you agree with my concern or not or----
--
    Ms. Benedetto. Are you speaking about the group in Libby?
    Mr. Hill. Yes. No. I am talking about here on the 
reintroduction of grizzlies in the Selway-Bitterroot.
    Ms. Benedetto. I can't address specifically what that 
particular group has come up with and who was involved in that 
group. I am not familiar with all of the players in that group. 
I think Rita may be able to answer part of that a little bit 
better than I can.
    Ms. Carlson. I am not sure what group he is talking about.
    Mr. Hill. I will come back to that because you have made 
some specific recommendations or some general recommendations 
here. One of the concerns that you have is that a citizens 
group could be created. The local community could be enticed 
into supporting this effort because the citizens group is 
created, and then either by virtue of a change in mind of the 
Secretary or by virtue of a challenge to their authority by an 
outside group, they could end up with no authority, and then we 
would end up with a top-down management of this reintroduction. 
I mean, is that a summary kind of what you------
    Ms. Benedetto. Yes. That is exactly right, and I think you 
can look at other issues in other parts of the country and see 
where that has clearly been the case. And I think the Quincy 
Library Group is probably one of the most famous instances 
where that occurred.
    And this was a group of--and it was initiated by the local 
environmentalists in town who recognized that the policies that 
they were implementing and pushing forward were not working and 
was having a very severe, adverse impact on the community of 
Quincy.
    So the resource providers and the local environmental 
groups came together, worked out a solution, and were 
unsuccessful at getting it accepted because the national 
environmental organizations filed injunctions or were strongly 
opposed to it. They have taken their proposal to the State 
legislature, and it has now been introduced into Congress. And, 
unfortunately, I don't remember the number of the bill.
    Mr. Hill. Following on on that, where should we go from 
here? What should Congress do in your mind about this issue, 
the reintroduction of grizzly bears in the Selway-Bitterroot 
Wilderness Areas? What do you think we ought to do now? What 
should our next step be? What should the Forest Service's next 
step be? What should the Fish and Wildlife Service's next step 
be in your opinion?
    Ms. Benedetto. In my opinion, what I think would be most 
appropriate is to take the resources that they are trying to 
spend on this process and let us finish the studies that were 
initiated in other areas where they have recovery programs 
going on.
    And I think if we can finish those studies, we would have 
some information and data that would either help support what 
they want to do in the Selway-Bitterroot proposed recovery 
area, and they would have the information so that they could 
make a better decision.
    I know that in the Bob Marshall Wilderness Area there are 
outfitters up there who would like to have a real census on--a 
thorough census on how many bears are actually up there. What 
is the population? So I think before we go and start all kinds 
of new projects, we ought to finish the projects that we have 
already initiated.
    And, again, before going forward with this plan, I think 
you need to do the socioeconomic studies and the cumulative 
effect studies. And then you will have a more complete body of 
data to make an appropriate decision on.
    Mr. Hill. We don't have a socioeconomic study done on this?
    Ms. Benedetto. No. And from what I understand, we do not 
have a socioeconomic study done on the Cabinet-Yaak grizzly 
reintroduction area.
    Mr. Hill. If I might follow on with this, just this line at 
this point is that--I mean, your experience is substantially 
driven by the experience you have had up there in the Kootenai 
Forest------
    Ms. Benedetto. That is correct.
    Mr. Hill. [continuing] where early on the suggestions of 
the community is that one set of circumstances would govern and 
then what ended up happening is that the game changed, if you 
will.
    Ms. Benedetto. The game changed.
    Mr. Hill. And it had a substantial impact on 
recreationists. It has had a substantial--a great impact on the 
economy of those communities?
    Ms. Benedetto. That is correct.
    Mr. Hill. Thank you, Kathleen. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. I would like to ask 
Rita Carlson, what effect do you believe that the introduction 
of the grizzly bear will have on timber sales and other 
multiple uses in your area?
    Ms. Carlson. Based on what has happened in Montana, even 
though they claim that there would be no effect--we heard that 
testimony earlier today--it did, in fact, have a big effect in 
the Cabinet-Yaak area. And I see no reason for it to be any 
different for us. And with the decline in timber sales that we 
have seen over the last few years, I view this is just another 
ploy to yet limit our access to timber supply and recreational 
areas as well.
    Mrs. Chenoweth. So you did see a substantial change in 
management practices?
    Ms. Carlson. Yes, I did. Over in the Libby area they 
certainly did.
    Mrs. Chenoweth. And primarily those were in timber sales 
and recreation?
    Ms. Carlson. That is true. In the Libby area, they told 
them that to offset the degree or the lower numbers in timber 
sales that they should look toward recreation, that tourism was 
their future. And so they looked, and Libby is surrounded by 
large mountains so they were going to put in a ski slope, but 
they couldn't because the ideal mountain for the ski slope was 
right in the midst of the grizzly bear recovery area. So that 
just didn't materialize at all.
    Mrs. Chenoweth. Very interesting. Shirley, I wanted to ask 
you, are there any other concerns that you have with the 
introduction of the grizzly bear that you didn't make in your 
statement?
    Ms. Bugli. Yes. There is one statement I would like to 
make, and I do think it is pertaining directly to this. I would 
like our Department of Interior to stop funding all of these 
organizations that are the environmental organizations that are 
using the funds to do this. I feel it is our tax dollars that 
are coming back through the massive amounts of funding that the 
Department of Interior gives to the environmental groups.
    Mrs. Chenoweth. Would you like to elaborate on that? Who 
are they funding?
    Ms. Bugli. I had a list that came from a magazine that was 
called, ``Ecologic,'' and it was published--I am sorry I don't 
have it with me. I do have access to it, and it was a list of 
1995, and it was funding the conservation--Nature Conservancy, 
the Wilderness Society, Trout Unlimited--just a number. I think 
that there were $44 million on that list alone and probably 
one-third of the list were the environmental organizations.
    Mrs. Chenoweth. Would you mind supplying that information 
for the Committee?
    Ms. Bugli. I will. I will have to wait until I get home to 
do it, but I will do that.
    Mrs. Chenoweth. Mr. Hill, do you have any other questions?
    Mr. Hill. I do, yes, Madam Chairman. Shirley, you brought a 
petition with 3,500 people from Ravalli County?
    Ms. Bugli. Yes, I did. It is just one of the petitions.
    Mr. Hill. Are you aware are there any members of the 
Ravalli County Commission who support reintroduction of 
grizzlies?
    Ms. Bugli. I am sorry. I should know that answer, but I 
don't believe so, but I am not real sure.
    Mr. Hill. I am pretty sure that you are right. And 
legislators? I see, for example, that on your Board of 
Directors Steve Benedict------
    Ms. Bugli. He doesn't support grizzly reintroduction.
    Mr. Hill. He is the State Senator representing that area. 
And you indicated that you represent I think 19 groups?
    Ms. Bugli. Nineteen groups.
    Mr. Hill. Are you aware were any of those 19 groups asked 
to participate in the collaborative process that initiated the 
reintroduction or the proposal to reintroduce grizzly bears in 
the Selway-Bitterroot?
    Ms. Bugli. Not that I really am aware of. We have had 
several meetings over grizzly bears, and when we stood up and 
voiced our concerns, we were called radical people and not 
representative of the Bitterroot Valley.
    Mr. Hill. So your participation was limited to just 
appearance at public meetings during the scoping process for 
the environmental impact statement, but there was a community 
collaborative process that went on, and you weren't a 
participant or your groups were not a participant of that 
collaborative process that you are aware of?
    Ms. Bugli. Not that I am aware of.
    Mr. Hill. And I guess that leads me to the next question. 
One of the things--and I think that, Kathleen, you made this 
point--is that the number 1 thing about making a reintroduction 
successful is to have people accept bears.
    Ms. Benedetto. That is correct.
    Mr. Hill. Because that is necessary. It is the people's 
encounter with bears. People have to change how they behave in 
the forests, how they use the forests, et cetera. Shirley, is 
it your sense, and it is certainly my sense, that there is 
substantial public opposition in Ravalli County to this 
reintroduction?
    Ms. Bugli. Very definitely.
    Mr. Hill. And there are some who are suggesting that there 
are public opinion polls that show 60 or 70 percent support. 
You have done some polling I think that would conflict with 
that. Is that correct?
    Ms. Bugli. Well, in my statement, there were 388 people 
that were polled randomly from the telephone directory, and it 
was a three-to-one margin against and the simple statement of 
do you support the grizzly bears being reintroduced--yes, no, 
and undecided.
    Mr. Hill. So that wasn't a poll used to try to manipulate 
the results? It was a simple polling------
    Ms. Bugli. No. It was just a simple poll.
    Mr. Hill. And anecdotally--I mean, just in your knowledge 
of the community that you live in, is it your opinion that two-
thirds of the people there support reintroduction of the 
grizzly bears?
    Ms. Bugli. Oh, I think it is a very, very small number of 
people that would support it; in fact, so small that when they 
do testify in support of it, they run out the door quickly.
    Mr. Hill. And the opposition there is substantially based 
on fear. Is that right? I mean, people are afraid of grizzly 
bears, aren't they?
    Ms. Bugli. Well, fear and economics.
    Mr. Hill. And one of the reasons for that is that the 
valley that you live in there is substantially still associated 
with timber. We have I don't know--how many log home 
manufacturing companies are there there? I don't know if you 
know the answer to that, but there are probably more in that 
valley than there is anywhere else in America or anywhere else 
in the world.
    Ms. Bugli. Yes. I believe so and it is still a very strong 
agriculture area, although we are weakening. We are getting so 
many people in there, but our valley is only 80 miles long and 
20 miles wide. And if anyone wants to look at the map, the 
boundary--you can see where the boundary comes right down into 
our area where it will be the logical place for the bears to 
come.
    Mr. Hill. And, I mean, the wilderness--the reintroduction 
area isn't very far from residences?
    Ms. Bugli. Within a mile or two some places.
    Mr. Hill. Right. And that is an area of rapidly growing 
population. Isn't that correct?
    Ms. Bugli. That is right.
    Mr. Hill. So the likelihood of encounters between bears and 
people is substantial. And I found it interesting--I was in--
two weeks ago in Cut Bank, and the Chairman doesn't know where 
Cut Bank is, but you know where Cut Bank is--and the people in 
Cut Bank, Montana, are concerned about grizzly bears.
    And you ask them why, and it is the grizzly bear is coming 
out of the Bob Marshall and grizzly bears coming from Glacier 
Park. I don't know how far that is, but I think it is about 
probably at least 50--60 miles. And they frequently have 
encounters with bears. They have wide-ranging areas. They range 
out of the forests and so it is understandable why you have 
that fear, and I understand it as well.
    Well, thank you, all of you. I really appreciate your 
traveling this far to be here to represent Montana and Idaho 
citizens groups, and it has been very informative. Thank you.
    Mrs. Chenoweth. Thank you all very much for your very 
valuable testimony. And if you wish to supplement the record, 
you are welcome to do it. The record will remain open for 2 
weeks. Thank you.
    We call the next panel; Phil Church, Resource Organization 
on Timber Supply from Lewiston, Idaho; Hank Fischer, Defenders 
of Wildlife, Missoula, Montana; Jim Riley, Intermountain Forest 
Industry Association, Coeur d'Alene, Idaho; Tom France, 
National Wildlife Federation, Missoula, Montana. As with the 
previous panel, I wonder if you will all rise and raise your 
right hands please?
    [Witnesses sworn.]
    Mrs. Chenoweth. We will begin our testimony with Mr. 
France.

   STATEMENT OF THOMAS FRANCE, NATIONAL WILDLIFE FEDERATION, 
                       MISSOULA, MONTANA

    Mr. France. Thank you, Madam Chairman. My name is Tom 
France. I am with the National Wildlife Federation, and my 
office is in Missoula, Montana. And while I am often accused of 
representing one of those big green national organizations, our 
office has been there for 15 years, and I have lived in 
Missoula for 25, and gone to the University of Montana and 
graduated from law school there in 1981.
    So my national organization always accuses me of going 
local on them so I am never quite sure where I am on these 
issues. And I think that that is at least the beginning of the 
National Wildlife Federation's efforts in developing a citizen 
management proposal for the grizzly bear reintroduction into 
the Selway-Bitterroot Wilderness.
    Other members of the panel are going to talk about the 
origins of our discussions with the timber industry about how 
we might accomplish grizzly bear reintroduction. I wanted to 
use my time today--I have submitted written testimony--but to 
try and respond to some of the concerns that we have heard from 
the panelists.
    And I think it is appropriate that I do this because 
throughout the three or 4 years that we have been working on 
the citizen management alternative with the Resource 
Organization on Timber Supply and the Intermountain Forest 
Industry Association, we have tried hard to listen to concerns.
    We have tried hard to change the rule as we have heard 
others make points that we thought had merit and doing a better 
job of reflecting local concerns about the economy and local 
concerns about recreation and local concerns about how we 
manage wildlife species in the Northern Rockies.
    I have heard several concerns today about Rule 14, the 
component of the citizen management rule that we developed that 
deals with how the Secretary of Interior might reclaim 
authority from the Citizen Management Committee. And let me 
assure the Chairman that on both sides of the aisle, 
conservationists accuse us of giving away the farm to citizen 
managers.
    Others on the more conservative side, of course, are afraid 
that Secretary Babbitt will swoop in immediately upon the 
Citizen Management Committee being appointed and take back the 
authority and use it only from inside the Beltway in 
Washington, DC.
    But certainly we constructed that part of the rule, 
recognizing that under the Endangered Species Act, Secretary 
Babbitt or whoever might inhabit the Department of Interior 
legally has to retain authority. But we also recognize that 
within the framework of the Citizen Management Committee, we 
wanted to vest all of the relevant decisionmaking authority 
locally, and we think we have set up a rule that does that.
    As we constructed it--and here is what you might call our 
intent in constructing it--the Secretary can only call back 
authority where decisions aren't leading to recovery. And we 
used recovery in a programmatic sense. We did not use it to say 
that any specific decision would be second-guessed by the 
Secretary but rather a series of decisions that were not or are 
not leading to the grizzly bear populations in the Selway-
Bitterroot prospering.
    And, again, following on this theme of listening, we heard 
some comments today that I think we will think long and hard 
about. Perhaps we can strengthen that part of the rule, and as 
we go through the EIS process, that is I think the kind of 
constructive dialog we want to have.
    In response to concerns that we heard from the Bitterroot 
Valley that it was a rapidly growing area, something we all 
recognize, we changed our rule in midcourse to reflect the fact 
that the Bitterroot--of all the areas adjacent to the national 
forest lands and wilderness areas that make up the Selway-
Bitterroot and central Idaho roadless and wilderness country, 
the Bitterroot does have the densest population, and we 
recognize that conflicts there were really going to be 
irresolvable. There wasn't the space for grizzlies and people.
    So the rule that we constructed, and I believe it is 
reflected in what the Department will release with the EIS, 
says that grizzly bears won't be pile rated in the Bitterroot, 
that they will be moved back up into the wilderness country.
    And out of that experience, we also developed language 
where other parts of the experimental population area where 
conflicts were really irresolvable could be designated by the 
Citizen Management Committee as areas where we simply don't 
want bears and where bear occupancy and use will be 
discouraged.
    And I bring that to the Committee's attention as another 
place where we tried to hear what the concerns were in a place 
where we think if people pay attention to how this rule has 
evolved over time, they will recognize that this can be an 
adaptive process, that their input can have impact on how the 
decision is finally going to look.
    That leads me to a third point, and we have heard several 
questions for the Committee about the collaborative process 
that we set up and whether we engaged with other responsible 
organizations, and we did our best. But no one appointed us. We 
just got together and said, ``Jeez, there is a big problem out 
here. How can we solve it?'' We started small. We worked large.
    We have, for the last year since we put out our draft of a 
rule, tried to meet with everyone we can, and I want to assure 
that Committee that that is still our commitment. We wish to 
exclude no one from this process, and if there is a group in 
McCall or a group in Lewiston or a group in Salmon, we are 
anxious to go down and talk with them and see whether we can't 
build our partnership with them.
    So those are a few of the things we have done to address 
concerns, and that is certainly the theme that we have tried to 
incorporate throughout our efforts on this issue. Thank you 
very much.
    [Statement of Mr. France may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. France. And the Chair 
recognizes Jim Riley from Intermountain Forest Industry 
Association, Coeur d'Alene. Mr. Riley?

     STATEMENT OF JIM RILEY, INTERMOUNTAIN FOREST INDUSTRY 
               ASSOCIATION, COEUR d'ALENE, IDAHO

    Mr. Riley. Thank you, Chairman Chenoweth, and members of 
the committee. I am Jim Riley. I am the Executive Vice 
President of the Intermountain Forest Industry Association with 
headquarters in Coeur d'Alene and also offices in Boise, Idaho, 
and Missoula, Montana. Our association is privileged to 
represent the forest products businesses, the majority of them 
in both Idaho and Montana, as well as the private forest owners 
in those two States.
    With your permission, I will submit my full statement for 
the record and just highlight a couple of elements of this 
which I think are particularly relevant to today's 
conversation.
    First, let me report that like so many others who have 
testified today, our history with this proposal began with the 
recovery plan that was advanced by the Fish and Wildlife 
Service in 1993. And our response in 1993 and 1994 to that plan 
was the same response you have seen throughout the West as 
endangered species proposals have been advanced upon 
communities and industries, and that was of vigorous 
resistance.
    We didn't believe it was necessary, appropriate, or 
workable, and spent many hours trying to persuade the Fish and 
Wildlife Service to withdraw their recovery proposal. We were 
not making much progress with that, and in 1995 under the 
guidance of the late Seth Diamond, who was our wildlife 
biologist out of Missoula, Montana, with his expertise on both 
the ESA and on grizzly bear management, persuaded our 
membership to take a fresh look at our approach to this issue 
and our way of addressing the recovery proposal.
    Under Seth's direction, we began meetings with the other 
folks who I am privileged to be with on this panel today to 
talk about a more productive way than the high profile 
conflicts that have always characterized these issues for us to 
engage each other over grizzly bear management.
    And I want to assure everybody, those were not easy 
conversations, and they took many hours, and there was much 
contention among the people at this table as we tried to work 
through what has become known today as the citizens management 
proposal.
    This proposal was born, from our organization's standpoint, 
not just because of those conversations but because of our 
experience throughout Idaho and Montana with what we see as 
failed grizzly bear management policy. I began my career 
working with a sawmill in Dubois, Wyoming, which is closed 
today in part because of the management constraints that 
grizzly bear management placed on the timber supply in that 
area.
    I worked in the Targhee National Forest where we tried to 
enter into negotiations with grizzly bear advocacy groups to 
try to find a way--a formula to keep the sawmill, which is now 
closed there today, in business. I have worked, Congressman 
Hill, at great length in the Swan Valley trying to resolve the 
issue there of grizzly bear management and found the 
distressing situation where citizens have worked with the 
Federal Government to ensure more bears show up.
    You would think that would free up constraints on other 
uses. It only made those constraints more binding, not less 
binding and because of those experiences and those failed 
policies made--motivated us to try to find something new, and 
that is what this proposal was all about.
    The citizens management concept, which you have before you, 
we believe that that is not only the best way but the only way 
to bring about sustainable bear populations in this area and to 
incorporate the interest of local communities, not just 
override them. The proposal that we have supported in concept 
includes three principal parts that are extremely important, 
which I outline in my statement.
    And the first of which is that the Secretary of Interior 
fully delegates management authority to the citizens. Second of 
which is that the populations be classified as nonessential and 
experimental. And the third of which is that the recovery zone 
be defined in a manner which minimizes conflict, not seek to 
create conflict.
    Now, having said that, I also want to echo Tom France's 
view that in putting this together and talking with folks in 
the communities about this, the collaborative process is very 
difficult. We are private citizens. We have other things we 
work on. We began with the people around this table and then 
have tried over the last 12 months to the best of our ability 
to talk to anybody who was interested in talking about this.
    I know Seth made several trips to Ravalli County and other 
places. I just want to underscore it was not our intention to 
exclude anyone. It was our intention to include as many people 
as were interested in the citizens sense about this.
    Issues have arisen in our conversations and continue to 
arise today which need further attention, and we support 
attention of that. First, the question regarding the legal 
authority to create the Citizen Management Committee that has 
been talked about in many places. Section 14 has been raised. 
We would just say it is a simple matter. This has to be a real 
delegation of authority. It cannot be a sham committee for this 
proposal to continue to gain our endorsement as the right way 
to proceed.
    Second, our ongoing questions about the science of the bear 
and what this area can sustain and not sustain in terms of bear 
populations. Those are also important questions that we think 
need a response. And most importantly are the personal safety 
concerns that have been raised over and repeatedly. Those need 
to be accommodated.
    In conclusion, I would say that the IFIA has long advanced 
the perspective that no single use of our forest lands ought to 
preclude any other. And it is because of this point of view 
that we have come to have these conversations about grizzly 
bears. I would also say that we have promoted the concept of 
local decisionmaking by the people affected by decisions as 
being the right way to solve resource management problems.
    This proposal is consistent with that long-held view of 
ours, and I would also say, and underscore, that I believe that 
it is fundamentally wrong for the Federal Government to impose 
a species, particularly one that brings the personal safety 
concerns that the grizzly bear does, upon citizens of any State 
without the acceptance of those citizens.
    It is because of that idea and the idea that it is 
fundamentally right for the Federal Government to facilitate 
citizens' management of those species that this proposal has 
gained acceptance within our association.
    And so it is because of those very same concerns that have 
been raised elsewhere that we find this to be a creative 
solution to that problem. I appreciate the opportunity to 
testify and will look forward to questions at the end of this 
panel. Thank you.
    [Statement of Mr. Riley may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Riley. Mr. Church is 
recognized from Resource Organization on Timber Supply.

   STATEMENT OF PHIL CHURCH, RESOURCE ORGANIZATION ON TIMBER 
                    SUPPLY, LEWISTON, IDAHO

    Mr. Church. Good afternoon. Thank you, Chairman Chenoweth 
and Committee. Thank you for this opportunity to be able to 
testify before you. I am Co-Chairman of ROOTS, Resource 
Organization on Timber Supply--can you hear me OK?--made up of 
organized labor and industry entities. The group was formed to 
work on natural resource issues on the Clearwater National 
Forest and the Nez Perce National Forest.
    A brief history of what we went through so you can 
understand why we promote the concept of the Citizen Management 
Committee. When we first started a little over 4 years ago, we 
went to some meetings in Grangeville, Idaho, and those meetings 
were hosted by the U.S. Fish and Wildlife Service and the Idaho 
Fish and Game.
    And it was at these meetings that, you know, we learned 
that should a bear wander into this area, then without our 
proposal then that bear would be listed under Section 7 of the 
Endangered Species Act with full protection.
    In addition, the original proposed area from the U.S. Fish 
and Wildlife Service and the Fish and Game was about one-third 
of the roaded front which would have locked us out of that area 
for any harvestable timber, plus all the unroaded area, plus 
the proposed wilderness area. So the original plan was a lot 
broader than it is now.
    We had a tremendous fear of loss of jobs, destruction of 
families, and at that time we came away with a statement of not 
only no, but hell no. We were not going to tolerate these 
actions. We were going to fight it in any way we could.
    We studied the issues, and we learned that, again, should a 
bear wander in from the neighboring State of Montana, that bear 
will be protected. Again, I want to reemphasize that point 
because then we are locked out of that area regardless. There 
is no input. There is no say. We are locked out of it.
    We also learned by studying that there is more to the ESA 
than simply Section 7. I firmly believe the Endangered Species 
Act is broken and needs to be repaired. Based on our 
discussions, four groups came together, and it wasn't limited 
to these four groups.
    We sent out invitations to as many groups as we could; 
again, anyone that would be willing to participate. Several 
groups said no. Several groups said they would like to be kept 
informed of the situation. Those groups were ROOTS, Defenders 
of Wildlife, National Defenders of Wildlife, and IFIA--the 
groups here before you. Again, we had an open-door policy to 
participate, most of which, again, simply wanted to be kept 
apprized of it.
    Because of our labor and management background, we realized 
simply saying no is not an option. Under the Endangered Species 
Act, we looked for what was negotiable and what was not. The 
whole purpose was to perform damage control, again remembering 
our sisters and brothers and the loss of jobs, the destruction 
of families over the spotted owl issue. It was during that same 
period of time. And how the grizzly bear and those issues have 
been handled in Montana devastating whole communities. We 
recognized that and wanted to minimize that damage to our 
areas.
    I did want to add one other point. If that bear under the 
first proposal would have been reintroduced, it would have been 
reintroduced into the very back yard of such cities as Elk 
City. Elk City was part of the proposed area.
    We came up with the concept utilizing a Citizen Management 
Committee, and the bear would be reintroduced into the 
wilderness of the Selway-Bitterroot as a nonessential 
experimental population. The Citizen Management Committee is 
the way of the future.
    The grizzly bear is a controversial issue by itself. But 
remove the bear from that issue, from the equation, and put it 
in its place--bull trout or salmon. Citizens' management has 
potential. The concept of citizens' management is visionary, 
and I ask you to see the vision of the future. The Endangered 
Species Act is broken, and without citizens' management and 
other changes to the Endangered Species Act, no one wins 
including the listed species.
    In closing, the Citizen Management Committee is a win-win 
concept that needs a chance. My membership does not want the 
bear, but they do see the value of a Citizen Management 
Committee and are willing to give that a chance. Thank you and 
I will be happy to answer any questions.
    [Statement of Mr. Church may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Church, and you saw a little 
bit of flurry of activity up here. It is because they have 
called us to a vote. We have a 15-minute vote on the flag bill 
which will be interesting. But, Mr. Fischer, before we proceed 
with your testimony, since Congressman Hill has left, I am 
going to run out too so that we can resume the Committee just 
as quickly as possible. So if I can ask your indulgence and 
recess the Committee temporarily, we will be back in just a 
moment. Thank you.
    [Recess.]
    Mrs. Chenoweth. The bill that we just voted on was a 
prohibition against desecration of the American flag, and so as 
you can imagine that one passed by a wide majority. I would 
like to return now to our activity and the business of the 
Committee and resume testimony with Hank Fischer. It really is 
nice to see you again, Mr. Fischer. We are going to have to 
quit meeting like this.

  STATEMENT OF HANK FISCHER, DEFENDERS OF WILDLIFE, MISSOULA, 
                            MONTANA

    Mr. Fischer. You had me nervous there for a second. Madam 
Chairman, Congressman Hill, thank you very much for having me 
here. I am Hank Fischer. I am the Northern Rockies 
Representative for Defenders of Wildlife. Defenders is a 
national nonprofit wildlife conservation organization. I am in 
Missoula, Montana. Our organization has approximately 200,000 
members, many of them in Montana and Idaho.
    I have worked for Defenders for 20 years and have been 
intensely involved in these endangered species issues, and most 
recently very involved with the wolf restoration issue. I think 
plainly wolf restoration will be viewed as an historic 
conservation achievement. While many people don't agree with 
it, the action is going to influence the conservation of large 
predators all around the world.
    But I would be just as quick to add that while wolf 
restoration in Yellowstone and central Idaho may be a historic 
achievement, it is a less than perfect conservation model for 
three reasons.
    First of all, it cost too much, second, it took too long; 
and third, there are still too many people in the region who 
are upset that it ever happened at all. It is that combination 
of factors that has drawn our group together and made us try to 
seek a better way to conserve endangered species, and that is 
what we will present to you here today.
    I have my prepared statement, which I will submit for the 
record. I thought I would go over a few items that came up in 
testimony today that might help elucidate this issue a bit 
more. First of all, I wanted to talk a bit about the issue of 
public support for Bitterroot grizzly restoration.
    It is frequently asserted that there is no support for 
Bitterroot grizzly restoration. Defenders of Wildlife, along 
with the National Wildlife Federation, commissioned a poll that 
was conducted in April of this year. We hired a firm called 
Responsive Management, which is the leading market research 
firm in the United States on fish and wildlife issues.
    This organization has been hired frequently by the Montana 
Department of Fish, Wildlife and Parks; Wyoming Gam and Fish 
Department; Idaho Game and Fish Department. It is generally 
recognized as the leading firm in the United States on wildlife 
polling. And we will make sure that we get you a copy of the 
poll so that you can see that for yourself.
    Mrs. Chenoweth. Thank you.
    Mr. Fischer. But, Tom, maybe you could take away the map 
there. There are a couple key points that I want to go over in 
this poll that are important. First of all, on--Tom, could 
you--the order of those isn't right. Could you put the first 
one up with the no conditions? That is the one. The first sheet 
is the basic question of support and opposition, with no 
conditions attached to it. It shows 46 percent support grizzly 
restoration, 35 percent oppose, 19 percent have no opinion or 
did not know.
    Now, I would be quick to point out to you that in my view, 
the actual percentages are not that important. It is plain 
there are a substantial number of people who support grizzly 
restoration, just as there are also a substantial number of 
people who oppose it. And we respect that opposition.
    We know it is important to acknowledge the opposition. We 
know it is out there, and we know we have to deal with it. That 
has really been the point of our work for the last couple of 
years--trying to develop a constructive way to deal with the 
opposition and respond to their legitimate concerns.
    The results of this poll that are really most important 
have to do with when we tested the four primary conditions of 
our citizen management alternative and how that influenced 
response. Can I have the second one, Tom? The one on the floor 
I think. OK. And what this one shows is that under the 
conditions that we have a Citizen Management Committee, cost 
minimization, no land use restrictions, bear relocated from 
populated areas, we find that the support goes up to 62 
percent; opposition 30 percent; no opinion 8 percent.
    And there is a final chart that shows in all three 
categories--people are opponents, supporters, and those who 
have no opinion--they all became more supportive of grizzly 
restoration when we included the citizen management aspect to 
it. Most notably, people who were uncertain went up the most, 
but even supporters and opponents became more supportive when 
they learned about the citizen management alternative.
    And so my point here is very simple. We have gone to many 
places, and I would like to talk to you more about that. We 
have had extensive conversations with the Idaho legislature, 
especially with the Grizzly Bear Oversight Committee that was 
appointed by the Idaho legislature. We have talked with them. 
We have made visits to many small towns in Montana and Idaho, 
and what we find is when we talk to people and have the chance 
to explain this citizen management alternative to them, they 
become more supportive. We think it is an alternative that has 
a lot of promise to gain broad support.
    In closing, I find it a curious irony that we hear today 
many, many stories about how the Endangered Species Act isn't 
working for one reason or another, and yet people remain firmly 
resistant to trying something new.
    To me, that is the absolute reason why we need to try 
something new because some of our current techniques are not 
working well. And we must have the confidence to try new 
approaches to species restoration if we are going to avoid 
continued polarization. Thank you.
    [Statement of Mr. Fischer may be found at end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Fischer, and we will open 
the questioning with Mr. Hill.
    Mr. Hill. Thank you, Madam Chairman, and thank all of you 
members of the panel. I would just like to comment first of all 
I encourage you in your process. I am, as was mentioned 
earlier, a strong advocate of collaborative process. And I know 
that you folks have invested a lot in a collaborative effort 
here. I have expressed some concerns about that and I will in 
my questioning.
    But I would certainly urge you to stay with this because no 
matter what the outcome here--I mean, I think that it is a 
constructive process with collaborative--I would ask all of you 
to answer this question, if you would. What is the value that 
we are after? Why is it so important that grizzly bears be 
reintroduced in this area at this time? What is that shared 
value? Start with you, Tom.
    Mr. France. Well, I think we have--each of the participants 
that have worked on this have values that are similar but not 
identical. Certainly for the National Wildlife Federation, our 
priority would be in recovering the grizzly bear in the Selway-
Bitterroot-Frank Church area as part of the larger recovery 
effort to restore bears in the lower 48.
    Having said that, we recognize that that recovery can only 
occur if we also create--we have got to create biological 
conditions where that occurs. We have got to create a habitat 
base for that species, but we also have to create a social 
contract about how we manage a large predator like the grizzly 
bear. And we think that what we have done in central Idaho with 
IFIA and with ROOTS and with Defenders of Wildlife achieves 
both of those objectives.
    It achieves the objective of establishing a grizzly bear 
population in the largest piece of grizzly habitat we have left 
in the lower 48, but it does it in a way that respects local 
communities and we think will enhance local economies. And I 
conclude by saying we have got a proposal here. We are 
certainly not sure where that is going to go, but we are 
committed to the long-term. We recognize that our job doesn't 
stop when a grizzly bear is released in Moose Creek in the 
Selway, that there are a lot of things we have to work on after 
that to make that vision a reality.
    Mr. Hill. Mr. Riley?
    Mr. Riley. Congressman, I would respond to that with two 
points, the first of which is that we have advanced the 
perspective for many years that no single use of our forest 
lands needs to preclude another, and that is because our 
industry has been on the losing end of that preclusion 
equation, if you will, on lots of issues.
    And if we are going to be true to that perspective, here is 
an issue where it is very difficult for us to argue that our 
use of the forest ought to preclude this other use of the 
forest, if you are with me. So that perhaps is at the 
foundation of what we are talking about.
    More immediate and more importantly to many of our members 
is the question of what would happen if we did nothing in this 
situation. What would happen to the timber supply in the 
Bitterroot Valley if nothing was done at all and a bear showed 
up there today. And I would tell you that the answer to that 
under the current law, the Endangered Species Act, is because 
this is a listed species.
    It receives the full protections of the Endangered Species 
Act that we have seen in the Swan Valley and in Yellowstone and 
other places. And so this is as much, quite candidly, a 
defensive opportunity for us as it is a way to advance the 
overall objective of what we see. So for those two reasons is 
what the value of this proposal is as we see it.
    Mr. Hill. Mr. Church?
    Mr. Church. Mr. Riley said most of what I would say--damage 
control. Organized labor would look at it from the point of 
view. We have seen what took place over in Washington State 
with the spotted owl. Again, if that bear was to wander in, we 
know the bear has wandered in from Montana; has not taken up 
residency yet.
    If that bear was to take up residency, full protection 
under the Endangered Species Act, Section 7, and we don't have 
a voice. This hearing is a moot point. There is nothing that 
can happen. That law is--it is a different story then. 
Everything changes. And we are trying to protect and minimize 
that damage.
    Mr. Hill. Those doggone Montana bears, huh?
    Mr. Church. Sorry.
    Mr. Hill. They used to beat them in football too. They 
cheer the grizzlies on Saturdays down there in Ravalli County, 
and they curse them the rest of the week. But, anyway------
    Mr. Fischer. I guess I would say simply that any 
collaborative effort depends on some convergence of interest. 
Our convergence is clearly we would like to see bears restored 
to this area, and I think, you know, these people want to make 
sure that it is done in a way that doesn't significantly impact 
their interests. And I think that is the convergence.
    Mr. Hill. You know, but what I hear here is, you know, 
obviously, we want to restore them--to restore more grizzlies. 
We want to have more grizzlies in the 48, and we want to 
restore the opportunity to industry to be able to harvest 
timber. But the concerns that were expressed mostly today about 
this was human contact, the impact on people, just their 
everyday life, not jobs, although there is some concern about 
jobs--recreation, but also just safety of their children and 
sense of safety when they recreate. What about that?
    Mr. Fischer. If I could speak to that, you know, our poll 
asked that question directly, why were people opposed, and our 
poll showed that too, that almost on a five-to-one basis the 
primary reason people were afraid of this--were opposed to it 
because of fear of bears. It wasn't the issues that we think 
like cost and like land use restrictions. Those were much 
lower.
    It was the fear issue. And in some ways, that is good news 
because that is something that we can work on, although only to 
a certain level. I mean, there is a certain fear of bears that 
I think is similar to the fear some people have of flying on 
airplanes. And you can tell people driving to the airport you 
are more likely to die, and, jeez, I could regale you with all 
kinds of stories about how gruesome it is to be in an airplane 
crash and all the stories of people going down and all that. 
And it is. It is awful. It is terrible.
    But at the same time, we are all going to get on an 
airplane again. And in the same way, I think all of us are 
going to go to Yellowstone Park again. All of us are going to 
visit Alaska again, and I think in the future all of us are 
going to visit the Bitterroot, but we are going to do it with 
care.
    Mr. Hill. I just want to remind you when we start talking 
about air and water quality issues and the environmental 
impacts and risk to life, I want to remind you of the fact 
there is a risk in life. And when you talk about bears, it is 
that way in all parts of life. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. Mr. France and Mr. 
Fischer, my congratulations to you, Mr. Riley, Mr. Church, for 
approaching this issue in a manner that I hope we see other 
issues with regards to local citizen management organizations 
being formed and work through these to key problems. Certainly, 
the Quincy Library Group proposal that was one of the first 
bills in front of this Committee I think is a prime example of 
how citizens and local interest groups can work together and 
achieve what everyone wants.
    My biggest concern is now that the bill is out of 
committee, we are seeing a lot of national attention paid to 
this by the national environmental groups. And while agreements 
are made locally, there is nothing that binds the same national 
group from moving ahead and then opposing the issue and either 
filing suit or coming in here and heavily lobbying against it.
    I know because I asked Mr. Fischer this same question in 
Montana, and I remember his answer. You know, it is a free 
country, and we can't bind people. And I understand that. But 
you can see our concern that while we may agree locally, while 
we may even, in essence, endorse this, there is no security in 
knowing that when you speak for the National Wildlife 
Federation or Defenders of Wildlife that when it reaches the 
implementation point that it is going to move ahead. Is there 
anything, Mr. France or Mr. Fischer, you can say that could 
give us any security about what you may agree to on the field 
being carried forward?
    Mr. France. Well, I would offer with one example, and I 
know there are differing opinions on the wolf recovery program, 
but that too was done under an experimental population rule. 
And we may disagree about the specifics of that rule, but, 
nonetheless, it was challenged. It was challenged by the Farm 
Bureau organizations in Montana, Wyoming, and Idaho. It was 
also challenged by the National Audubon Society and some other 
conservation groups.
    And I am privileged to represent National Wildlife and 
Defenders of Wildlife and the Idaho Wildlife Federation in 
intervening in that case and were there to see that that rule 
was an effort at compromise. It may not have succeeded as well 
as we liked, but that middle course was where we wanted to be, 
and we backed that up by going into Court against other 
conservation organizations.
    And I think we have the same level of commitment, and that 
is why I made my comment earlier that in many ways if this plan 
is approved and we get the situation where some day we are 
putting a bear out in Moose Creek, you know, that is not the 
end of the story for the National Wildlife Federation.
    That has to be viewed as the beginning because that is when 
the success or failure of the citizen management approach 
starts to be measured. And it is all theory until then, and if 
we are going to make a proposal like this, we have to have a 
commitment to working through as the implementation occurs. And 
we are well aware of that, and we will do our best.
    Mr. Fischer. If I could make one comment?
    Mrs. Chenoweth. Sure.
    Mr. Fischer. What I would say is, you know, I appreciate 
your kind words about our process, but at the same time it is 
very necessary for us at some level to achieve some 
endorsement, some support for what we are doing. I think it--
you know, you wonder what makes these sort of processes grow 
and succeed. It is by having people step forward and say this 
is the right thing to do and to support them. And we need that 
kind of support, and we need that from elected officials as 
well as from local citizens.
    I think what makes this thing strong and such that it 
repels attacks is by having this bridge across different 
interest groups. That is a very strong insulation from attack, 
in my view. And I think lawsuits rarely succeed where you have 
common interest joined like that.
    Mrs. Chenoweth. Mr. France, you indicated that you have a 
legal background?
    Mr. France. Yes.
    Mrs. Chenoweth. And are you an attorney?
    Mr. France. Yes, I am an attorney.
    Mrs. Chenoweth. I asked a question earlier about the 
liability that individuals might be incurring as members of the 
Citizen Management Committee and even citizens like you who may 
have helped organize this. The long arm of the law seems to be 
reaching out in issues of personal liability cases, even 
piercing the corporate veil. This concerns me and as I examine 
the agreement, I find nothing that will indemnify or protect 
individuals or organizations or even corporations and their 
stockholders. Have you done a legal analysis on this?
    Mr. France. As I said in my testimony, we keep listening 
and we keep hearing concerns, that this is a new concern for 
me. And I will take a look at that. Two months ago, Director 
Mealey raised the concern about whether the Secretary even had 
the power to delegate to the Citizen Management Committee.
    And, obviously, we had made an initial cut on that years 
ago and said, yes, under the experimental population provision 
of the ESA that authority was there. But certainly Director 
Mealey's questions have prompted us to take another look at 
that. And we hope to form some sort of consensus with lawyers, 
both in the conservation community and with the timber 
industry, and we will take a look at that liability issue. And 
I would hope we could get something to you soon on that.
    Mrs. Chenoweth. Thank you. I really appreciate that, and I 
would look forward to your response on that. Mr. Riley, 
welcome. It is good to see you.
    Mr. Riley. It is always good to see you.
    Mrs. Chenoweth. You have been involved in this issue from 
the very, very beginning. You have seen a lot of things happen 
to the timber industry in Idaho. As a result of the agreement, 
if everything in the Citizen Management Committee agreement can 
go forward, presuming that the introduction has taken place, 
has there been anything that we have gained?
    I know that we are in a defensive measure. What we are 
trying to prevent is losing more. But in a good agreement, 
usually two people--both sides really benefit and they gain. 
While the one side is gaining a huge territory for an 
endangered species, what have we gained?
    Mr. Riley. You know, we struggled with that very same 
question internally many times, and I think that it is 
important to sort of shift your perspective to understand our 
view on this from who gains and who loses to dealing with the 
situation.
    I mean, we could argue at great length as to who has that 
ground today, you know, what is going on--remember, this is a 
wilderness area where the core of the proposal is and outside 
of it is part of the management area--and who ultimately has 
more control over, you know, or which interest does over what 
is going to happen there under the status quo. When we talked 
about that, we decided that that is sort of one of those 
endless conversations that there is no win on.
    We believe that under all likely possible courses of action 
that could go forward from here, our interests would be better 
off if this concept, as we envision it with some important 
legal questions here--our interests would be better off than 
the other alternative courses of action which are available. 
That is our assessment.
    And while I am speaking to this, let me also respond to, if 
I can, your first set of questions. There are some legal 
questions here--very specific ones about this proposal because 
make no doubt about it, the Endangered Species Act was not put 
together to envision citizens managing anything.
    In fact, it was put together for the exact opposite purpose 
where the Federal Government would sort of swoop in and take 
control in these situations. So we are trying to do something 
with this law that was not specifically intended by the people 
who drafted it.
    Now, we do think that it is legal, but we also are very 
much aware that there are people who have pledged without even 
having seen the proposed rule from the Fish and Wildlife 
Service that they are going to litigate this. On both sides of 
this issue, there are people who have pledged that. So that is 
a highly important question.
    And just as a general matter, I want to observe I have come 
before this Committee and testified numerous times on the need 
for changes in our environmental laws, the Endangered Species 
Act being one of them.
    I mean, it is for exactly this reason because it is the 
notion that what happens to make good environmental policy is 
the Federal Government comes out and does things to citizens of 
the States like our State rather than comes out and allows 
things to happen with us is what has caused great resentment 
throughout Montana toward the bear, toward the Federal 
Government, as well as our State of Idaho, and as causing 
polarization in our communities rather than people trying to 
work together as this small group of us at this table are today 
to bring about solutions to problems rather than endless fights 
over resource use.
    Mrs. Chenoweth. Mr. Riley, you are regarded by many people 
as one of the best professional governmental affairs operators 
not only in Idaho but probably in the Nation, and I am not 
blowing smoke. This is something that I have learned since I 
came back here. It troubles me that when the Governor and the 
legislature and the delegation and the county commissioners all 
say no how we can move ahead with a program that cost taxpayers 
money. And how do you feel about that personally, if you don't 
mind?
    Mr. Riley. Well, not just personally but professionally I 
would tell you that it was my advice this morning and it 
remains my advice to the Fish and Wildlife Service that it is 
inappropriate for them to force this upon the citizens of Idaho 
or Montana.
    The core of this proposal is based on the fact that the 
citizens of the State can work with the support of their 
Federal Government to handle this situation. It is not 
something that is done to them, but it is something that is 
done with them.
    And I think that it is--as I watched this morning in the 
conversation that ensued, it seems like people are now pulling 
apart to a polarized conflict with what we have been trying to 
advance as coming together. It has been my personal stance and 
our organization's stance to work with all of the members of 
the delegations involved here to try to get understanding and 
consensus as we have in the local communities throughout both 
States as to why this concept will work rather than forcing 
this upon anybody.
    Mrs. Chenoweth. Thank you. Mr. France, I want to return to 
you for another question, and that question is if the agreement 
were adjusted so that the citizens were satisfied that they 
were indemnified, the citizens on the committee, and if Mr. 
Riley and Mr. Church were satisfied that moving ahead with a 
multiple-use concept was drafted in the agreement, does it hold 
up in Court because can we agree to something that is contrary 
to a statutory authority?
    By that I mean if--in the agreement, they agreed to a 
multiple-use concept, but yet the Endangered Species Act states 
you have to manage critical habitat singularly. Can you agree 
to that which is------
    Mr. France. I think the answer on a couple of those 
questions is clear under the law. Where an experimental 
population is designated--a nonessential experimental 
population is designated, the Act expressly relieves the 
Secretary of designating critical habitat and expressly 
commands him not to conduct Section 7 consultations for Federal 
actions.
    So at least as far as the usual things that go with the 
Endangered Species Act, the law itself is clear that once we 
use this nonessential experimental designation, we do away with 
the regulatory burdens of the Act, and we encourage flexibility 
and creativity.
    Where the Act is less clear is it says to the Secretary go 
forth and experiment, but as Mr. Riley correctly observes, it 
never occurred to Congress in 1982 that somebody might consider 
it a good experiment to delegate authority to a bunch of people 
in Montana and Idaho to manage grizzly bears.
    And so that question is--there are answers for it. They are 
precedent in terms of other Federal statutes where delegations 
have occurred, and that is the kind of law we are pulling 
together right now, and I will be happy to make that available 
when we have it in final form.
    But we know we can get rid of a lot of the baggage or a lot 
of the things that have caused friction with endangered species 
with the designation. We want to take a closer look, and we 
want to do it in concert with the Fish and Wildlife Service on 
this delegation issue. We want to provide as much certainty.
    I would add too that Jim is also right. We have heard from 
people around the compass that feel threatened by this, that 
they will sue us or sue the Secretary. And I think we will have 
a chance to have the legal questions looked at in Court before 
we are deep into the management of grizzly bears in the Selway-
Bitterroot. I think we will get some firm answers from a Court. 
I am fairly confident they will be in our favor.
    Mrs. Chenoweth. I have just one more question, and then I 
will yield more time to Mr. Hill. The Davis and Butterfield 
report, Mr. France, indicated that there was a certain area 
that was more suitable for the reintroduction or introduction 
of the grizzlies. And yet an area that they did not study was 
set aside for that purpose. Do you know why? What is the 
science behind it? What happened?
    Mr. France. Well, I do know at least part of the answer, 
and that is that the Fish and Wildlife Service listened to what 
we had to say in terms of proposing this citizen management 
proposal. The Service's initial thought on reintroducing 
grizzly bears to Idaho was the Selway-Bitterroot and the 
Clearwater country to the north of the Lochsa. And that is what 
the initial studies looked at by way of habitat capability.
    When we proposed our rule in the summer of 1995, that 
caused the Service to take a look at it. As Dr. Morgenweck 
noted this morning, they have adopted it as a preferred 
alternative, and our proposal called for keying recovery 
efforts into the Selway-Bitterroot--Frank Church.
    And so the study came in advance of that, and we just 
haven't squared up all the round pegs with the square holes 
yet. But the Service basically responded to what we said by way 
of an appropriate area for initial reintroduction and for 
management emphasis.
    Mrs. Chenoweth. All right. Thank you very much.
    Mr. Hill. Thank you, Madam Chairman. Just, Hank, would you 
be willing to make the complete copy of that poll available to 
the Committee, cross tabs and everything?
    Mr. Fischer. Absolutely.
    Mr. Hill. I sure would like to look at it because it is 
important to me. Thank you. The big concern I think that comes 
out, and it is interesting that the poll revealed this as well, 
in Ravalli County is this issue of fear. I mean, obviously, 
people there are concerned about their children's lives and 
livestock and those sorts of things.
    What strategies are there in managing a grizzly bear 
population that can be used to instill a certain amount of fear 
on the part of grizzly bears to people? I mean, some things I 
have read would indicate, for example, that without hunting, 
bears just don't have a natural fear of people. Is that true in 
your view? Are there strategies that can be used to------
    Mr. Fischer. Yes. I mean, there are definitely strategies 
that we can use. We are using them in other places, and, yes, 
we know a lot about this right now. But I think the one thing, 
and, again, you know, our poll showed this as well, is when we 
asked people, OK, if we had a policy whereby bears that came 
into areas that were designated no bear areas were removed 
promptly, would that allay your fear? Yes, it very much seemed 
to allay their fears.
    And, again, that is what we specifically have done for the 
Bitterroot have been declare that private lands in the 
Bitterroot Valley are places where bears won't be tolerated. So 
as soon as they show up--now, we are not going to wait for them 
to cause problems. As soon as they show up, we are going to 
capture them and take them back to the wilderness.
    We are not going to tolerate bears on private lands in the 
Bitterroot Valley, and we thought that was the most effective 
way to directly address that, and we did that at Governor 
Racicot's suggestion. He was the one who suggested that we 
include that after he, you know, went and visited with people 
in Ravalli County and heard their concerns about safety too.
    And I would be quick to say we remain open to other 
suggestions for how to improve this. This Citizen Management 
Committee has the ability to designate other areas that may be 
appropriate for, you know, declaring offlimits to bears. I 
think as you have heard from several panels, including Hal 
Salwasser and Steve Mealey, education makes a huge difference 
in keeping people from having problems with bears.
    The big difference is that, you know, we tend to think of 
grizzly bears, and we have this national park image. And that 
is the place where you have millions of people who are not 
educated in the backwoods going out and encountering bears, and 
that is where problems do occur. In places that are wilderness 
areas, you tend to have sophisticated users or you have people 
going in with outfitters who are sophisticated users, and they 
know how to not get into trouble with bears.
    Mr. Hill. That is when the bears don't wander out of those 
areas though. I mean, I agree with you. I have seen grizzly 
bears in the Bob Marshall, and I am afraid of them. But I want 
to follow that on because I agree with the comment Mr. Riley 
made. I think that one of the critical elements here from my 
perspective is I think that we have a problem down there in 
Ravalli County, and that we have got a lot of work to do down 
there to turn around public opinion if this is going to go 
forward.
    I don't think that it would be fair to impose on the people 
of Ravalli County this reintroduction without substantially 
stronger support down there for them. And, you know, I 
certainly agree with you that--and I want to encourage this 
process, but I just don't think the process has gone far enough 
to deal with the issues with regard to public opinion. I am 
hopeful that it doesn't go forward--at least reintroduction 
doesn't go forward until there is some popular support down 
there.
    Tom, I have a couple questions for you. Because in your 
written testimony, there are a couple statements that you made 
that are a little inconsistent with some of the answers to 
questions that I got earlier so I want to probe those a little 
bit if I could.
    Mr. France. I certainly don't want to be inconsistent.
    Mr. Hill. Well, you aren't inconsistent, but your 
perspective on this is a little different than others. One of 
them says how would grizzly bear introduction affect current 
public land use, and I want to read you the statement, and then 
I want to ask a question.
    It says, ``The citizen management alternative assumes that 
current public land management is adequate for grizzly 
reintroduction. As the reintroduced grizzly bear population 
expands, the Citizen Management Committee will assess how bears 
are using the experimental area and make decisions about their 
management.''
    And I asked some questions earlier about whether or not 
there would be changes in the management of the public lands if 
grizzly bears are reintroduced. And the answer that I got 
earlier was is that, no, that wouldn't be the case because the 
only area we are talking about is the reintroduction area, 
which would be the wilderness areas.
    But your statement here would seem to indicate that the 
citizens advisory group would have authority and would likely 
be making changes in the management of the other public lands 
that adjoin that area. Am I right or am I wrong?
    Mr. France. I think you are right. The rule expressly 
states that outside of the recovery area within the boundaries 
of the experimental population area grizzly bears will be 
accommodated. And how that accommodation takes place is the 
province of the Citizen Management Committee. Mr. Mealey--I 
read the rule to say that no changes were necessary there, and 
that could be a right answer.
    But I think when we--and all of us at the table are the we 
that I speak of--when we put that together, we certainly could 
conceive of a scenario where a grizzly would move into the 
North Fork of the Clearwater River, which is good bear habitat, 
where timber operations could be managed in a way that didn't 
conflict with grizzlies, and the committee would make some 
recommendations to that extent, and life would go on. And we do 
know from other areas where we have grizzlies that those kinds 
of accommodations can be made.
    I want to respond to your point about Ravalli County and 
its concerns, and we have noted that Ravalli County is the 
fastest growing county in Montana. But two and three on the 
list are Flathead and Gallatin Counties, and they have grizzly 
bear populations literally in their back yard, and both of 
those counties seem to have been able to make accommodation for 
grizzly bears.
    Mr. Hill. But those are existing populations, not 
reintroductions.
    Mr. France. I understand but I am just saying that we have 
examples where we can have growing and even vibrant economies 
and populations and a grizzly bear population which gives us 
hope that this accommodation can work and work well.
    The other example I give to you, Congressman, is the 
Flathead common groundwork that IFIA and Defenders and National 
have been doing in the Flathead where we have been trying to 
work together collaboratively to design timber harvests, to do 
bull trout protection, to do road management in a way that 
builds a very strong consensus across both commercial and 
recreational interests. And we have been very pleased with the 
success we have had.
    Mr. Hill. And one of the reasons there is that you have a 
little broader group for collaborative purposes than occurred 
here. And I want to--actually you made the comment that I want 
to ask a second question about. This is a loaded question so 
get ready. You talked about the citizen management group may 
develop reasonable accommodations for long-term occupancy of 
private lands where bears appear consistently.
    Now, accommodation is an interesting word. In your view, 
does that mean that private lands that adjoin this area which 
are now bear habitat but don't have bears in them would be 
subject to what those on our side occasionally refer to as 
regulatory taking? And if so, would you support some provision 
here so that that accommodation would include some compensation 
to those private landowners since right now they have no risk 
of grizzly bears being--imposing them on the use of their land?
    Mr. France. I think compensation is very much on the table. 
Defenders of Wildlife, of course, is the expert, as it were, in 
private compensation funds with the terrific work they have 
done with the wolf program. We very much see that as a solution 
that is there, and I think Dr. Morgenweck said that citizen 
management could look at that. We very much recognize that 
private lands is a situation that is one of accommodation. And 
we have seen------
    Mr. Hill. So when you say accommodation, you mean you are 
going to accommodate the property owner here and not just the 
bears?
    Mr. France. Absolutely. You have to have a willing property 
owner and a working relationship, or you are not going to have 
bears. And as you well know, Congressman, with elk, with many, 
many species, we work at the good will of the private 
landowner. And it is an ongoing dialog. There are always going 
to be areas of friction, but we that want to work with the 
public's wildlife have to recognize those private concerns and 
those private rights.
    Mr. Fischer. I would interject that we are already working 
with Plum Creek in the Lolo Pass area to talk with them about 
management of their areas to see--we have been investigating 
how compatible their current land use is with grizzly recovery 
in that area and seeing what they could do voluntarily to 
improve it for bear recovery, and they are very receptive to 
that.
    Mr. Hill. OK. Thank you all very much. Again, I want to 
thank you for being here. I appreciate your input and your 
comments, and I am looking forward to continuing to work with 
you to try to find a way through all this. Thank you very much. 
Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Hill. Mr. Church, I have 
some more questions for you, but we have just gotten a notice 
that the Speaker has called an emergency meeting in HC5, and we 
also have another hearing. But I think we better meet with the 
Speaker, and so we are going to adjourn this long and drawn out 
hearing. And I thank you very much for coming out.
    We do have more questions, and I invite the members of the 
Committee to submit questions to Mr. Simmons, and we will 
submit them to you and would appreciate your answer at your 
very earliest convenience. And the record here in this 
Committee will be held open. Again, if there is no further 
business, this Committee is adjourned. Thank you.
    [Calgary Herald edition follows:]
    [Whereupon, at 3:02 p.m., the Subcommittee was adjourned.]
    [Additional materal submitted for the record follows.]
                             Briefing Paper

                                SUMMARY

    The Subcommittee on Forests and Forest Health will meet on 
Thursday, June 12, 1997 to hold an oversight hearing on the 
issue of the reintroduction of the grizzly bear in the public 
domain National Forests.

                               BACKGROUND

    The U.S. Fish and Wildlife Service has proposed 
reintroduction of the grizzly bear to the Selway-Bitteroot 
Mountains of central Idaho and Western Montana. The history of 
the proposal dates back to 1982 when the Fish and Wildlife 
Service completed the Grizzly Bear Recovery Plan (GBRP). This 
plan was revised in 1993 by the Interagency Grizzly Bear 
Committee.
    The GBRP addressed six areas: (l) Northern Continental 
Divide centered around Glacier National Park and the Bob 
Marshall Wilderness in northwestern Montana, (2) Cabinet-Yaak 
also in northwestern Montana, (3) Selkirk in north Idaho and 
northeastern Washington, (4) Yellowstone including lands 
surrounding Yellowstone National Park, (5) North Cascades in 
northwestern Washington, and (6) Bitteroot in central Idaho and 
western Montana.
    In 1995 the Fish and Wildlife Service brought together the 
Interagency Grizzly Bear Committee (IGBC) to begin the 
environmental impact statement (EIS) process. IGBC members 
include specialists from the Fish and Wildlife Service, Forest 
Service, Idaho Department of Fish and Game, Montana Department 
of Fish, Wildlife and Parks, and the Nez Perce Tribe.
    A public Notice of Intent was published in the Federal 
Register on January 9, 1995 to fulfill requirements of the 
National Environmental Policy Act (NEPA) to obtain input from 
other agencies and the public on the scope of the issues to be 
addressed in the EIS. The IGBC agreed to delay the planned 
release of the draft EIS.
    The 5,500-square mile evaluation area extends from the 
Salmon River north to include the North Fork of the Clearwater 
River. Approximately 97 percent of this area is public land 
managed by the U.S. Forest Service. The remainder is land owned 
by woods products companies. About half of the area is located 
in the Selway-Bitteroot and Frank Church River of No Return 
Wilderness.
    The grizzly bear (Ursus arctos horribilis) can weigh up to 
900 pounds and live up to 20 years. The oldest grizzly bear 
captured in North America was a 35 year-old female in the 
Cabinet Mountains of Montana. Grizzlies are omnivores that eat 
both plants and animals. About 80 percent of their diet is 
vegetation and insects. Home territory for a male grizzly can 
be as large as 300 square miles.
    Opposition to the reintroduction of the grizzly bear to the 
Selway-Bitteroot Mountains is unanimous from elected officials 
in Idaho. The governor, State legislature and entire Idaho 
Congressional Delegation including Chairman Helen Chenoweth 
have made formal statements opposing the grizzly bear being 
reintroduced into the State and the associated EIS process. The 
Legislature of the State of Idaho passed a resolution signed by 
Governor Phil Batt opposing reintroduction of the grizzly bear.

[GRAPHIC] [TIFF OMITTED] T4273.002

[GRAPHIC] [TIFF OMITTED] T4273.003

[GRAPHIC] [TIFF OMITTED] T4273.004

[GRAPHIC] [TIFF OMITTED] T4273.005

[GRAPHIC] [TIFF OMITTED] T4273.006

[GRAPHIC] [TIFF OMITTED] T4273.007

[GRAPHIC] [TIFF OMITTED] T4273.008

[GRAPHIC] [TIFF OMITTED] T4273.009

[GRAPHIC] [TIFF OMITTED] T4273.010

[GRAPHIC] [TIFF OMITTED] T4273.011

[GRAPHIC] [TIFF OMITTED] T4273.012

[GRAPHIC] [TIFF OMITTED] T4273.013

[GRAPHIC] [TIFF OMITTED] T4273.014

[GRAPHIC] [TIFF OMITTED] T4273.015

[GRAPHIC] [TIFF OMITTED] T4273.016

[GRAPHIC] [TIFF OMITTED] T4273.017

[GRAPHIC] [TIFF OMITTED] T4273.018

[GRAPHIC] [TIFF OMITTED] T4273.019

[GRAPHIC] [TIFF OMITTED] T4273.020

[GRAPHIC] [TIFF OMITTED] T4273.021

[GRAPHIC] [TIFF OMITTED] T4273.022

[GRAPHIC] [TIFF OMITTED] T4273.023

[GRAPHIC] [TIFF OMITTED] T4273.024

[GRAPHIC] [TIFF OMITTED] T4273.025

[GRAPHIC] [TIFF OMITTED] T4273.026

[GRAPHIC] [TIFF OMITTED] T4273.027

[GRAPHIC] [TIFF OMITTED] T4273.028

[GRAPHIC] [TIFF OMITTED] T4273.029

[GRAPHIC] [TIFF OMITTED] T4273.030

[GRAPHIC] [TIFF OMITTED] T4273.031

[GRAPHIC] [TIFF OMITTED] T4273.032

[GRAPHIC] [TIFF OMITTED] T4273.033

[GRAPHIC] [TIFF OMITTED] T4273.034

[GRAPHIC] [TIFF OMITTED] T4273.035

[GRAPHIC] [TIFF OMITTED] T4273.036

[GRAPHIC] [TIFF OMITTED] T4273.037

[GRAPHIC] [TIFF OMITTED] T4273.038

[GRAPHIC] [TIFF OMITTED] T4273.039

[GRAPHIC] [TIFF OMITTED] T4273.040

[GRAPHIC] [TIFF OMITTED] T4273.041

[GRAPHIC] [TIFF OMITTED] T4273.042

[GRAPHIC] [TIFF OMITTED] T4273.043

[GRAPHIC] [TIFF OMITTED] T4273.044

[GRAPHIC] [TIFF OMITTED] T4273.045

[GRAPHIC] [TIFF OMITTED] T4273.046

[GRAPHIC] [TIFF OMITTED] T4273.047

[GRAPHIC] [TIFF OMITTED] T4273.048

[GRAPHIC] [TIFF OMITTED] T4273.049

[GRAPHIC] [TIFF OMITTED] T4273.050

[GRAPHIC] [TIFF OMITTED] T4273.051

[GRAPHIC] [TIFF OMITTED] T4273.052

[GRAPHIC] [TIFF OMITTED] T4273.053

[GRAPHIC] [TIFF OMITTED] T4273.054

[GRAPHIC] [TIFF OMITTED] T4273.055

[GRAPHIC] [TIFF OMITTED] T4273.056

[GRAPHIC] [TIFF OMITTED] T4273.057

[GRAPHIC] [TIFF OMITTED] T4273.058

[GRAPHIC] [TIFF OMITTED] T4273.059

[GRAPHIC] [TIFF OMITTED] T4273.060

[GRAPHIC] [TIFF OMITTED] T4273.061

[GRAPHIC] [TIFF OMITTED] T4273.062

[GRAPHIC] [TIFF OMITTED] T4273.063

[GRAPHIC] [TIFF OMITTED] T4273.064

[GRAPHIC] [TIFF OMITTED] T4273.065

[GRAPHIC] [TIFF OMITTED] T4273.066

[GRAPHIC] [TIFF OMITTED] T4273.067

[GRAPHIC] [TIFF OMITTED] T4273.068

[GRAPHIC] [TIFF OMITTED] T4273.069

[GRAPHIC] [TIFF OMITTED] T4273.070

[GRAPHIC] [TIFF OMITTED] T4273.071

[GRAPHIC] [TIFF OMITTED] T4273.072

[GRAPHIC] [TIFF OMITTED] T4273.073

[GRAPHIC] [TIFF OMITTED] T4273.074

[GRAPHIC] [TIFF OMITTED] T4273.075

[GRAPHIC] [TIFF OMITTED] T4273.076

[GRAPHIC] [TIFF OMITTED] T4273.077

[GRAPHIC] [TIFF OMITTED] T4273.078

[GRAPHIC] [TIFF OMITTED] T4273.079

[GRAPHIC] [TIFF OMITTED] T4273.080

[GRAPHIC] [TIFF OMITTED] T4273.081

[GRAPHIC] [TIFF OMITTED] T4273.082

[GRAPHIC] [TIFF OMITTED] T4273.083

[GRAPHIC] [TIFF OMITTED] T4273.084

[GRAPHIC] [TIFF OMITTED] T4273.085

[GRAPHIC] [TIFF OMITTED] T4273.086

[GRAPHIC] [TIFF OMITTED] T4273.087

[GRAPHIC] [TIFF OMITTED] T4273.088

[GRAPHIC] [TIFF OMITTED] T4273.089

[GRAPHIC] [TIFF OMITTED] T4273.090

[GRAPHIC] [TIFF OMITTED] T4273.091

[GRAPHIC] [TIFF OMITTED] T4273.092

[GRAPHIC] [TIFF OMITTED] T4273.093

[GRAPHIC] [TIFF OMITTED] T4273.094

[GRAPHIC] [TIFF OMITTED] T4273.095

[GRAPHIC] [TIFF OMITTED] T4273.096

[GRAPHIC] [TIFF OMITTED] T4273.097

[GRAPHIC] [TIFF OMITTED] T4273.098

[GRAPHIC] [TIFF OMITTED] T4273.099

[GRAPHIC] [TIFF OMITTED] T4273.100

[GRAPHIC] [TIFF OMITTED] T4273.101

[GRAPHIC] [TIFF OMITTED] T4273.102

[GRAPHIC] [TIFF OMITTED] T4273.103

[GRAPHIC] [TIFF OMITTED] T4273.104

[GRAPHIC] [TIFF OMITTED] T4273.105

[GRAPHIC] [TIFF OMITTED] T4273.106

[GRAPHIC] [TIFF OMITTED] T4273.107

[GRAPHIC] [TIFF OMITTED] T4273.108

[GRAPHIC] [TIFF OMITTED] T4273.109

[GRAPHIC] [TIFF OMITTED] T4273.110

[GRAPHIC] [TIFF OMITTED] T4273.111

[GRAPHIC] [TIFF OMITTED] T4273.112

[GRAPHIC] [TIFF OMITTED] T4273.113

[GRAPHIC] [TIFF OMITTED] T4273.114

[GRAPHIC] [TIFF OMITTED] T4273.115

[GRAPHIC] [TIFF OMITTED] T4273.116

[GRAPHIC] [TIFF OMITTED] T4273.117

[GRAPHIC] [TIFF OMITTED] T4273.118

[GRAPHIC] [TIFF OMITTED] T4273.119

[GRAPHIC] [TIFF OMITTED] T4273.120

[GRAPHIC] [TIFF OMITTED] T4273.121

[GRAPHIC] [TIFF OMITTED] T4273.122

[GRAPHIC] [TIFF OMITTED] T4273.123

[GRAPHIC] [TIFF OMITTED] T4273.124

[GRAPHIC] [TIFF OMITTED] T4273.125


</pre></body></html>
